<html>
<title> - H.R. 2343: THE EDUCATION BEGINS AT HOME ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
              H.R. 2343: THE EDUCATION BEGINS AT HOME ACT 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 11, 2008

                               __________

                           Serial No. 110-95

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------

                        U.S. GOVERNMENT PRINTING OFFICE 

42-728 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 









































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director












































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 11, 2008....................................     1

Statement of Members:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, submissions for the record:
        Prepared statement of the Home Visiting Coalition........    64
        Prepared statement of the Child Welfare League of America    78
        Letter from the Military Impacted Schools Association, 
          dated June 10, 2008....................................    81
        Prepared statement of Prevent Child Abuse America........    81
        Prepared statement of the American Psychological 
          Association............................................    84
        Article: ``The Parents as Teachers Program and School 
          Success: A Replication and Extension,'' Journal of 
          Primary Prevention, March 2008, Internet address.......    85
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     5
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     4
        Additional submissions:
            Report: ``Breaking the Cycle of Child Abuse and 
              Reducing Crime in Pennsylvania: Coaching Parents 
              Through Intensive Home Visiting,'' Internet address    61
            Report: ``The Economic Return on PCCD's Investment in 
              Research-based Programs: A Cost-Benefit Assessment 
              of Delinquency Prevention in Pennsylvania,'' 
              Internet address...................................    61
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, submission for the record:
        Prepared statement of Sarah E. Walzer, executive 
          director, the Parent-Child Home Program................    61
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California, prepared statement of.................    61

Statement of Witnesses:
    Ditka, Laura A., deputy district attorney, Allegheny County, 
      PA, on behalf of Fight Crime: Invest in Kids...............    26
        Prepared statement of....................................    27
    Estrada, William A., Esq., director of federal relations, 
      Home School Legal Defense Association......................    30
        Prepared statement of....................................    32
    Fenley, Julie, Parents as Teachers program participant.......    17
        Prepared statement of....................................    19
    London, Makeda, Healthy Families program manager.............    20
        Prepared statement of....................................    21
    Smart, Jeanne, director of Nurse-Family Partnership, Los 
      Angeles County.............................................    32
        Prepared statement of....................................    34
    Weiss, Heather, Ed.D., founder and director, Harvard Family 
      Research Project, Harvard University Graduate School of 
      Education..................................................     7
        Prepared statement of....................................     9


                        H.R. 2343: THE EDUCATION
                           BEGINS AT HOME ACT

                              ----------                              


                        Wednesday, June 11, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:06 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Woolsey, 
Hinojosa, Tierney, Kucinich, Wu, Holt, Davis of California, 
Davis of Illinois, Sarbanes, Hirono, Altmire, Clarke, Courtney, 
Shea-Porter, McKeon, Ehlers, Platts, Kline, Foxx, and Davis of 
Tennessee.
    Staff present: Tylease Alli, Hearing Clerk; Alfred Amado, 
Legislative Fellow for Education; Ruth Friedman, Senior 
Education Policy Advisor (Early Childhood); David Hartzler, 
Systems Administrator; Lloyd Horwich, Policy Advisor, 
Subcommittee on Early Childhood, Elementary and Secretary 
Education; Fred Jones, Staff Assistant, Education; Danielle 
Lee, Press/Outreach Assistant; Stephanie Moore, General 
Counsel; Alex Nock, Deputy Staff Director; Joe Novotny, Chief 
Clerk; Rachel Racusen, Deputy Communications Director; Meredith 
Regine, Junior Legislative, Labor; Daniel Weiss, Special 
Assistant to the Chairman; Margaret Young, Staff Assistant, 
Education; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Service Policy; Cameron 
Coursen, Minority Assistant Communications Director; Kirsten 
Duncan, Minority Professional Staff Member; Alexa Marrero, 
Minority Communications Director; Susan Ross, Minority Director 
of Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order. A quorum being present, the committee 
will conduct a hearing on HR 2343, the Education Begins At Home 
Act.
    Good morning. I want to welcome all of you to today's 
hearing.
    We will examine the bipartisan legislation that will help 
strengthen America's families by expanding early childhood home 
visitation programs for parents and children.
    Throughout this Congress, we have explored how we can help 
every child arrive at kindergarten ready to learn. Last year we 
took important steps towards that goal by enacting legislation 
to reinvigorate our nation's Head Start program. This is just 
the beginning of our efforts. We know that investing in our 
youngest children is essential to boosting our nation's 
competitiveness.
    We must make long-term commitment to promoting positive 
growth and development in our children and in those who play 
the most significant role in their early years, their parents.
    Research tells us the relationships that form between 
parent and child during the first 3 years of life, when 85 
percent of the brain growth occurs, are especially influential 
on a child's cognitive and behavioral development. Early 
childhood home visitation programs provide parents with 
education and supportive services to help them better 
understand the learning and developmental needs of their 
children and build long-lasting parent-child bonds.
    Each year, hundreds of thousands of families benefit from 
these supportive services, which range from prenatal medical 
care to health services to family literacy programs. For many 
parents, the most valued support these programs provide has 
been emotional. For military families who often face unique 
parenting circumstances, home visits can make the world of 
difference when one parent is deployed or returning from 
overseas duty.
    The Parents As Teachers Program at the Ft. Bragg military 
base in North Carolina helped one mother going through an 
especially hard time during her husband's multiple deployments 
when her young son began acting out aggressively in child care, 
refusing to talk to his father on the phone during his 
rotations. Parents As Teachers staff helped the mother find 
ways to develop a closer bond and better communications between 
her husband and son.
    As several of our experts will explain today, early 
childhood home visitation programs provide far-reaching 
benefits, helping to increase student achievement, improve 
access to preventative medical care, reduce high school dropout 
rates and decrease maternal depression.
    For example, according to an evaluation of the parent-child 
home program in South Carolina, 93 percent of the program 
participants who were eligible for free lunch passed the 
state's first grade skills assessment in contrast to only 74 
percent of the free lunch eligible students overall.
    As Joan Ohl of the Bush administration's Commission on 
Children, Youth and Families recently highlighted, home visits 
are an effective approach to preventing child abuse by helping 
parents deal with the stresses of raising children. Yet for far 
too long the federal government has not invested enough in 
programs to support families and children during these first 
years of life.
    The Education Begins At Home Act would create for the first 
time a federal funding framework for home visitation programs, 
ensuring that the federal government plays a role in helping 
communities better plan for and provide quality services for 
families. It would authorize $400 million in grants to states, 
tribal organizations and territories over 3 years. The bill 
would also create competitive grant programs to expand access 
to home visitation services for military families and families 
with limited English proficiency.
    In addition, the bill would help states create partnerships 
between programs and related community services. Preparing 
children for success in school and in life begins at home. This 
legislation is about strengthening and supporting families, an 
investment that is in the best interest of our children, our 
communities and our future.
    I would like to welcome again all of our witnesses and 
thank them for joining us today. And I would especially like to 
thank Congressman Danny Davis and Congressman Todd Platts for 
introducing this bill, as well as Senator Kit Bond, who has 
introduced companion legislation in the Senate.
    Our senior Republican, Mr. McKeon, is on his way, and we 
will recognize him when he comes in for the purposes of making 
an opening statement.
    With that, I would like to recognize our panel and 
introduce them to the committee.
    Dr. Heather Weiss is the founder and director of the 
Harvard Family Research Project and is a senior research 
associate and lecturer at Harvard Graduate School of Education. 
Dr. Weiss received her Doctorate of Education and Social Policy 
from Harvard Graduate School of Education and she was 
postdoctoral research fellow at the Yale Bush Center in Child 
Development and Social Policy. Her latest publications include 
several articles reporting on her longitudinal study on ways in 
which family involvement in children's learning promotes 
development and school success.
    Julie Fenley, our next witness, and her husband, Victor 
Fenley, are originally from Conroe, Texas. In early 2007, he 
was relocated to Virginia Beach, Virginia, when Mr. Fenley 
enlisted in the U.S. Navy. Mr. and Mrs. Fenley participate in 
Parents As Teachers Program, which is based in Norfolk Naval 
Station, and have two children, Zane, who is 2 years old, and 
Megan, who is 7 years old. Mr. Fenley is an aviation structural 
mechanical airman apprentice at Norfolk Naval Station and Mrs. 
Fenley is a full-time parent and supportive Navy spouse.
    And I want to thank you very much for joining us today. We 
are going to hear a lot of testimony about different families 
that are impacted by the benefits of these programs, and later 
we are going to ask you some questions about the universality 
of these programs, because stress with children cut across all 
families. And so we thank you very much for being here.
    Mr. Davis, Congressman Davis, is going to introduce our 
next witness, Makeda London.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
And I, too want to welcome all of our panelists.
    I take great pride in introducing Ms. Makeda London, who 
works in my congressional district.
    Ms. London has devoted more than 30 years to helping 
Chicago as a social service provider, be it a faculty member, a 
substitute teacher, a leader in the public health community or 
a director of a community learning center. It is her 14 years 
of service as the director of the Healthy Families Home 
Visitation Program at the Near North Health Services 
Corporation located in the Winfield Moody Health Center that 
gives us the honor of hearing her today.
    Ms. London serves families from the Cabrini Green Public 
Housing Development. In an area known for its crime and 
difficulties, she has brought invaluable support and resources 
to thousands of Chicagoans. Her experiences will surely help 
increase our understanding of home visiting and how the 
Education Begins At Home Act can promote family well-being.
    So we certainly thank her and welcome her here today.
    Chairman Miller. Thank you very much.
    Mr. Altmire, I believe, is going to introduce our next 
witness, Laura Ditka.
    Mr. Altmire. Thank you, Chairman Miller, for allowing me 
the honor of introducing Laura Ditka, who is a constituent and 
a friend of mine from western Pennsylvania, a long-time friend.
    Ms. Ditka received her Bachelor's degree from Ohio 
University and her law degree from Duquesne University School 
of Law. She is an Allegheny County deputy district attorney and 
the founder of Alleghany County Child Abuse Unit. In this 
capacity, as head of that unit, Ms. Ditka is the lead attorney 
responsible for cases dealing with child abuse and homicide in 
Allegheny County.
    Her experience includes 130 jury trials and more than 20 
homicide trials. Additionally, Ms. Ditka is an adjunct 
professor at the Community College of Allegheny County and the 
chairwoman of the Allegheny County Arbitration Division.
    Today Ms. Ditka will be testifying on behalf of Fight 
Crime, Invest in Kids, an organization of more than 4,000 
police chiefs, sheriffs, prosecutors and victims of violence.
    I look forward to hearing her testimony and highly 
recommend her to the committee.
    Chairman Miller. Welcome to the committee.
    William Estrada is an attorney and the director of federal 
relations for the Home School Legal Defense Association, where 
he has served as the director of federal relations for 2 years. 
During this time, he has worked on numerous federal issues that 
are of interest to the home school community in the United 
States.
    Jeanne Smart is a registered nurse who is the director of 
the Nurse-Family Partnership Program for Los Angeles County 
Department of Public Health, where she directs all nurse home 
visiting programs within the Department's Maternal, Child and 
Adolescent Health Programs. She also represents the Department 
of Interagency Operations Group for senior level managers from 
the County's Health and Human Services Agency. She has worked 
as a community-based public health nurse in some of the highest 
risk areas of LA County and also been a public health nursing 
instructor at California State in Los Angeles and California 
State Long Beach. Welcome.
    With that, I would like to turn to the senior Republican on 
the committee, Mr. McKeon, for his opening statement, and then 
we will begin with your testimony and we will begin with you, 
Dr. Weiss, when Mr. McKeon is done.
    Thank you.
    The gentleman is recognized.

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. Welcome to today's hearing on ``H.R. 2343: The 
Education Begins At Home Act.'' Today we will examine bipartisan 
legislation that will help strengthen American families by expanding 
early childhood home visitation programs for parents and children.
    Throughout this Congress, we have explored how we can help every 
child arrive at kindergarten ready to learn.
    Last year, we took important steps towards this goal by enacting 
legislation to reinvigorate our nation's Head Start program.
    This is just the beginning of our efforts. We know that investing 
in our youngest children is essential to boosting our nation's 
competitiveness.
    We must make a long-term commitment to promoting positive growth 
and development in our children--and in those who play the most 
significant role in their early years: Parents.
    Research tells us that the relationships that form between a parent 
and a child during the first three years of life--when 85 percent of 
brain growth occurs--are especially influential on a child's cognitive 
and behavioral development.
    Early childhood home visitation programs provide parents with 
education and supportive services to help them better understand the 
learning and developmental needs of their children and build long-
lasting parent-child bonds.
    Each year, hundreds of thousands of families benefit from these 
support services, which range from pre-natal medical care and health 
services to family literacy programs.
    For many parents, the most valuable support these programs have 
provided has been emotional.
    For military families, who often face unique parenting 
circumstances, home visits can make a world of difference when one 
parent is deployed or returning from overseas duty.
    The Parents as Teachers program at the Fort Bragg military base in 
North Carolina, helped one mother going through an especially hard time 
during her husband's multiple deployments.
    When her young son began acting out aggressively in child care and 
refusing to talk to his father on the phone during his rotations, the 
Parents as Teachers staff helped the mother find ways to develop a 
closer bond and better communication between her husband and son.
    As several of our experts will explain today, early childhood home 
visitation programs provide far-reaching benefits: Helping to increase 
student achievement, improve access to preventative medical care, 
reduce high school dropout rates, and decrease maternal depression.
    For example, according to an evaluation of the Parent-Child Home 
program in South Carolina, 93 percent of program participants who were 
eligible for free lunch passed the state's first grade skills 
assessment, in contrast to only 74 percent of free-lunch-eligible 
students overall.
    And as Joan Ohl, the Bush administration's Commissioner for 
Children, Youth and Families recently highlighted, home visits are an 
effective approach to preventing child abuse by helping parents deal 
with the stresses of raising children.
    Yet for too long, the federal government has not invested enough in 
programs that support families and children during these first years of 
life.
    The Education Begins at Home Act would create, for the first time, 
a federal funding framework for home visitation programs, ensuring that 
the federal government plays a role in helping communities better plan 
for and provide quality services to families.
    It would authorize $400 million in grants to states, tribal 
organizations, and territories over three years.
    The bill would also create competitive grant programs to expand 
access to home visitation services for military families and families 
with limited-English proficiency.
    In addition, the bill would help states create partnerships between 
programs and related community services.
    Preparing children for success in school and in life begins in the 
home. This legislation is about strengthening and supporting families--
an investment that is in the best interests of our children, our 
communities, and our future.
    I'd like to welcome all of our witnesses and thank them for joining 
us today.
    I'd especially like to thank Congressmen Danny Davis and Todd 
Platts, for introducing this bill, as well as Senator Kit Bond, who has 
introduced companion legislation in the Senate.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller. Good morning. I 
apologize for being late.
    We are here today to examine the Education Begins At Home 
Act, a bill that authorizes approximately half a billion 
dollars to establish or provide programs that provide home 
visitation services for families.
    I appreciate that we are here for a legislative hearing, 
particularly given the significant size and scope of this 
proposal. Today's hearing gives us an important opportunity to 
consider not only the broad concept of home visitations, which 
are generally intended to improve child development, child 
health and wellness and parenting practices, but also to look 
at the specific details of the legislation that has been 
proposed.
    In recent years, our committee has focused on authorizing 
and funding programs with proven results. We know that programs 
backed by sound scientific research can help ensure more 
meaningful results for children, a goal we all share whether we 
are talking about effective reading and mathematics instruction 
or Head Start reform or any number of other programs.
    To that end, I am anxious to hear more today about the 
research surrounding home visitation programs. What effects 
have been demonstrated when it comes to cognitive development, 
school preparedness and parenting skills? Have some programs 
been shown to be more effective than others? Are home visits 
helpful in their own right, or only when paired with other 
services?
    I am also interested in a discussion about how best to 
target federal resources. Traditionally, federal intervention 
in this area has focused on disadvantaged children. Take the 
Early Head Start program, for example. In that program, we have 
explored the use of home visits to strengthen parenting skills 
and cognitive development in a way that compliments the 
services provided through Early Head Start. This approach 
ensures that we are reaching the children most likely to 
require additional support in order to start school on par with 
their more advantaged peers.
    Today's hearing will allow us to explore these and many 
other questions about the Education Begins At Home Act. I want 
to thank our distinguished panel of witnesses for joining us, 
sharing their views and allowing us to benefit from their 
varied areas of expertise. There are a range of perspectives on 
this issue, each of which will be valuable in our 
deliberations.
    I intend to focus today on the questions I just posed, 
including whether there are proven strategies for success in 
this field and how best to target resources to those most in 
need.
    Once again, I thank the chairman for holding this hearing 
and I yield back the balance of my time.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller, and good morning. We're here today to 
examine the Education Begins at Home Act, a bill that authorizes 
approximately half a billion dollars to establish or expand programs 
that provide home visitation services for families.
    I appreciate that we're here for a legislative hearing, 
particularly given the significant size and scope of this proposal. 
Today's hearing gives us an important opportunity to consider not only 
the broad concept of home visitations--which are generally intended to 
improve child development, child health and wellness, and parenting 
practices--but also to look at the specific details of the legislation 
that has been proposed.
    In recent years, our committee has focused on authorizing and 
funding programs with proven results. We know that programs backed by 
sound scientific research can help ensure more meaningful results for 
children, a goal we all share whether we're talking about effective 
reading and mathematics instruction or Head Start reform or any number 
of other programs.
    To that end, I'm anxious to hear more today about the research 
surrounding home visitation programs. What effects have been 
demonstrated when it comes to cognitive development, school 
preparedness, and parenting skills? Have some programs been shown to be 
more effective than others? Are home visits helpful in their own right, 
or only when paired with other services?
    I'm also interested in a discussion about how best to target 
federal resources. Traditionally, federal intervention in this area has 
focused on disadvantaged children.
    Take the Early Head Start program, for example. In that program, we 
have explored the use of home visits to strengthen parenting skills and 
cognitive development in a way that complements the services provided 
through Early Head Start. This approach ensures that we're reaching the 
children most likely to require additional support in order to start 
school on par with their more advantaged peers.
    Today's hearing will allow us to explore these and many other 
questions about the Education Begins at Home Act. I want to thank our 
distinguished panel of witnesses for joining us, sharing their views, 
and allowing us to benefit from their varied areas of expertise.
    There are a range of perspectives on this issue, each of which will 
be valuable in our deliberations. I intend to focus today on the 
questions I just posed, including whether there are proven strategies 
for success in this field and how best to target resources to those 
most in need.
    Once again, I thank the chairman for holding this hearing, and I 
yield back the balance of my time.
                                 ______
                                 
    Chairman Miller. Thank the gentleman.
    We are going to begin with your testimony. When you begin, 
in front of you a green light will go on that tells you that 
you have 5 minutes for your testimony. Obviously, you can't say 
everything you want to say in 5 minutes, but do the best you 
can. And at 4 minutes, an orange light will come on and that 
tells you that you have a minute to sort of try to wrap up. We 
want you to complete your thoughts, coherent sentences and all 
the rest of that, but we are in session now, so at some point 
there may be votes and we want to make sure that everybody gets 
an opportunity to be heard.
    So, Dr. Weiss, we will begin with you.
    And your written statements, of course, are all part of the 
formal record, and so we want you to know that also.
    Dr. Weiss?

  STATEMENT OF HEATHER B. WEISS, ED.D., FOUNDER AND DIRECTOR, 
HARVARD FAMILY RESEARCH PROJECT, SENIOR RESEARCH ASSOCIATE AND 
         LECTURER, HARVARD GRADUATE SCHOOL OF EDUCATION

    Ms. Weiss. Thank you very much for the privilege of 
testifying before you this morning.
    I want my remarks to sort of talk about some of the 
research evidence that then frames what you are going to hear 
from other very important members of this panel, and that is 
families and people who provide home visit services.
    I have a long-term interest in home visitation because of 
its capacity to help parents get the knowledge and skills and 
support they need to help their children succeed. I am here 
because as a researcher who created the Harvard Family Research 
Project, I know the 40 years of research that shows that 
parenting and family processes are one of if not the strongest 
predictor of kids' development and school and life success.
    They are the strongest predictors, I think, of cognitive, 
social and emotional development and, therefore, a very 
powerful source of improving outcomes for kids.
    I know from recent reviews that I have done with colleagues 
that children and youth with involved and supportive and 
nurturing parents from birth to adolescence are likely to 
succeed in school. They are going to be ready for school, 
succeed in school. They are more likely to get better grades. 
They are more likely to graduate from high school. And also 
they are more likely to go to college or have some kind of 
post-secondary success.
    So what potentially home visits in the early years do is 
set a pathway of parent involvement that begins at birth and 
continues through school, and when you create that pathway, you 
increase the likelihood of the long-term benefits we want for 
kids, and that is high school graduation with the skills they 
need to succeed in college or post-secondary education and then 
in the global economy and the world.
    So this sounds great. What do we know from research about 
whether or not voluntary early childhood home visitation is a 
good public policy investment? I look at this through the lens 
of three questions: What is the evidence that home visiting 
creates positive changes in parenting that results in better 
outcomes for children and families? What is the evidence that 
the home visiting field is ready to scale up and it will 
produce these positive outcomes at scale? This is a big public 
policy investment. What does the research tell us about whether 
or not we are going to get payback at scale? And finally, what 
legislation and policy provisions are likely to support 
successful scale up so you get the substantial returns on 
investment?
    And as a researcher, I of course look closely at 
legislation and say does this legislation incorporate what I 
think research tells us that increases the likelihood of 
getting benefits at scale. So I want to address these 
questions. I address them, actually, in my written testimony in 
detail. I am going to talk about them kind of in a Cliff notes 
version today, and then I am happy to answer questions.
    I am really here to strongly support the Education Begins 
At Home Act, because there is a strong and growing knowledge 
base of evaluation evidence that high quality, voluntary early 
childhood home visit programs pay off on a variety of outcomes. 
They develop parenting skills and knowledge and understanding 
of the key roles that parents play in kids' learning and 
development.
    There is a lot of short-term evidence to this effect, which 
I have summarized in gruesome detail and probably put many 
people to sleep with, and I am happy to talk about it, believe 
me, but I think you can make a strong evidence-based case that 
investment in high quality programs pays off across an array of 
outcomes.
    A thing that is of particular interest to me is the fact 
that we are now getting longitudinal evidence that shows that 
these programs have the potential to increase parent 
involvement into elementary school, meaning that parents are 
more likely to go to parent-teacher conferences, initiate 
contact with their teachers about how the child is doing, and 
as somebody who knows the parent involvement in school and 
learning at home literature, if you can create that kind of 
changed parenting behavior that endures through elementary and 
into high school and beyond, you have got a real recipe for 
long-term positive outcomes for kids.
    The evidence also tells us a great deal about how to 
develop and implement high quality programs. And this knowledge 
I would argue is critical for the success of investment at 
scale. We know a great deal about what it takes to get high 
quality home visit programs, and I want to talk about that in a 
minute.
    So when I think about it, there is bottom line potential, 
great bottom line potential for home visits to return very 
important, positive outcomes in the early years and well into 
elementary school and perhaps beyond. These outcomes are things 
like increased school readiness and school success, prevention 
of costly problems from maltreatment to teenage substance 
abuse, delinquency, those kinds of problems. We are beginning 
to have some evidence of those kinds of benefits with 
longitudinal research.
    So I support EBAH because of the way, finally, the key 
features about what we know about what we need to produce and 
implement high quality programs maps directly onto key 
provisions of the legislation.
    The research tells us that high quality home visit programs 
are necessary but not sufficient. They need to be part of a 
broader set of early childhood services, including center-based 
early care and education, and they need to be connected to 
other supports and resources in the community. The legislation 
provides for training, curriculum development and I think 
incredibly importantly for external evaluation and ongoing 
performance management. It requires that states and programs 
report yearly on key indicators. They can then use the 
information they get from their performance management to 
increase their performance.
    So when I think about what makes for high quality 
investments in public policy, EBAH has strong research behind 
it, research that helps us understand how to deliver quality 
programs, and the capacity to track our performance and see if 
we are getting a return on investment.
    Thank you.
    [The statement of Ms. Weiss follows:]

   Prepared Statement of Heather Weiss, Ed.D., Founder and Director, 
Harvard Family Research Project, Harvard University Graduate School of 
                               Education

    Chairman Miller and Members of the Committee: Thank you for the 
opportunity to provide testimony at this important hearing on the 
Education Begins at Home act. My name is Heather Weiss and I am the 
Founder and Director of the Harvard Family Research Project at the 
Harvard University Graduate School of Education. I have spent the past 
thirty years of my work devoted to building the knowledge base for 
programs and policies that strengthen and support families, schools and 
communities as settings for child development. We regularly compile and 
synthesize research and evaluation studies to guide policy, practice 
and evaluations, and to provide programs with tools and information to 
guide their evaluations. My colleagues and I at the Harvard Family 
Research Project are known for our work building the research base for 
complementary learning supports which we define as a systemic approach 
that intentionally integrates school and non-school supports such as 
home visitation and afterschool programs with schools to promote 
educational and life success. Complementary learning builds on a long 
history of theory and research about the many contextual influences on 
children's development and on the research-based understanding that 
neither schools nor families nor communities alone can ensure learning 
and educational achievement. I sit on numerous advisory boards, advise 
on and evaluate major foundation grantmaking initiatives for children 
and families, and recently served on the National Academy of Sciences 
Institute of Medicine Committee evaluating the implementation of PEPFAR 
with particular attention to its effects on orphans and vulnerable 
children.
    Let me start with a useful and undeniable fact: The evidence from 
over forty years' research into the factors that affect children's 
education is both consistent and substantial. Family involvement in a 
child's learning at home, at school, and in the community is one of the 
strongest predictors of social, emotional and academic development.\1\ 
Nurturing and responsive parenting is a critical factor in ensuring 
that children are ready to enter and to exit from school with the 
skills they need to succeed in higher education and in the global 
workforce. Children and youth with involved and supportive parents from 
birth through adolescence do better in many ways. They are more ready 
to succeed in school, and they get better grades, have higher 
graduation rates, and are more likely to go to college.\2\
    The Education Begins At Home Act (EBAH), providing funding for 
states to develop, deliver and evaluate home visitation as a core 
component of early childhood services, is a key piece of the national 
effort to insure that all children succeed for several reasons. It is 
the first dedicated federal funding stream providing information and 
support for parents to help them enhance their children's early 
development. Beginning at birth, home visitation establishes the 
critical importance of parent involvement in learning and helps parents 
and schools understand and reinforce its continued importance through 
the child's entire school career. Evaluations of home visit programs 
indicate that when they are delivered with sufficient frequency and 
quality, they help parents, particularly economically and otherwise 
disadvantaged ones, get what they need to help their children succeed. 
The evaluations suggest that these programs can increase school 
readiness, increase parents' understanding of their role in child 
development, strengthen parenting practices, improve maternal and child 
health, and help to reduce child maltreatment. The provisions of the 
EBAH Act draw from the most recent research and evaluations laying out 
what it takes to develop effective home visit services and this 
increases the likelihood of strong returns on investments in these 
early parent support and education services.\3\
    My review of the home visit research and evaluation literature 
addresses three central questions:
    1. What is the evidence that early childhood home visit programs 
create positive changes in parenting and parent involvement in learning 
that lead to better outcomes for children?
    2. What is the evidence that the home visit field is ready to scale 
up and that it can produce these positive outcomes at greater scale 
within states?
    3. How does the EBAH legislation incorporate the lessons from past 
evaluations and leaders in the home visit field, thereby increasing the 
likelihood of returning positive results at greater scale?
    This testimony and research review draw from several areas in my 
research and professional experience: individual evaluations of 
national home visit program models; several literature reviews of home 
visitation conducted over the past fifteen years;\4\ a recent meta-
analysis of 60 programs employing home visitation as the primary 
service delivery strategy;\5\ and interviews with leaders from six 
well-established national home visit program models and selected home 
visit researchers and evaluators.\6\ Several national home visit models 
have conducted rigorous experimental or quasi-experimental evaluations 
of their programs at one or more sites in the past twenty years; by 
2004, there were enough peer-reviewed studies by these and other 
programs to warrant meta-analysis.
    I also draw on my on-the-ground experience with The Home Visit 
Forum, a consortium of six national voluntary home visit programs which 
operated from 1999 to December 2005. The consortium was organized by 
the Harvard Family Research Project, in conjunction with Deborah Daro 
of Chapin Hall and Barbara Wasik of Johns Hopkins University, to 
strengthen the research and evaluation and continuous improvement 
capacity of the home visit field and to build its knowledge base.\7\ 
The Forum members included representatives from Early Head Start, 
Healthy Families America, Home Instruction for Parents of Pre-School 
Youngsters (HIPPY), the Nurse-Family Partnership, Parents As Teachers 
(PAT) and the Parent Child Home Program. Each of these are home 
visitation models serving children during the course of the first five 
years of life and emphasizing different aspects of parenting and child 
development. Early Head Start is the early years component of the Head 
Start program and it includes both home visitation and a center-based 
component. Healthy Families America is a program that begins in the 
first year of life and specifically targets families considered to be 
at risk for abuse and neglect. HIPPY serves 3-5 year olds with a 
parent-child literacy emphasis. The Nurse-Family Partnership works with 
first-time teen mothers beginning in the third trimester of pregnancy 
and continuing through the second year of life and provides a series of 
maternal and child health and early parenting supports. Parents As 
Teachers works with families with children in the first two years of 
life and provides an array of parenting services. The Parent Child Home 
Program focuses on family literacy for children from ages 3--5. Each of 
the models is national in scope and coverage and has been providing 
services for at least twenty years.
Overview of Early Home Visitation
    Voluntary home visiting programs provide parenting education and 
support at home or other locations chosen with families. Different 
program models target different kinds of families, ranging from first-
time teen mothers to all families with children in their requisite age 
group, and they typically provide services anywhere from a two- to a 
five-year period. As the table below with information from six of the 
national models shows, programs differ in their goals and the types of 
families they serve, and as a result, they focus on achieving 
different--although sometimes overlapping--outcomes.
----------------------------------------------------------------------------------------------------------------
                               Population Served                              Program Goals
----------------------------------------------------------------------------------------------------------------
Early Head Start        Low-income pregnant women with   Promote healthy prenatal outcomes, enhance development
                         infants and toddlers             of young children, promote healthy family functioning----------------------------------------------------------------------------------------------------------------
Healthy Families        Parents of all income levels     Promote positive parenting, prevent child abuse and
 America                 identified as at-risk for        neglect
                         abuse and neglect----------------------------------------------------------------------------------------------------------------
The Home Instruction    Families, many low-income but    Empower parents as their children's educators, enhance
 Program for Preschool   no restricted income             children's early school success
 Youngsters (HIPPY)      guidelines----------------------------------------------------------------------------------------------------------------
The Nurse-Family        Low-income, first-time mothers   Improve pregnancy outcomes, child health and
 Partnership                                              development, family economic self-sufficiency----------------------------------------------------------------------------------------------------------------
The Parent-Child Home   Low-income families              Develop children's language and literacy skills and
 Program                                                  prepare them for academic success, empower parents and
                                                          enhance parenting skills----------------------------------------------------------------------------------------------------------------
Parents as Teachers     Parents of all income levels     Empower parents and increase their knowledge of child
                                                          development, prepare children for school success
----------------------------------------------------------------------------------------------------------------

    Most programs also connect families with other community resources 
to support families, including health, mental health, social and other 
services.\8\ As of 2001, at least 37 states had home visiting systems 
in place, and the number is no doubt higher now.\9\ Many are 
experimenting with targeted vs. universal services, targeting 
particular models to particular groups, combining models for coverage 
from birth through preschool, and combining home visitation with 
center-based early care and education.
    Early childhood home visitation programs are viewed as a promising 
strategy for helping parents and thereby promoting the growth, 
development and school readiness of young children because, as 
developmental research consistently confirms, young children are most 
likely to reach their full potential when they have nurturing, 
stimulating and supportive relationships with their caregivers.\10\ 
Home visit programs focus on building such relationships.
    As Hart and Risley's (2002) path-breaking study of the role of 
families in early development indicated, children's early language and 
literacy development, as well as their understanding of their capacity 
to learn, are shaped in the everyday interactions they have at home 
with their parents in the first few years.\11\
    This study, as well as other research on early development, 
indicates that economically disadvantaged children are less likely to 
have rich home literacy environments or frequent positive interactions 
and experiences with their economically-stressed parents. This in turn 
puts them at a disadvantage when they begin school.\12\ Child 
development research affirms the importance of parenting practices and 
involvement for early childhood development. Home visitation programs 
are one way to reach busy parents and offer them regular information 
and support with potential benefits for both the children and the 
family.

    Question 1: What is the evidence that early childhood home 
visitation programs create positive changes in parenting and parent 
involvement in learning that lead to better outcomes for children?

    Most of the narrative reviews over the past fifteen years, as well 
as the recent meta-analysis, conclude that home visitation programs can 
produce positive changes across an array of child and parent outcomes 
when the conditions for high quality services are met. Sweet and 
Appelbaum 's meta-analysis examined five parent and five child outcomes 
and found home visiting was associated with improved parenting 
attitudes and behaviors; mothers returning to school; children with 
better social, emotional and cognitive abilities; and less potential 
for child abuse based on emergency room visits, injuries and accidents. 
They, like most other reviewers, concluded that home visit programs are 
a promising but not yet proven strategy. Such programs create modest 
but potentially important positive changes, for, as Sweet and Appelbaum 
note, ``all effect sizes fall in the small category * * * statistical 
significance, however, does not necessarily indicate practical 
significance and whether or not the magnitude of observed effects is 
meaningful and important remains to be determined'' (1435-1456). As 
will be noted below, several of the national models have studies 
indicating longitudinal benefits of early home visitation for children 
and for families.
    At the same time, twenty-five years of investments in evaluation 
are paying off in a clearer understanding of the characteristics of 
high quality programs, and of the circumstances necessary for home 
visitation to produce these and other benefits as they go to greater 
scale around the country. Expectations for home visitation must be 
realistic. Home visits are ``necessary but not sufficient,'' \13\ and 
to be effective, they should be embedded in a comprehensive system of 
early childhood services, especially when they serve highly stressed or 
economically or otherwise disadvantaged families. Evaluations of 
several of the major home visit models also suggest that home 
visitation in conjunction with high quality early childhood education 
and/or preschool is more likely to result in positive gains.
    The comprehensive evaluation of Early Head Start's (EHS) home 
visiting, center-based and mixed home visit and center models showed 
that the mixed approach had the broadest range of significant impacts, 
including on children's language, social-emotional development, and on 
parents in terms of reading more to their children, being more 
supportive during play, and using less physical punishment, supporting 
the case for a mixed home and center approach. Similarly, a non- 
experimental evaluation of the Parents As Teachers Program (PAT) found 
the best outcomes when home visitation was combined with center-based 
care or preschool. Minority and non-minority children and those in 
high- and low-poverty schools who participated in PAT and preschool 
scored higher on kindergarten readiness assessments, as did EHS 
children who also participated in PAT and preschool. Children cared for 
only at home but participating in PAT scored higher than those whose 
parents did not participate. The combination of home visitation and 
center-based early childhood programs can enhance literacy, math and 
behavioral readiness for school, all key to early school success.
    Several of the national models target early literacy, and their 
evaluations suggest promising results with respect to language and 
literacy development. In a study of kindergarten readiness, The Parent 
Child Home Program (PCHP) found significant increases in school 
readiness for participating at-risk children.\14\ HIPPY USA has 
promising results in the second year of a three-year study of HIPPY 
AmeriCorps programs with respect to an array of parent literacy-related 
behaviors and practices and indicators of children's language and 
literacy.
    There are a few studies which suggest long-term educational and 
societal benefits from early home visitation, and fewer still which 
examine cost analyses. However, several of the national home visit 
models have longitudinal research underway and there are calls for new 
cost-benefit studies. In addition to positive results from the 
longitudinal research on the Nurse-Family Partnership (noted in the 
textbox above), the Parent Child Home Program (PCHP) has followed up 
and compared results for at-risk children who completed the program and 
a control group. PCHP children had significantly higher rates of 
graduation. Several of the national program models target reduced 
costly child maltreatment as a key program goal and outcome, including 
the Nurse-Family Partnership and Healthy Families America. These 
programs show some promising results, particularly for mothers with the 
fewest resources to draw on, those who are younger, economically 
disadvantaged and first-time mothers.\15\ The two available cost-
benefit analyses suggest that benefits can outweigh the costs, but they 
are preliminary, suffer from insufficient information--particularly 
across and within the major models--and serve primarily as an incentive 
to do further cost-benefit studies with better information.\16\
    Twenty five years of evaluation of voluntary home visit programs 
indicates that it is critically important to keep expectations of what 
they can achieve reasonable and realistic, and to embed home visitation 
within a system of early childhood services. It is also important to 
insure that there are means to connect families with other accessible 
family support services and supports. Programs with theories of change 
that carefully link program inputs and processes to desired outcomes, 
that continually measure their performance and that use the results as 
well as other research for continuous improvement and innovation, are 
more likely to provide the quality necessary to get the desired child 
and family outcomes. There are a number of examples of this. The Nurse-
Family Partnership has been experimenting with a new curriculum which 
has shown promise in reducing domestic violence. PAT has redone its 
curriculum in accord with the latest research on child growth and 
development from neuroscience. Evaluations also suggest the importance 
of sufficient resources to hire competent staff, provide ongoing and 
high-quality training and supervision, insure strong organizational 
capacity, and allow attention to outreach and program engagement in 
order to build the family-visitor relationship and insure sufficient 
dosage to get results. When these quality indicators are not in place, 
there is much less likelihood that investments in voluntary home 
visitation will pay off in better results for children and families. 
When they are, home visitation can provide information and support to 
families that set them on a path to nurturing and responsive parenting 
and continued involvement with the child's learning into and through 
the school career.

    Question 2: What is the evidence that the home visit field is ready 
to scale-up and that it can produce positive outcomes at a greater 
scale within states?

    Voluntary home visitation has been provided to families with young 
children from at least the nineteenth century through to today. The 
current major national home visit models date from the 1970's, and a 
number of them have been gradually going to greater scale in 
communities and now states around the country. Spurred by the national 
movement to results-based accountability, as well as by sometimes mixed 
evaluation results, national home visit models have been building their 
national training and technical assistance capacities, partnering with 
each other, and working to build their capacity to evaluate, track and 
improve their performance and to be accountable for the results they 
seek to obtain. The leaders of these national models, as well as those 
creating state early childhood systems, are very aware that in the 
current and future policy environment, even experimental evidence that 
a program works in one place is insufficient to warrant scale-up and 
sustained funding. They understand that in current and future policy 
environments, there are now two key questions that must be addressed: 
Is there experimental evidence that voluntary home visitation 
``works?'' and ``Does the field have the understanding of and capacity 
to provide what it takes to go to, and return results at, scale?''
    In 2006, Weiss and Klein reviewed the evidence on home visitation 
to address the question of readiness to scale. They concluded, given 
the current state of knowledge and appropriate demands for 
demonstration of returns on investment, that voluntary home visiting is 
a wise bet so long as four conditions around home visitation capacity 
and infrastructure are met as expansion occurs:
    1. First, given the substantial and growing body of evidence about 
home visiting, new and continued funders and their funding should 
ensure that there is national and state support so that providers have 
the commitment and capacity to incorporate lessons from their own and 
each others' research and evaluation for program improvement as they go 
to and operate at greater scale.
    2. Recent meta-analyses suggest that looking across as well as 
within programs provides information about the specific capacities, 
characteristics and activities that contribute to more positive 
outcomes for children and families. Therefore, a second condition is 
that home visiting programs must regularly collect and report 
information on their progress and outcomes to determine if their 
hypothesized outcomes are being achieved.
    3. The third condition is that national models and others doing 
research, evaluation and performance monitoring share their information 
and results to build the collective knowledge base and inform public 
policy on home visitation.
    4. Finally, because recent evaluations have shown that home 
visiting can be more effective for economically and otherwise 
disadvantaged families when it is paired with center-based early 
childhood and/or prekindergarten programs, the fourth condition is that 
there be support for and encouragement of trails of these and other 
combinations to better understand how home visitation fits with and 
contributes to a comprehensive system of early childhood child and 
family supports.
    Weiss and Klein also interviewed representatives of the national 
models and selected researchers and evaluators knowledgeable about home 
visitation to get their perspectives and recommendations about 
investments in knowledge development and system and capacity building 
that would support efforts to scale high quality and effective home 
visitation programs. There followed six recommendations about what is 
necessary to deliver quality services at scale:
    1. Develop mechanisms to test and report on the extent to which 
quality home visiting at scale improves outcomes for young children and 
parents.
    2. To increase the likelihood of achieving results at scale, and to 
support learning and continuous improvement efforts, programs should 
use a management information system for tracking and monitoring 
activities.
    3. Identify what capacity is needed to maintain quality at scale in 
areas including training, supervision, technical assistance, research, 
communication, and advocacy, and feed this information back in to 
support capacity building in each of these areas.
    4. Invest in research to better monitor and understand what happens 
in visits that leads to improved outcomes and to support training and 
supervision efforts.
    5. Invest in research to better match program goals, activities, 
and intensity with family circumstances, home visitors, and supports to 
get the best outcomes for young children and parents. This information 
is essential for decisions about targeted vs. universal services, 
allocation of families to particular models, and for decisions about 
how to integrate home visitation into other early childhood services.
    6. Identify realistic expectations for what home visiting can 
accomplish and hold programs accountable for achieving those outcomes.
    The interviews with the national model representatives indicated 
that they are implementing these recommendations now, and that they are 
working with a number of state government and nonprofit organizations 
in their efforts to do so. The details of their work are described in 
Weiss and Klein, 2006. Continuation of these efforts is important as 
home visitation moves from individual model-led national expansion to 
expansion within a state-led system of home visitation services 
integrated into a larger comprehensive system of early childhood child 
and family supports. There is much to be learned from the efforts of 
the six models as states scale home visitation services. There are also 
key decisions to be made about a national research and evaluation 
agenda for home visitation and how state program expansion will fit 
with and benefit from national or cross state evaluation, performance 
management, continuous improvement and accountability efforts.
    Several of the recommendations above may be most efficiently 
managed at the national level with states contributing data and 
experiences, while others might best be handled at the state level with 
a commitment to cross-state and national information sharing and 
synthesis. So, for example, states should oversee the development of 
management information systems but they can learn from the national 
models and from each other as they do so. Program expansion arguably 
should be tied to a transparent and effective system for collecting 
indicators of performance and evidence of use for program improvement 
purposes. Research on what happens in home visits--with resulting 
implications for targeting, training and supervision, on the other 
hand--might best be part of a state-informed but nationally developed 
and funded research and evaluation agenda, again committed to 
dissemination of results to support continuous improvement efforts. As 
home visiting moves to scale, it will also be important for states to 
suggest other questions for a nationally-funded research and evaluation 
agenda that would in turn inform their work and quality improvement 
efforts. Coordinated national and state efforts will be necessary to 
address recommendation five, research and evaluations to answer key 
policy questions about what types of home visitation, in combination 
with what other supports and early childhood services, work when and 
how for what types of families in order to promote school readiness and 
other valued outcomes.
    In sum, the promising evidence on home visit effectiveness and the 
field's growing understanding of what it takes to develop and implement 
high quality services lead many to conclude they are worthy of 
investments to scale-up, so long as all the conditions noted above, 
particularly their integration into a comprehensive system of services, 
are met.

    Question 3: How does the EBAH legislation incorporate the lessons 
from past evaluations, and thereby increase the likelihood of returning 
positive results at greater scale?

    The Education Begins at Home Act--with three years' funding for 
states to expand access to early childhood home visitation services 
with related supports and provisions for quality implementation and 
evaluation--draws from and is consistent with the lessons and 
recommendations that are emerging from the home visit field. The Act 
wisely builds in key provisions, including national peer review of 
state applications, 10% set aside for training and technical 
assistance, and 3% set aside for evaluation with requirements for 
yearly performance tracking and reporting on key indicators and an 
ongoing independent national evaluation. These provisions for 
continuous improvement both increase the chances of successful 
implementation and will determine if home visiting is in fact achieving 
its intended short term outcomes.
    As a quick look at the response to question 2 above shows (what it 
will take for home visitation to be ready for scale), the proposed 
requirements for state plans and use of funds all map onto the emerging 
consensus about what it will take to implement high quality voluntary 
early childhood home visit programs that offer a genuine and lasting 
return on investment. Those requirements include a needs and resource 
assessment, collaboration among home visit models and with other early 
childhood services, specification of outcome areas to be assessed and 
reported yearly, incentive to build in rigorous research designs, 
outreach to fathers and other caregivers, attention to staff training 
and supervision and organizational capacity for implementation, and the 
earmarked resources to strengthen Early Head Start home visitation. All 
of these help build programs that can enhance parenting and thus school 
readiness, and sustained family involvement in learning and 
development.
    I respectfully propose several other considerations for this Bill 
to the Committee. First, my research and experience suggests that both 
the national models and many state administrators are ready to get and 
use their own and others' data and research to support an ongoing 
process of learning, evaluation, performance management, continuous 
improvement, and accountability. They are ready to become what David 
Garvin at Harvard Business School calls ``learning organizations.'' 
\17\ The legislation now provides for substantial national as well as 
state level data collection and evaluation, but it does not specify how 
these data will be used to enhance implementation, learn from failures, 
benchmark, or share proven practices, in order to improve 
implementation as well as to inform policy-making. Consideration should 
be given to how to get the maximum from the legislation's substantial 
investments in performance management and evaluation. Leadership at the 
national as well as state level, and provisions to support this 
learning process, are key, and perhaps could be specified as part of 
the legislation.
    A second consideration involves a requirement for and specification 
of ways to link early childhood home visitation and other early 
childhood services to school such that both children and families are 
involved in a successful transition to kindergarten and elementary 
school. Evidence continues to grow that it is important to get parents 
as well as children ready for school, and that parental readiness 
offers academic benefits for children.\18\ Early childhood home visit 
programs are designed to enhance parent and family involvement in 
children's learning and development, and many of them reinforce the 
importance of continued involvement through the child's school career. 
There is also a substantial research base about the academic payoff of 
continued family involvement and increasing recognition of this amongst 
school administrators and teachers.\19\ However, the legislation as 
currently drafted does not include provisions for links with districts 
and schools in order to support and include both parents and children 
in the transition. Nor does the legislation as currently drafted 
consider how to work with schools to continue family involvement into 
and through elementary school.
    Sustained family involvement with the academic payoffs it can bring 
is one of the longer-term outcomes from early childhood home visitation 
but it will depend on building bridges to school and working with 
educators to help sustain this involvement.
    At the outset, I mentioned that my colleagues and I are working to 
build the knowledge base for complementary learning. Complementary 
learning involves linking school and non-school supports for children's 
learning and development from birth through high school and thereby 
creating pathways into and out of school. Initiatives such as the 
Harlem Children's Zone and Omaha's Building Bright Beginnings are 
examples of community-based complementary learning approaches and both 
emphasize the importance of support for parenting and family 
involvement. There is a strong research-based case that nurturing 
parenting and continued family involvement throughout a child's school 
career are necessary components of these complementary learning 
pathways. While increasing evidence suggests that no one support alone, 
whether it is a good prekindergarten, school or early childhood home 
visitation program, is enough to get children into and graduating from 
school, high quality early childhood home visitation holds much promise 
for launching both parent and child on a pathway to graduation, to 
postsecondary education, and to success in a global society and 
economy. The Education Begins at Home Act is structured to provide a 
great opportunity to offer a key component in this pathway hypothesis.
                                endnotes
    \1\ Bouffard, S., Weiss, H., Gordon, E. and Bridglall, B. (2008). 
Family involvement and Educational Equity. Equity Matters series from 
the Campaign for Educational Equity, Teachers' College, Columbia 
University; Belsky, J. et al, and the NICHD Early Child Care Research 
Network (2007), Are there long-term effects of early child care? Child 
Development, 78(2), 681--701.
    \2\ Harvard Family Research Project, Family Involvement Makes a 
Difference series of 3 research briefs at <http://www.hfrp.org/
publications-resources/publications-series/family-involvement-makes-a-
difference>
    \3\ Weiss, H.B. and Klein, L. (2006). Changing the Conversation 
About Home Visitation: Scaling Up With Quality. <http://www.hfrp.org/
publications-resources/browse-our-publications/changing-the-
conversation-about-home-visiting-scaling-up-with-quality>
    \4\ Weiss, H.B. (Winter, 1993), Home visits: Necessary but not 
sufficient, The Future of Children, 3(3) 113--28; Gomby, D.S. (January 
2003), Building school readiness through home visitation, Paper 
commissioned for First Five California Children and Families 
Commission. Available at: http://www.ccfc.ca.gov/SchoolReady.htm; Daro, 
D. (September 2006) Home Visitation: Assessing Progress, Managing 
Expectations, Written Testimony for House Subcommittee on Education 
Reform, Committee on Education and the Workforce. Available at: 
www.chapinhall.org; Raikes, H., Green, B., Atwater, J., Kisker, E., 
Constantine, J., & Chazan-Cohen, R. (2006), Involvement in Early Head 
Start home visiting services: Demographic predictors and relations to 
child and parent outcomes, Early Childhood Research Quarterly, 21, 2-
24; Weiss & Klein (2006).
    \5\ Sweet, M.A. & Appelbaum, M.I. (2004), Is home visiting an 
effective strategy? A meta-analytic review of home visiting programs 
for families with young children, Child Development, 75(5):1435-1456.
    \6\ Weiss and Klein (2006).
    \7\ Weiss, H.B. (2006) Lessons from a Community of Practice: The 
Home Visit Forum 1999--2005 and After. Available at www.hfrp.org.
    \8\ Wasik, B.H. & Bryant, D.M. (2001), Home Visiting, Thousand 
Oaks, CA: Sage.
    \9\ Johnson, K.A. (May 2001), No place like home: State home 
visiting policies and programs, Johnson Group Consulting, Inc., Report 
commissioned by The Commonwealth Fund. Available at www.cmwf.org.
    \10\ Bronfenbrenner, U. (974), Is early intervention effective? 
Teachers College Record, 76(2), 279-303; Shonkoff, J. & Phillips, D. 
(2002), From Neurons to Neighborhoods: The Science of Early Childhood 
Development, Washington, DC: National Academy Press; Harvard Family 
Research Project (2007), Family Involvement in Early Childhood 
Education from Family Involvement Makes a Difference series of 3 
research briefs at <http://www.hfrp.org/publications-resources/
publications-series/family-involvement-makes-a-difference>
    \11\ Hart, B. & Risley, T.R. (2002), Meaningful Differences in the 
Everyday Experience of Young American Children, Washington, DC: 
Brookes.
    \12\ Bouffard, Weiss, Gordon and Bridglall (2008).
    \13\ Weiss & Klein (2006).
    \14\ Levenstein, P., Levenstein, S., & Oliver, D. (2002), First 
grade school readiness of former child participants in a South Carolina 
replication of the Parent Child Home Program, Journal of Applied 
Developmental Psychology, 23 (3) 331-353.
    \15\ DuMont, K., Mitchell-Herzfeld, S., Greene, R., Lee, E., 
Lowenfels, A., & Rodriguez, M. (June 2006), Healthy Families New York 
Randomized Trial: Impacts on Parenting After the First Two Years, New 
York State Office of Children and Family Services, Working Paper 
Series: Evaluating Healthy Families New York. Available at: 
www.ocfs.state.ny..us/main/prevention/assets/
HFNYRandomizedtrialworkingpaper.pdf; Olds, D. (2006), The Nurse-Family 
Partnership: An evidence-based preventive intervention, Infant Mental 
Health Journal, 27 (1), 5-25.
    \16\ Weiss and Klein (2006); Gomby (2003).
    \17\ Garvin, D.A., Edmondson, A.C., & Gino, F. (2008), Is Yours a 
Learning Organization? Harvard Business Review, 86(3):109-116.
    \18\ Kraft-Sayre, M. E., & Pianta, R. C. (2000), Enhancing the 
transition to kindergarten: Linking children, families, and schools. 
Charlottesville, VA: University of Virginia, National Center for Early 
Development & Learning; Kreider, H. (2002), Getting parents ``ready'' 
for kindergarten: The role of early childhood education, Cambridge, MA: 
Harvard Family Research Project; Schulting, A. B., Malone, P.S., & 
Dodge, K. A. (2005), The effect of school-based kindergarten transition 
policies and practices on child academic outcomes. Developmental 
Psychology, 41(6), 860--871; Schulting, A. (2008), Promoting Parent--
School Relationships During the Transition to Kindergarten, The 
Evaluation Exchange, 14(1 &2): 8. Cambridge, MA: Harvard Family 
Research Project.
    \19\ Harvard Family Research Project (2008). The Evaluation 
Exchange: Building the Future of Family Involvement, 14(1 &2): 8. 
Cambridge, MA: Author.
                                 ______
                                 
    Chairman Miller. Thank you.
    Julie, we are going to turn to you. Your husband is Victor?
    Ms. Fenley. Yes, that is correct.
    Chairman Miller. He is more than welcome, if you and Zane 
want to sit at the table and you want to let him color over 
there at the table, or if you want to walk around with him, do 
whatever you want. This is supposed to be a child-friendly 
committee, you know.
    Ms. Fenley. He is a handful, as you can see.
    Chairman Miller. So if Zane and Megan want to hang out at 
the staff table, the press table, whatever, they are welcome 
to. Whatever makes it easy on you.
    Ms. Fenley. Thank you so much.
    Chairman Miller. Julie, welcome to the committee. We look 
forward to your testimony. This is the same Zane and Megan that 
are in your testimony, right?

  STATEMENT OF JULIE FENLEY, PARTICIPANT, PARENTS AS TEACHERS 
                    HOME VISITATION PROGRAM

    Ms. Fenley. That is correct.
    Thank you for having me, first of all. It is a pleasure to 
be here.
    My name is Julie Fenley, and I am a participant in the 
Parents As Teachers Program in Norfolk, Virginia.
    My husband, Victor Fenley, is an aviation structural 
mechanic, an airman apprentice, as mentioned. We have two 
beautiful children who are both with us today, Megan, who is 7, 
and Zane, the handful, who is 2.
    Our dream of being a military family started quite some 
time ago, but we officially started our Navy career in February 
2007. It has changed our lives in many ways. We were both 
raised in very small towns in Southeast Texas. We moved to 
Virginia Beach, and I was terrified.
    I noticed immediately it was very different from life in 
Texas, with our extended family there to support us. It has 
taken some time, but I am so proud to call Virginia my home 
now.
    I have taken on the mentality that home is not where you 
are raised but indeed where the Navy sends you.
    Zane and I joined the Parents As Teachers Program shortly 
after we arrived in Virginia Beach. During our first couple of 
visits with Ms. Terrilyn Williams, who is our parent educator, 
Zane was timid and shy. But now when she comes through the 
door, he is always excited to see her. He knows this is a 
special playtime with Mommy and Miss Terri, which is his name 
for her.
    During each meeting, Zane gets to experience a new activity 
and I get to learn a new parenting skill. For me, it is the 
perfect opportunity to get inside his tiny, little mind and 
really understand the reasons he does some of the silly, little 
things he does. Or what is behind those challenging behaviors 
for us as parents.
    The past couple of visits have been very special for Zane 
and myself because my husband was able to participate in the 
home visit. We have really enjoyed our visits with Ms. Terrilyn 
as a family.
    When Zane was born, he had a serious medical condition 
called PPHN, also known as pulmonary hypertension in newborns. 
The physicians told me that he could possibly suffer from 
neurodevelopmental issues.
    After doing a little research, I made a discovery that the 
number one side effect for children who survive the illness is 
sudden hearing loss and speech delay. I was terrified and so 
worried that this could be the reason that Zane wasn't talking 
as well as he should be.
    The in-home developmental screening that Ms. Terrilyn 
conducted confirmed that Zane had potential delays. She calmly 
talked to me about my concerns and referred me to local 
resources that could do further testing on Zane. The testing 
showed me that he was approximately 3 months behind on his 
speech, but they suggested that we wait a few months and see 
how he progresses on his own.
    Zane is now learning new words almost daily, and if it 
weren't for Ms. Terrilyn, I would not have found those 
resources on my own.
    Terrilyn was also very helpful to help us find some other 
resources in the community that helped us through some 
difficult financial times, especially around the holidays. She 
just seems to know how to get things done in our community and 
how to help us connect with community resources that I didn't 
know about. I really wish that I would have had this program 
when Megan was Zane's age. I think it could have taught me some 
wonderful parenting techniques right from the start, rather 
than learning from trial and error.
    It has been very beneficial for both me and my husband. 
Before he left for training, he was the one who took care of 
most behavioral issues. But when he left, it was my job to do 
everything, including discipline. This was a very stressful 
time for me. By the time we reunited 8 months later, he and I 
developed completely different approaches on parenting and 
discipline.
    I asked Ms. Williams about the problem we were having, and 
she explained to me some things we could do and she gave me 
some very helpful literature. It really helped my husband and I 
to get on the same page and work together as a team.
    Megan and Zane are wonderful children and we are so blessed 
to have them in our lives. They deserve the best this world has 
to offer, including my husband and I being the best parents as 
possible.
    I feel in my heart Parents As Teachers is just what we were 
needing in our lives. It helps me be a better parent every day. 
I think every military family could benefit from Parents As 
Teachers. We are blessed to have such a wonderful program at 
Norfolk, but there is a waiting list and so many families 
aren't able to participate. I respectfully encourage the 
committee to support the Education Begins At Home Act, which 
has provided me much help in my life, and it would be great to 
get the funding for so many more families that could really 
benefit from the program.
    I would like to say in closing a special thank you to Ms. 
Terrilyn Williams for making such an impact in our lives. Not 
only as a parent educator, but as a friend. Thank you for your 
dedication to the program and for all your encouraging words 
and your knowledge. I feel so validated as a parent each time 
Ms. Terrilyn visits. Once she leaves, it is great for me. I 
feel so rewarded as a parent. Once again, thank you for 
teaching me how to be my children's best and most important 
teacher.
    Thank you.
    [The statement of Ms. Fenley follows:]

    Prepared Statement of Julie Fenley, Parents as Teachers Program 
                              Participant

    Thank you Mr. Chairman and Committee members for this opportunity 
to speak to you today. My name is Mrs. Julie Fenley and I participate 
in the Parents as Teachers program in Norfolk, Virginia. My husband, 
Victor Fenley, is an Aviation Structural Mechanic Airman Apprentice 
with the US Navy. We have 2 children who are both with us today--Meghan 
who is 7 years old and Zane who is two years old.
    Our dream of being a military family started quite some time ago, 
but we officially started our Navy career in February of 2007. It has 
changed our lives in many ways. We were both raised in very small towns 
in south east Texas. When we moved to Virginia Beach I was terrified. I 
noticed immediately it was very different from life in Texas with our 
extended family there to support us. It has taken some time but I am so 
proud to call Virginia my home now. I have taken on the mentality that 
home is not where you are raised, but where the Navy sends you.
    Zane and I joined the Parents as Teachers Program shortly after we 
arrived in Virginia Beach. During our first couple visits with Mrs. 
Terrilyn Williams, our parent educator, Zane was timid and shy but now 
when she comes through the door he is always excited to see her. He 
knows this is special play time with mommy and Miss Terri, which is 
Zane's name for her. During each meeting, Zane gets to experience a new 
activity and I get to learn a new parenting skill. For me it is the 
perfect opportunity to get inside his tiny little mind and really 
understand the reasons he does some of the silly little things he does 
or what is behind those behaviors that challenging for us as parents. 
The past couple visits have very special for Zane and myself because my 
husband was able to participate in the home visits. We have really 
enjoyed our visits as a family with Terrilyn.
    When Zane was born he had a serious medical condition called PPHN 
also known as pulmonary hypertension in newborns. The physicians told 
me he could possibly suffer from neurodevelopment issues. After doing a 
little research, I made the discovery that the number one side effects 
for children who survive this illness is sudden hearing loss and speech 
delay. I was terrified and so worried that this could be the reason why 
Zane wasn't talking all that well. The in-home developmental screening 
that Terrilyn conducted confirmed that Zane had potential delays. 
Terrilyn calmly talked with me about my concerns and referred me to 
local resource professionals that could do further testing on Zane. The 
testing showed that he was approximately three months behind on his 
speech, but they suggested we wait a few months and see how he 
progresses on his own. Zane is now learning new words almost daily. If 
it weren't for Terrilyn I would not have found those resources on my 
own.
    Terrilyn was also very helpful to us in finding other resources in 
the community that helped us through some difficult financial times, 
especially around the holidays. Terrilyn just seems to know how to get 
things done in our community and helped us connect with community 
resources that I didn't know about on my own.
    I really wish I would have had this program when my daughter Meghan 
was Zane's age. I think this could have taught me some wonderful 
parenting techniques right from the start, rather than learning from 
trial and error. It has been very beneficial for both me and my 
husband. Before he left for training he was the one who took care of 
most behavioral issues. But, when he left for eight months it was my 
job to take care of everything, including discipline. This was a very 
stressful time for me. By the time we reunited eight months later, he 
and I had developed completely different approaches to parenting and 
discipline.
    I asked Terrilyn about the problem we were having and she explained 
to me some things we could do and she gave me some helpful literature. 
It really helped my husband and me to really work together. Meagan and 
Zane are wonderful children and we are so blessed to have them in our 
lives. They deserve the best this world has to offer, including my 
husband and I being the best possible parents. I feel in my heart that 
Parents as Teachers is just what we were need in our life. It helps me 
to be a better parent. I think every military family could benefit from 
Parents as Teachers. We are blessed to have such a wonderful program at 
Norfolk, but there is a waiting list so many families aren't able to 
participate. I respectfully encourage the Committee to support the 
Education Begins at Home Act, which would provide much needed funding 
so more families can benefit from home visiting programs like Parents 
as Teachers.
    I would like to say in closing a special thank you to Mrs. 
Terrylinn Williams for making such an impact in our lives not only as a 
parent educator but as a friend. Thank you for your dedication to this 
program and for all your encouraging words and knowledge. I feel so 
validated as a parent each time Terrilyn visits. Once again thank you 
for teaching me how to be my children's best and most important 
teacher.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Would Ms. Terrilyn like to stand up? [Applause.]
    Thank you. Nice to have you here. Thank you for what you 
are doing.
    Ms. London?

STATEMENT OF MAKEDA LONDON, PROGRAM MANAGER AND FAMILY SUPPORT 
   SERVICES COORDINATOR, HEALTHY FAMILIES--NEAR NORTH HEALTH 
                         SERVICE CORP.

    Ms. London. Chairman Miller and Congressman Davis and the 
other distinguished committee members, thank you for inviting 
me here to provide testimony on my experience with home 
visitation services in Chicago, Illinois.
    I am a Healthy Families program manager and family support 
services coordinator for Near North Health Service Corporation. 
Today I share with you the benefit of my experience about the 
characteristics of a successful home visitation program and the 
benefit of a federal investment in such services for our 
families and our young children.
    The Healthy Families program at Winfield Moody Health 
Center presently serves 41 families in the Near North 
community. Our intensive home visitation services are offered 
to new parents, pregnant and parenting women, and children up 
to age three. Since the inception of the program 14 years ago, 
our home visitors have successfully completed 14,000 home 
visits.
    The Near North community where our Healthy Families program 
is located 14 years ago has certainly changed. The high-rise 
building and row houses that make up the Cabrini Green Housing 
Development for many years are daily being demolished, 
literally being torn down as we meet here today. This infamous 
community better known for its crimes, its gangs and blight has 
been a backdrop of the home visitation services of the Healthy 
Families program. It has been among this unsafe environment 
that home visitors of our program have been more like a 
battlefield, where the assessment workers and the home visitors 
have reported for duty, armed only with their prenatal and 
their parenting curriculum, development screenings and safety 
materials, their smiles and their love for the community, and 
their passion for their work.
    This kind of commitment to work has forged trusting 
relationships with our participants that often last a long time 
after the children have graduated from our program at age 
three.
    Within this challenging environment, we have been able to 
make great strides with our program participants, leading to a 
better early childhood development outcome for our children. 
The Near North Healthy Families program, who is part of the 
Healthy Families Illinois Network and the large-scale 
longitudinal evaluation that examines the programs' impact on 
parents' and children's outcomes.
    Among the many benefits of participating in this program, 
the evaluation found that parents involved in Healthy Families' 
services demonstrated significantly greater improvement skills 
that foster their child's growth during the infant's first 6 
months of life. At 2 years, the families receiving Healthy 
Families' services compared to those receiving other usual 
services offered their children a wider array of materials to 
stimulate the cognitive development.
    Every day I see the tremendous impact that quality early 
childhood home visitation has on families in my community. 
Parents who lack parenting skills graduating from parenting 
classes; parents who had little knowledge of their child's 
development stages anticipate visits from home visitors so they 
can complete their child's age appropriate Ages and Stages 
developmental screening. Parent-child interaction has changed 
from mere television watching with their children to 
interactive play between parents and children at the children's 
museum. Parents who were among the many others who believed 
that the only time you took your child to the doctor was when 
your child was sick, now see the benefit of preventive and 
regularly bringing their children to the doctor for well child 
visits and immunizations.
    Two of our parents, Laquisha and Pam--Laquisha came in and 
she has been a member and a participant in the program for 5 
years. Today Laquisha is an entrepreneur, a massage therapist. 
She was trained following the resources of her home visitor as 
a breastfeeding peer counselor, was employed and is very, very 
motivated. She has two beautiful children today.
    Another participant, Pam, who is a single mother of seven 
children, is battling now relocation from Cabrini Green 
housing. She has a mother who is ill and blind and not only the 
relocation and the housing being an issue with her, working 
with her home visitor, we know that she will be relocated to 
better housing from the work with the home visitor. But Pam now 
serves as our advisory consult chairperson.
    What I would like to summarize is the benefits that we see 
coming from the Education Begins at Home Act, the training and 
the supervision, the community collaboration, the evaluation. 
All three are requirements of the bill. In order to assure 
quality of home visits, our home visitors receive training. The 
training increases the home visitors' knowledge, it develops 
their skills to meet the challenges that the program 
participants face and the home visitors, in achieving these 
outcomes with families.
    The initial training that they get, the core training, is 
added to that ongoing training. Effective supervision is a part 
of it. The Healthy Families program is a program, a home 
visitation program, that is important to us, and it is a part 
of a community health center, which is the basis of our 
participants coming into the program.
    I urge today that this committee begin and move this 
legislation toward enactment.
    Thank you, chairperson, thank you, Danny Davis, and our 
executive director, Dr. Bernice Mills Thomas, thanks you very 
much for this participation in this committee.
    [The statement of Ms. London follows:]

 Prepared Statement of Makeda London, Healthy Families Program Manager

    Good morning Mr. Chairman and distinguished members of the 
committee. Thank you for inviting me to provide testimony of my 
experience with home visitation services in Chicago, Illinois.
    My name is Makeda London, and I am the Healthy Families Program 
Manager & Family Support Services Coordinator for Near North Health 
Service Corporation (NNHSC). I have served in the position as Healthy 
Families Program Manager for 14 years. When I started in this position 
in May 1994, I was responsible for implementing this intensive home 
visitation program at our community based health care facility--
Winfield-Moody Health Center, located on the Near North side in 
Chicago. I am now responsible for overseeing the supervision of the 
home visiting staff and assuring that the program meets its goals, of 
which the overall goal is the prevention of child abuse and neglect.
    My undergraduate work in social science and graduate work in 
education administration uniquely prepared me for this role. Prior to 
coming to NNHSC, for 12 years I was the Director of an alternative high 
school, Lumumba-Jackson Community Learning Center. This was a private, 
nonprofit alternative school that was a member of the Alternative 
Schools Network. The school was located in the same community area as 
our present Healthy Families program. Over these 14 years, many of the 
Healthy Families participants have been relatives and friends of former 
students of the high school. Little did I know that my work in the 
school was planting a seed in the community that would germinate in the 
Healthy Families program today.
    Today I share with you the benefits of my experience about the 
characteristics of a successful home visitation program and the benefit 
of a federal investment in such services for families and young 
children.
Home visitation overview
    Home visitation provides guidance to parents and increases their 
knowledge of their child's growth and development from birth through 
kindergarten entry. Services are delivered to the participants by well-
trained, respected home visitors who are responsive to the presenting 
and changing needs of parents.
    The Healthy Families program at Winfield-Moody Health Center 
presently serves 41 families in the Near North Community Area 08. Our 
intensive home visitation services are offered to new parents. Since 
the inception of the program 14 years ago, this community has 
drastically changed. The high rise buildings and row houses that made 
up the Cabrini-Green public housing development for many years, are 
daily being demolished, literally being torn down as I speak. Families 
are being moved around and relocated to other communities and this 
relocation often makes it difficult to locate those most in need of our 
services.
    This infamous community better known for its crime, gangs, and 
blight has been the back drop of the home visitation services of the 
Healthy Families program. It has been among this 'unsafe' environment, 
that often has been more like a 'battlefield,' that assessment workers 
and home visitors have reported for duty for the past 14 years armed 
only with their prenatal and parenting curriculums, developmental 
screenings, safety materials, smiles, love for the community and 
passion for their work. This kind of commitment to work has forged 
trusting relationships with participants that often lasts well beyond 
the child's graduation from our program at age three.
    In these 14 years, these community soldiers have delivered more 
than 14,000 home visits. These visits are made to participants who are 
screened and assessed on a number of factors, including substance 
abuse, DCFS involvement, lack of parenting skills, domestic violence, 
and no social support; no lifelines. What this indicates to home 
visitors, is that a parent assessed with these risks, when he/she 
becomes overwhelmed or stressed, has the potential to become abusive or 
neglectful to their child. So, at our program, we seek to develop 
relationships with the mother while she is pregnant.
    While I represent the Healthy Families America program, nationally, 
there are a number of effective, evidence-based home visitation 
programs that would benefit from the Education Begins at Home Act, 
including Home Instruction for Parents of Preschool Youngsters (HIPPY 
USA), the Nurse-Family Partnership, The Parent-Child Home Program, and 
Parents as Teachers. While the goals and target populations of these 
programs vary, they all offer similar core services. All programs offer 
home visits which are voluntary and at no cost to participants. All 
provide parent education, especially emphasizing early childhood 
development. Many home visitation programs work with families on 
language, literacy and reading skills, while others focus on baby care 
and health services.
Ensuring quality and effectiveness
    I have been asked today to share with you what my fourteen years 
with the Healthy Families program have taught me about what makes a 
home visitation program successful. While there are number of 
components for successfully implementing a home visitation program, I 
will highlight three specific characteristics that have tremendous 
impact on program quality and effectiveness:
    <bullet> Training and Supervision;
    <bullet> Community Collaboration; and
    <bullet> Evaluation linked to program goals.
            Training and Supervision:
    Staff development and training is one of the 12 research-based 
Critical Elements (or Best Practices) that guide the Healthy Families 
program. In order to insure the quality of the home visit, the home 
visitor must receive intensive formal training (i.e. initial core 
training for their specific job function and ongoing wraparound 
training). The training increases their knowledge, develops skills to 
meet the challenges faced by program participants and assists home 
visitors in achieving outcomes with families. Program supervisors and 
managers also receive training, support and professional development 
opportunities. In my community, the training and professional 
development is provided by the Ounce of Prevention Training Institute.
    Training is an integral part of the fabric of NNHSC; embedded in 
our Mission. Each month, our facilities are closed for a half day for 
staff training and development. Some of the training topics each year 
are: Age-Specific Competencies; Cultural Diversity; and Child Abuse 
Recognition. The Healthy Families program adds to that with regular in-
service trainings for staff.
    Effective supervision is an integral part also of the Critical 
Elements of the Healthy Families program. Program supervision occurs 
weekly with home visitors. During supervision, participant cases are 
discussed, home visit content and frequency reviewed. Through 
reflective supervision, home visitors are able to discuss challenges 
they face and together with the supervisor decide on solutions. They 
are able to discuss their own professional development.
    In my role as program manager, I supervise the project supervisor 
who in turn supervises the home visitors. Together, we evaluate the 
performance of home visitors through observation/shadowing and data and 
file reviews. Feedback is provided to improve performance, and ensure 
the critical elements and standards are followed and goals are 
achieved.
    Benefits of high quality supervision include:
    <bullet> Promoting both staff and program accountability;
    <bullet> Encouraging home visitor's personal and professional 
development;
    <bullet> Reducing staff burnout and turnover by providing home 
visitors with much needed support; and most importantly,
    <bullet> Enhancing the quality of services families receive.
    The Education Begins at Home Act recognizes the importance of 
training and supervision by setting aside 10 percent of a state's grant 
for training and technical assistance, and by requiring that states 
only fund programs that ``employ well-trained and competent staff'' and 
``maintain high quality supervision to establish home visitor 
competencies.''
            Community Collaboration:
    Home visitation is not an island in the sea of early childhood 
development programs. Families require an array of services to provide 
a safe, abuse-free home environment that produces a healthy child.
    The Healthy Families program in Near North Chicago is uniquely 
housed in a community health center that offers primary health care 
services and a wide range of social support services. A majority of the 
Healthy Families participants are patients of the health center. As 
such, their medical providers (OB/Gyne doctors and pediatricians) are 
within walking distance from their homes and easily accessible to them. 
The program participants, medical providers and home visitors have 
forged together as an effective team in the positive growth and 
development of the child. Some of the other services accessible to 
program participants are, case management, domestic violence services, 
mental health services (individual and group counseling by licensed 
clinical social workers), intensive outpatient substance abuse 
treatment, perinatal depression screening and treatment, nutrition 
counseling, WIC (Women, Infants and Children) services, dental 
services, ophthalmology, parenting classes, consumer support groups, 
and client group education.
    Our home visitors are trained to link program participants to 
available services through a range of state, city and community 
partners. The Health Center's community partnerships and affiliations 
include the Chicago Department of Public Health, Illinois Department of 
Human Services, Children's Memorial Hospital, Northwestern Memorial 
Hospital, John Stroger Cook County Hospital and United Way.
    In fiscal year 2007, home visitors were instrumental in 
facilitating the 14,306 clinical visits made by patients to Winfield-
Moody Health Center and the 10,636 non-clinical (social support 
service) visits to all five community health centers of the 
corporation.
    The Education Begins at Home Act supports the role that home 
visitation programs play in linking participants to additional services 
in two primary ways:
    1. State-level Early Childhood Coordinating Body. EBAH requires 
that states ensure collaboration among a broad range of child-serving 
programs by creating or utilizing an existing state-level early 
childhood coordinating body. This coordinating body would meet 
regularly to address policy and implementation issues that will improve 
the coordination of a range of services for children and families, 
especially those receiving home visitation services. The coordinating 
body would include representatives from early childhood home visitation 
programs, early care and education programs, child abuse prevention and 
treatment programs, health care programs, nutrition programs, and 
workforce development programs, to name just a few.
    2. Information and Referral. The legislation requires that home 
visitation programs funded by EBAH provide referrals for eligible 
families to additional resources available in the community, such as 
child care, family literacy programs, employment agencies, and other 
social services.
            Quality Assurance & Evaluation:
    We could not state that ours is a successful home visitation 
program had we not built in effective quality assurance measures. As 
program manager, I sit on our agency's multidisciplinary Quality 
Improvement Committee that monthly reviews clinical, program and 
support parameters. Our Healthy Families program also has its own 
Quality Assurance Committee that quarterly reviews program service 
delivery parameters and other critical element standards. Home visitors 
are among the reporters on this committee.
    Additionally, there are external audits and reviews of program data 
inputted by home visitors into the state's human services monitoring 
and tracking system called Cornerstone. Also, our program proudly 
displays our Credentialing Plaque, just outside my office at Winfield-
Moody. The program was credentialed in June 2007 after a very thorough, 
intensive, external review of records, systems, policy, procedures and 
service delivery by our national accrediting body, Healthy Families 
America.
    In fiscal year 2007, 1149 home visits were conducted by home 
visitors of our Healthy Families program with a successful completion 
rate of 86%. This among program participants with some of the highest 
and most numerous challenges for risk of abuse.
Evaluation
    Home visitation as a field has a history of being committed to 
evaluation and program improvements. The Healthy Families America 
program alone has been subject to 34 studies in 25 states involving 
over 230 HFA programs.\1\ Healthy Families Illinois--of which my 
program is a part--recently underwent a large scale, longitudinal 
evaluation that examined the program's impact on parent and child 
outcomes. The evaluation, conducted by Northern Illinois University, 
identified the following key findings: 2
---------------------------------------------------------------------------
    \1\ Study designs include 8 randomized control trials and 8 
comparison group studies. More information on the studies can be found 
in the Healthy Families America Table of Evaluations at 
www.healthyfamiliesamerica.org/research/index.shtml.
    \2\ Illinois Department of Health and Human Services. ``Healthy 
Families Illinois: Evaluation Findings Executive Summary.'' September 
2006.
---------------------------------------------------------------------------
            At six months:
    <bullet> Parent-child interactions improved significantly across 
time in families receiving HFI services. No such improvements were 
noted in families receiving all other usual services.
    <bullet> Parents involved in HFI services demonstrated 
significantly greater improvements in their growth fostering skills 
during their infant's first six months of life relative to comparison 
parents, who received all other usual services.
            At one year:
    <bullet> Parents receiving HFI services, relative to parents 
receiving all other usual services, displayed higher levels of 
acceptance of challenging behaviors.
            At two years:
    <bullet> Families receiving HFI services, compared to those 
receiving all other usual services, offered their children a wider 
array of materials to stimulate their cognitive development.
    <bullet> Parents with highest risk for problems in parenting showed 
the greatest improvements, including lower levels of distress, fewer 
rigid beliefs, fewer problems with others and greater ego.
    The Education Begins at Home Act places a strong emphasis on 
evaluation. On an annual basis, states must report on outcomes 
consistent with program goals, including parent knowledge of early 
learning and development; child development indicators; child 
maltreatment indicators; school readiness indicators; and links to 
community services. At the federal level, EBAH requires an independent 
evaluation at the end of the second year of implementation to assess 
outcomes consistent with program goals.
Conclusion
    Everyday, I see the tremendous impact that quality early childhood 
home visitation has on the families in my community. Parents who lacked 
positive parenting skills have graduated from parenting classes. 
Parents who had little knowledge of their child's developmental stages 
anticipate visits from home visitors so they can complete their child's 
age appropriate Ages & State developmental screening.
    Parent-child interaction has changed from television watching with 
your child to interactive play of between parents and children at the 
Children's Museum. Parents who were among many others who believed the 
only time you took your child to the doctor was when that child was 
sick now see the benefit of prevention and regularly bring their 
children to the doctor for well child visits and immunizations. Most 
importantly, when I review the child abuse statistics in my community 
that indicate there were 52 indicated victims of child abuse--none of 
them were participant children of the healthy families program!
    I've said enough, though. Two of our Healthy Families participants, 
whose success stories are featured in our agency's 2007 Annual Report, 
tell the success of home visitation better than I could ever tell it. 
The first, Lakisha, was enrolled in our program for five years. She 
started the program as a young pregnant woman and today has two 
beautiful daughters, both of whom she breastfed, which is a program 
outcome. Not only did she breastfeed her daughters, but she became a 
Breastfeeding Peer Counselor. Her home visitor referred her to a 
Chicago breastfeeding training program, which she attended and 
completed. She was employed for a period of time as a Breastfeeding 
Peer Counselor at a local hospital. Today, Lakisha has completed 
another training program (massage therapy), and is now an entrepreneur.
    The second young woman, Pam, a single mother of seven children 
enrolled in the Healthy Families program when she was pregnant two 
years ago. Pam experienced some complications during her pregnancy and 
was placed on bed rest. She gave birth to a beautiful daughter in June 
2006. (Incidentally, one of our home visitors also makes hospital 
visits to patients and program participants who deliver to give support 
to the mother after delivery and welcome the newborn). One of the IFSP 
(Individual Family Support Goals) that Pam works together with her home 
visitor on is suitable housing.
    Pam lives in the Cabrini-Green housing development. Housing 
relocation for Pam is very challenging. Not only because of Pam's large 
family, but because Pam lives with and is taking care of her mother who 
is ill and visually impaired. Pam has faced this and other challenges 
and came out smiling. Today she has a son who graduated from elementary 
school and a daughter who is a freshman at a local college. Pam's self 
esteem has improved since enrollment in the program and she is now the 
Chairperson of our Healthy Families Advisory Committee.
    In a time of limited resources, the federal government has the 
responsibility to make wise investments in services that have been 
tested and found to be effective. The Education Begins at Home Act 
honors this responsibility by supporting the highest-quality home 
visitation services. I urge every member of this committee to support 
the Education Begins at Home Act and to move this important legislation 
towards enactment this year.
    Thank you, Mr. Chairman and distinguished members of the committee, 
for allowing me the opportunity to share this testimony with you today. 
And thank you Congressman Davis for your leadership on the Education 
Begins at Home Act. The Healthy Families participants in the Near North 
neighborhood of Chicago are fortunate to be represented by such an 
ardent champion for children.
                                 ______
                                 
    Chairman Miller. Ms. Ditka?

STATEMENT OF LAURA A. DITKA, DEPUTY DISTRICT ATTORNEY AND CHIEF 
                      OF CHILD ABUSE UNIT

    Ms. Ditka. Thank you, Mr. Chairman, Ranking Member McKeon, 
Congressman Altmire and members of this committee. First let me 
thank you for the opportunity to speak before you today.
    I hope to give you some anecdotal evidence about what 
results when there is not home visitation and when there is not 
early intervention in children's lives, particularly at-risk 
children in our communities.
    As a prosecutor for 20 years, there was such a need in 
Allegheny County that I was able to start the Child Abuse Unit. 
There are four lawyers in our small county that do nothing but 
child abuse all day, every day, resulting from sexual abuse, 
physical abuse and neglect.
    And I am not here today to vilify parents. Certainly there 
are cases that come before me where people act with villainous 
intent. But in many, many of the cases that we see, there are 
parents that just do not have the skills, the resources or the 
knowledge necessary to care for their children in an 
appropriate way that will help them thrive later in society and 
as individuals.
    I would like to give you a couple of examples. Last month, 
I sentenced two young women in their twenties, between the two 
of them they had seven children. They had been life-long 
friends since grade school. Those women decided that they 
needed to blow off some steam and went out for a night on the 
town. They left their seven children home alone. The oldest of 
the children were two 8-year-olds.
    The 8-year-olds began playing with matches. They burned 
down the house. They were unable to get their siblings out and 
five of them perished.
    The sentencing was an emotional and gut-wrenching event. 
These mothers loved their children. They did not wish to harm 
their children. But nobody had taught them the dangers that 
might befall leaving children of such a young age at home and 
the consequences were grave.
    On that same street in this at-risk neighborhood, I 
currently have a case, a mother, again very young, with a 
special needs child, who is somewhat ill-equipped to deal with 
the needs of her child, has turned to drugs and alcohol. In her 
home, faulty wiring started a fire. She was so intoxicated that 
she was unable to tell the police and firefighters that arrived 
at the scene how many children she had, and her oldest child, 
who was 6, perished in that fire.
    Again, not a mother that had any ill intent towards her 
child, any sort of malice or malicious will, just ill-equipped 
to deal with what was put before her. And at home visiting and 
this bill, Education Begins At Home, would greatly improve 
those skills that are needed for these parents.
    There is not only a component with children that are 
harmed, that type of abuse, but one of the stories that will 
stay with me throughout my career and, in fact, until the end 
of my days, a case that I did. A number of young mothers from 
the inner city didn't know what to do with their children. A 
gentleman came along with some means and some education and 
suggested to these mothers that he could watch their children 
and give them a better life, and these mothers essentially gave 
this man their children.
    I prosecuted him for abusing 11 of the children that were 
in his home, ranging from the age of 14 to the age of 2, and 
what stuck with me was a young man who was 11 years old. He 
told me, ``Ms. Laura, I know he did bad things, but he was the 
best dad I ever had. He made me go to school, he cared about my 
homework, he took me to church, he had me play baseball.'' And 
that young man was then removed from this abusive home and put 
back to a home with a mother who still had no skills and 2 
years ago I was testifying before a judge asking for leniency, 
because that young man had now reached 18 and was turning to a 
life of crime and selling drugs to help support he and his wife 
and his young infant child.
    This program has such positive outcomes. Let me just give 
you some good examples of what can happen from this.
    In houses where there have been--and in Allegheny County we 
use the Nurse-Family Partnership--in houses where they has been 
visitation, 60 percent of the mothers and 60 percent of the 
children no longer are arrested because of that early 
intervention. Test scores have gone up; 43 percent of the 
children have scored above the 50th percentile in cognitive 
ability, making them better prepared for school, better 
prepared for high school and hopefully on to college and a 
productive societal ethic.
    There are $103 billion spent each year on child abuse. The 
cost-benefit analysis shows that these programs for each dollar 
spent reduces that cost by making people productive members of 
society. I have two empirical data that I would ask the 
committee to accept, one from the PCCD in Pennsylvania on the 
economic returns of home visiting, and one from Fight Crime, 
Invest in Kids, on breaking the cycle of child abuse.
    In summation, I would like to encourage you if at all 
possible to reduce my workload, to give me less people to 
prosecute, to give people more ability to care for their 
children so we can have a brighter future tomorrow and in the 
future.
    Thank you very much.
    [The statement of Ms. Ditka follows:]

    Prepared Statement of Laura A. Ditka, Deputy District Attorney, 
     Allegheny County, PA, on Behalf of Fight Crime: Invest in Kids

    Chairman Miller, Ranking Member McKeon, and Members of the 
Committee: Thank you for the opportunity to testify before you today. 
My name is Laura Ditka. I am a graduate of the Duquesne University 
School of Law and a 20-year employee of the Allegheny County District 
Attorney's Office. I am also a member of FIGHT CRIME: INVEST IN KIDS, 
an organization of more than 4,000 police chiefs, sheriffs, 
prosecutors, and victims of violence, who have come together to take a 
hard-nosed look at the research on what can keep kids from becoming 
criminals.
    As a Deputy District Attorney, my day-to-day job is to prosecute 
offenders and see that justice is done. However, I know that we can't 
arrest and prosecute our way out of the crime problem. We must also 
invest in proven approaches that reach kids and their families before 
they begin offending. When teens are having children, and there's no 
role model available of good parenting practices, we can't be surprised 
when some of those kids don't grow up to become successful adults. It 
is really ironic to me that everyone has to pass a test and get a 
license to drive, and even to get a license to fish, but there's no 
opportunity for at-risk new moms and dads to learn about effective 
parenting practices. Beginning at the beginning means offering services 
to new parents, even before their kids are born, and preventing child 
abuse and neglect--that's one of our strongest weapons in the fight 
against crime.
    The Allegheny County Child Abuse Unit that I founded and now direct 
investigates and prosecutes hundreds of cases of child abuse and 
neglect each year. For example, on any given day the four attorneys 
that I supervise are in court with cases of horrific sexual abuse and 
cases of physical abuse and neglect of children. One particular case 
comes to mind involving a mentally challenged mother who saw her 
husband touching her child in a sexual manner. The mother did not have 
the parenting skills necessary to stop the abuse caused by her husband. 
This child endured this sexual abuse for over one year until she was 
seriously harmed and both parents were prosecuted. This is the type of 
family in need of quality home visiting and help.
    In many of the cases I prosecute, the perpetrator didn't set out to 
be a bad parent and hurt their kids. They just didn't realize they 
shouldn't leave their child unattended, for example. I have just 
finished the prosecution of two young mothers who left 7 children, ages 
8 and under, home alone while they went out for the night. One of the 
children was autistic. The 8-year-old ``babysitters'' were playing with 
matches and started a fire that destroyed the home and killed the five 
younger children. On that same street in Allegheny County, a case is 
pending of a young mother who was so intoxicated while at home with her 
three young children that when her house caught fire--she could not 
tell police and fire fighters how many children were in the house. This 
resulted in her oldest child dying in the fire.
    It is important to note that in Pennsylvania many suspected 
instances of child abuse and neglect do not rise to the level of 
criminality, so the problem is far greater than the hundreds of cases 
my office prosecutes. Last year, there were 4,162 instances of 
confirmed abuse or neglect in Pennsylvania. Even though the majority of 
children who survive abuse or neglect are able to overcome their 
maltreatment and become productive adults, too many victims of abuse 
and neglect cannot. Not only are they more likely to abuse or neglect 
their own children, they are also more likely to become violent 
criminals. The best available research indicates that, of the 4,162 
children who had confirmed incidents of abuse or neglect in one year in 
Pennsylvania, 160 will become violent criminals as adults who otherwise 
would have avoided such crimes if not for the abuse and neglect they 
endured. Research also shows that, nationally, based on confirmed cases 
of abuse and neglect in just one year, an additional 35,000 violent 
criminals and more than 250 murderers will emerge as adults--people who 
would never have become violent criminals if not for the abuse or 
neglect they endured as kids.
    Fortunately, voluntary home visiting programs can help stop this 
cycle. These programs offer frequent, voluntary home visits by trained 
individuals to help new parents get the information, skills and support 
they need to raise healthy and safe kids. There are many models of home 
visiting that help young children get off to a good start in life. They 
serve slightly different populations and have somewhat different, but 
complementary goals--improving outcomes in a wide range of areas 
including health, academic achievement, employment and criminality.
    The Nurse-Family Partnership (NFP) model of home visiting has the 
strongest evidence on crime reduction,and I'd like to note that our 
former governor's wife, Michelle Ridge, an active member of the NFP 
national board, testified in support of this legislation in a hearing 
held by Representative Castle two years ago. NFP provides home visits 
by nurses to interested at-risk young mothers starting before they give 
birth and continuing until their first child is age two. Rigorous 
research, originally published in the Journal of the American Medical 
Association, shows the program cut abuse and neglect among at-risk 
children in half. In addition, by the time the children in NFP had 
reached age 15, mothers in the program had 61 percent fewerarrests than 
mothers left out of the program, and their children had 59 percent 
fewer arrests than the kids leftout. The Nurse-Family Partnership has 
been recognized as an evidence-based model by numerous agenciesand 
Administration officials in recent years, including the Office of 
Juvenile Justice and Delinquency Prevention, the National Institute of 
Justice, the Centers for Disease Control, and the Substance Abuse and 
Mental Health Services Administration. I'd like to ask if you would 
enter into the record our recent FIGHT CRIME: INVEST IN KIDS 
PENNSYLVANIA report, ``Breaking the Cycle of Child Abuse and Reducing 
Crime in Pennsylvania: Coaching Parents Through Intensive Home 
Visiting.''
    As of last year, the Nurse-Family Partnership enrolled roughly 274 
mothers in Allegheny County, Pennsylvania--specifically in the City of 
Pittsburgh and communities down the Mon Valley. Upon entering the 
program, 39% of these women completed high school or received their 
GED, 98% were unmarried, 79%were unemployed, and 60% were on Medicaid. 
Outcomes of the Allegheny County Nurse-Family Partnership have mirrored 
national outcomes and included a 43% reduction in the mothers 
experiencing violence during pregnancy and a 100% reduction in mothers 
fearing their partners. Of those who entered the program without a high 
school diploma, 61% completed their diploma or GED by program 
completion and 32% were continuing their education beyond high school.
    The Nurse-Family Partnership in Allegheny County has many success 
stories. I'd like to briefly share one of them. In 2005, a woman, lets 
call her Jane, was referred to the Allegheny County NFP program 
fromanother county in Pennsylvania. Jane was a recovering heroin addict 
who was herself a victim of emotional,physical and sexual abuse from 
the time she was a toddler. Jane's experience in the program did not 
start off without some trouble. She would often scream at the nurses 
and appear very controlling of their home visit time. But soon, Jane 
and her Nurse Home Visitor developed a close bond. The Nurse Home 
Visitor helped Jane heal from all of the hurt she had suffered through 
the years both physically through drug abuse and emotionally. Jane's 
baby was born healthy and developed into a bright toddler under Jane's 
nurturing.While in the program, Jane finished her GED and went on to 
study medical records at the community college where she is expected to 
graduate this spring. She is also planning to be married this fall. 
With the help of the Nurse Family Partnership, Jane avoided a prolonged 
life of drug abuse, child abuse and criminalbehavior. And we can bet 
her child, and society, will reap significant benefits from this 
transformation ofJane's life.
    Research on other models of home visiting has also found numerous 
positive results. For example, a randomized control trial of the 
Parents as Teachers model found that treatment for an injury in the 
prior year--a possible sign of abuse--was 3% among the children served 
compared to the 13% of children not served (at the time of a second 
year assessment). A study of Healthy Families New York (HFNY) found 
that, at Year 1, compared to mothers in the control group, mothers in 
the HFNY intervention group reported having engaged in significantly 
fewer acts of very serious physical abuse (e.g., hitting child with 
fist, kicking child, slapping on face). At Year 2, HFNY parents 
reported having committed, on average, one-third fewer acts of serious 
physical abuse in the past year than the control group.
    Home visiting's benefits go far beyond child abuse prevention and 
crime prevention. Home Instruction for Parents of Preschool Youngsters 
(HIPPY) found that cognitive skills at the end of the program were 
significantly higher for children in the program compared to those not 
receiving HIPPY. A randomized control study of the Parent-Child Home 
Program found that 84% of the children finishing the program graduated 
from high school compared to 54% of those who did not receive the 
intervention. Separate studies have concluded that improving graduation 
rates reduces crime, making this finding of particular interest to me 
and my law enforcement colleagues.
    Preventing child abuse and neglect is not only the right thing to 
do, it is also the fiscally sound thing to do. In a study commissioned 
by the United States Justice Department, the Children's Safety Network 
Economic Insurance Resource Center analyzed the direct and indirect 
costs of child abuse and neglect to taxpayers and all those individuals 
impacted by abuse or neglect. It concluded that child abuse and 
neglects costs Americans $83 billion a year. Analysts with the Federal 
Reserve Bank of Minneapolis concluded that NFP produced an average of 
five dollars in savings for every dollar invested, and produced more 
than $28,000 in net savings for every high-risk family enrolled in the 
program. New data from a report commissioned by the Pennsylvania 
Commission on Crime and Delinquency estimates that once the costs of 
the program are subtracted, Pennsylvania's Nurse Family Partnership 
sites average $37,367 in benefits per person served.
    By waiting until the problems cannot be avoided, taxpayers are 
paying huge sums to cover the costs of holding children back in school, 
providing special education services, paying for welfare, and 
especially paying for arresting, prosecuting, and imprisoning 
criminals. The Pennsylvania Commission on Crime and Delinquency report 
also estimates that it currently costs roughly $142,000 per year to 
place a juvenile in a Youth Detention Center. Preventing only 5% of 
out-of-home youth placements each year in Pennsylvania would produce an 
annual savings of over $9 million. Further, Pennsylvania's prisons were 
already operating at 115% of their inmate capacity by the end of 2006. 
Even if the General Assembly approves the $700 million for Fiscal Year 
2008-2009 requested by the Pennsylvania Department of Corrections' for 
prison construction, Pennsylvania prisons will still be overcrowded. In 
fact, at the projected rate of prison population growth, Pennsylvania's 
prisons will be even more overcrowded in five years at 118% of 
capacity. As an investment strategy, this is short-sighted. It ignores 
the opportunity to act when the interventions are less expensive and 
more likely to succeed.
    I'd like to ask if you would also enter into the record the recent 
report commissioned by the Pennsylvania Commission on Crime and 
Delinquency (PCCD), ``The Economic Return on PCCD's Investment in 
Research-based Programs: A Cost-Benefit Assessment of Delinquency 
Prevention in Pennsylvania.''
    An evidence-based approach with proven results and significant 
potential savings like home visiting should be more widely replicated 
across the nation to ensure that home visiting programs are offered to 
all at-risk parents of young children. Yet, due to lack of funding, 
hundreds of thousands of at-risk families receive do not receive 
quality home visiting. Currently, NFP in Pennsylvania has 134 nurses 
working in 41 of the Commonwealth's 67 counties. They have slots to 
serve 3,237 families. Since its inception in Pennsylvania, over 10,000 
new mothers have been served. Yet, the Nurse-Family Partnership Program 
serves only 23% of eligible mothers in Pennsylvania each year. In 
Allegheny County, that number shrinks to only 17% of eligible mothers. 
While there are a few federal funding sources that can potentially be 
used for home visiting, none are specifically designated for this 
purpose. These funding sources are designed to provide money to a wide 
variety of programs and home visiting efforts are only able to capture 
a minimal amount of funding from any single source. The bipartisan 
Education Begins at Home Act (H.R. 2343), first written and introduced 
by Senator Bond (a Republican from Missouri), would authorize $500 
million over three years to expand the reach of voluntary, research-
based home visiting and authorize a parent and public education 
campaign about caring for infants and toddlers. The Committee, in 
moving the bill forward, could even add language to ensure targeting of 
services to jurisdictions with the greatest unmet need.
    My colleagues and I see the fatal consequences every day of failing 
to invest in quality home visiting programs to get kids off to a good 
start in life. That is why the law enforcement leaders of FIGHT CRIME: 
INVEST IN KIDS are eager to work with all of you to achieve enactment 
of the Education Begins at Home Act. We know that a modest investment 
now will cut child abuse and neglect, improve children's school 
readiness and reap dividends down the road by reducing crime and saving 
lives and money. Thank you for this opportunity to testify, and I would 
be happy to answer any questions that you may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Estrada?

STATEMENT OF WILLIAM A. ESTRADA, DIRECTOR OF FEDERAL RELATIONS, 
             HOME SCHOOL LEGAL DEFENSE ASSOCIATION

    Mr. Estrada. Good morning, Chairman Miller, honorable 
members of this committee.
    My name is William A. Estrada, and I am an attorney and the 
director of federal relations for the Home School Legal Defense 
Association.
    Thank you for the opportunity to testify today regarding HR 
2343, the Education Begins At Home Act.
    Since 1983, HSLDA has represented the interests of our 
homeschooling member families in all 50 states. We currently 
have a membership of over 80,000 member families who are 
homeschooling their children.
    While there are provisions in the Education Begins At Home 
Act that are very helpful, such as in Sections 4, 6 and 7 with 
targeted grants, we also have serious concerns with some of the 
provisions in this act. My testimony today will focus on 
Section 9 of the bill. We believe that the provisions in 
Section 9 will harm family integrity and parental rights.
    Section 9 is entitled Supporting New Parents Through 
Hospital Education. It requires the Secretary of Health and 
Human Services to create a public awareness campaign to inform 
the public and new parents about the importance of proper care 
for infants and children under 5 years of age. The secretary 
will ensure that every hospital, military hospital and birthing 
center request that families coming through its doors 
participate in a parenting class that is approved by the 
secretary. The hospital must then request that the family sign 
a form indicating whether or not they chose to take this class.
    Section 9 is not clear if hospitals, military hospitals and 
birthing centers may refuse to offer these materials on 
parenting classes. Because of this vagueness, there is no 
assurance that religious hospitals or birth centers could 
reject materials or parenting classes that violated their 
fundamental values.
    Section 9 is also not clear about who will design these 
parenting classes. There is no guidance offered to HHS, so the 
secretary may decide to only approve classes that are designed 
by experts, without the input of actual parents.
    Parents have numerous parenting philosophies that may 
differ from a one-size-fits-all government parenting class. 
This could lead to limits on parental choice and parental 
rights, because parents will feel pressured to take these 
classes and to conform to whatever parenting philosophy is 
taught.
    Furthermore, the provision that the classes teach 
``strategies for caring for infants' social, emotional and 
physical needs'' is vague enough to include many conformist 
philosophies that could concern many families, particularly 
homeschooling families. For example, despite plentiful research 
to the contrary, there are still some experts who believe that 
home education and homeschooling is not best for a child's 
emotional, social or physical needs. One need only look at the 
recent California Court of Appeals decision, In re Rachel L., 
where the Court made a blanket ruling that California parents 
do not have the right to educate their children at home unless 
they are certified teachers. This would have the effect of 
needlessly discouraging many families from homeschooling.
    Although the parenting classes are optional, Section 9 
could lead to needless social worker referrals. There are valid 
cases of child abuse, no one is denying that, but we do not 
want to see needless referrals of families to social services. 
Since the hospitals and birthing centers must request a 
signature showing that families participated in or refused a 
class, a referral could be made to the child welfare department 
alleging neglect simply because the family refused these 
parenting classes. In reality, it is very possible that some 
families may have chosen to decline participation because of 
disagreement with the class' parenting philosophy. At HSLDA, we 
have sadly dealt with cases such as this, and they are not 
farfetched.
    To avoid these and other problems that infringe on parental 
rights, we ask that Section 9 be removed from this bill or that 
it be modified to a targeted grant-based system where public-
private entities could offer these classes to parents who 
desire them.
    In closing, there are many good reports of how these 
programs, these home visiting programs, have helped many 
families. However, on the whole these are classes at the local 
level and we believe that having a federal program such as this 
could lead to the problems that I have outlined.
    Thank you very much, and I yield back the balance of my 
time.
    [The statement of Mr. Estrada follows:]

  Prepared Statement of William A. Estrada, Esq., Director of Federal 
            Relations, Home School Legal Defense Association

    Good morning, Chairman Miller, Ranking Member McKeon, and honorable 
members of the committee. My name is William A. Estrada, and I am an 
attorney and the director of federal relations for the Home School 
Legal Defense Association. Thank you for the opportunity to testify 
regarding H.R. 2343, the Education Begins at Home Act.
    Since 1983, HSLDA has represented the interests of our 
homeschooling member families in all 50 states. We currently have a 
membership of over 80,000 families. We have serious concerns with H.R. 
2343.
    My testimony today will focus on section 9 of the bill. We believe 
that the provisions in section 9 will harm family integrity and 
parental rights.
    Section 9, ``Supporting New Parents Through Hospital Education,'' 
requires the Secretary of Health and Human Services to create a public 
awareness campaign to inform the public and new parents about the 
importance of proper care for infants and children under 5 years of 
age. The Secretary will ensure that every hospital, military hospital, 
and birthing center request that families coming through its doors 
participate in a parenting class that is approved by the Secretary. The 
hospital must then request that the family sign a form indicating 
whether or not they chose to take this class.
    Section 9 is not clear if hospitals, military hospitals, and 
birthing centers may refuse to offer these materials and parenting 
classes. Because of this vagueness, there is no assurance that 
religious hospitals or birthing centers could reject materials or 
parenting classes that violated their fundamental values.
    Section 9 is also not clear about who will design these parenting 
classes. There is no guidance offered to HHS, so the Secretary may 
decide to only approve classes that are designed by ``experts'' without 
any involvement from actual parents. We don't need a ``big mother'' 
supervising parenting. Parents have numerous parenting philosophies 
that may differ from a one-size-fits-all government parenting class. 
This could lead to limits on parental choice and parental rights, 
because parents will feel pressured to take these classes and conform 
to whatever parenting philosophy is taught.
    Furthermore, the provision that the classes teach ``* * * 
strategies for caring for infants' social, emotional, and physical 
needs'' is vague enough to include many conformist philosophies that 
would concern many families, particularly homeschooling families. For 
example, despite plentiful research to the contrary, there are experts 
who do not believe that homeschooling is good for children's social, 
emotional, and physical needs. One need only look at the recent 
California Court of Appeal decision, In re Rachel L., where the Court 
made a blanket ruling that California parents do not have the right to 
homeschool their children unless they are certified teachers. This 
would have the effect of needlessly discouraging many families from 
homeschooling.
    Although the parenting classes are optional, Section 9 would likely 
lead to needless social worker referrals. Since the hospitals and 
birthing centers must request a signature showing that families 
participated in or refused the class, a referral could be given to the 
child welfare department alleging neglect because the family refused 
these parenting classes. In reality, the family may have chosen to 
decline participation because of disagreements with the classes' 
parenting philosophy.
    To avoid these and other problems that infringe on parental rights, 
we ask that section 9 be removed from this bill.
    Thank you very much and I yield back the balance of my time.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Smart?

STATEMENT OF JEANNE SMART, DIRECTOR, NURSE-FAMILY PARTNERSHIP--
                          LOS ANGELES

    Ms. Smart. Thank you, Chairman Miller.
    My name is Jeanne Smart. I am a public health nurse, a 
registered nurse, and I started a program which I am 
representing today, the Nurse-Family Partnership, in Los 
Angeles County.
    I have had 34 years of experience in home visitation. I 
started a home visitation program as a respiratory therapist to 
stop people from becoming sick and coming back into the 
hospital because of the use of contaminated equipment. It has 
come a long way since then, and the Nurse-Family Partnership 
program that is utilized in Los Angeles County addresses a 
whole different problem, and that is the problem of our future.
    It is an evidence-based program that has over 30 years of 
empirical research behind it and I am sure you have all been 
made familiar with it. When you look at over 650,000 children 
in the nation being abused and neglected, and as Ms. Ditka 
indicated, some of them are truly heart-wrenching, and we have 
our share in Los Angeles County, where over 42,000 children are 
in protective services, and this is truly unacceptable.
    In Los Angeles in 1996 we brought NFP, which is the 
abbreviation for Nurse-Family Partnership, as a pilot project. 
It was funded through juvenile justice. In 1997, in November 
1997, the LA Times printed an article called ``Orphans of 
Addiction,'' and the pictures in that article were truly what 
most people don't see. A 3-year-old being held by a drug-
addicted mom, who was so loaded on heroin she couldn't even 
focus.
    Because of that, a task force was called and decided that 
the Nurse-Family Partnership, along with several other 
community-based organizational home visiting programs, needed 
to be rolled out, and in the year 2000 we received funding from 
the welfare reform dollars and we started a full county rollout 
of the Nurse-Family Partnership. To date, we have served over 
2,000 teenagers and some of these have truly been the most 
difficult cases that I have ever seen in my 34-year nursing 
career. Our youngest case is 12 years old. She delivered at age 
12 years old.
    The NFP model is something that I never had in practicing 
as a public health nurse. I never had the guidance, I never had 
the instruction, I never had the standardized protocol to 
follow. Many times, I was at a loss for what to do with these 
families that were so impacted by drugs and crime and gangs, 
that there was really nothing that I could do that was 
significant in my book. I had never gotten this training in 
nursing.
    The NFP model brings theory and science to actual practice, 
of which I am a science freak, so it really was something I 
advocated for in 1996 when I helped bring the program to Los 
Angeles. It is theory based. It is based on the theories you 
all heard today, the attachment theory, the bonding, the care 
of the whole family in the care of the child, change theory, 
brain development. All of this is brought into this model.
    The model has structured activities so the nurse knows at 
each and every visit what needs to be done, and during those 
visits we talk to the families, we talk to the father of the 
families and we collect data so that we can bring that data 
back and look at what we are doing and see if we are doing an 
effective job at meeting the goals that we would like to 
accomplish.
    It is really relationship-based, and there is not a program 
sitting in this room that is not relationship-based, because 
when you are talking about young, at-risk, pregnant teenagers, 
you are talking about establishing trust, of which they have 
none usually, and establishing some type of respect so you can 
work together as a team to promote healthy families.
    Over 64 visits the nurses take during this 2\1/2\-year 
program with these families, the trust builds up. And, 
interestingly, we don't even find out sometimes the problems in 
the family for the first 6 months. It is not until that trust 
is developed.
    We have nurse training. The nurses receive over 60 hours of 
training. That is minimal and just the model protocol. And they 
carry 25 clients through just three goals: to improve the 
pregnancy outcome, to improve the child health and 
developmental outcome, and improve the family self-sufficiency, 
so that they can learn how to provide for their families and 
not use welfare dollars to do so.
    Part of what Dr. Olds, Dr. David Olds, who is the model 
developer, and he is currently with the director of the 
Prevention Research Center for Family and Child Health at the 
University of Colorado Denver, he really put in a huge data 
element. At every visit we collect data that goes into the 
child information system. And through that data, we can provide 
excellent quality improvement, quality insurance. I can go over 
every single one of my staff, look at their caseload, look at 
their outcomes, and through that I have to say that programs, 
whatever the program, if it is delivered poorly it will not 
consistently achieve good outcome. And I think that is what we 
have to keep in mind when we are funding some of these 
programs.
    With the Nurse-Family Partnership nationwide and through 
three very, very strict, randomized control trials that Dr. 
Olds has performed in Elmira, New York and throughout the 
nation, we have decreased child abuse by 48 percent; 59 percent 
reduced in child arrest of that child when it reaches age 15. 
We have reduced maternal arrest, for drug use usually, or other 
types of crimes. We have increased the involvement of fathers 
by 46 percent, and as the Fenley family demonstrates, how 
valuable it is to have the father involved on the same target 
as the mother is involved in helping develop the family.
    We get the children ready for school much quicker by 
reducing language delays by 50 percent and behavioral problems 
by 67 percent. And again, these are randomized control groups 
that are studies done by Dr. Olds. These are pretty validated 
percentages, so apply them to your own districts and think 
about the cost savings to you by reducing these issues in your 
communities.
    There is a demonstrated cost savings to government that we 
need to look at. When you look at the cost effectiveness, 
Washington State Institute for Public Policy, the Rand 
Corporation, the Office of Juvenile Justice, all have supported 
what we have done here with the Nurse-Family Partnership.
    So I thank you again for listening to me as a 
representative of the Nurse-Family Partnership and NFP National 
urges Congress to direct policy to these models that have the 
highest level of evidentiary standards. Thank you again, 
Chairman.
    [The statement of Ms. Smart follows:]

     Prepared Statement of Jeanne Smart, Director of Nurse-Family 
                    Partnership, Los Angeles County

    Good morning Mr. Chairman and thank you for the opportunity to 
testify on behalf of the Nurse-Family Partnership (NFP) program 
regarding the Education Begins at Home Act.
    I am Jeanne Smart, Director of the Nurse-Family Partnership program 
serving high-risk young mothers who give birth within Los Angeles 
(L.A.) County. My testimony is that of a technical consultant for the 
NFP, and I am here to support this Bill that will promote evidence-
based programs for at risk mothers. Every year, approximately 650,000 
first time low income mothers become pregnant with their first child, 
and in L.A. County there are over 7,000 births each year that fit the 
intake requirement for NFP, that is: 1) young girl/woman; 2) pregnant 
for the first time; and, 3) living in poverty. L.A. County began this 
evidence-based program in 1995-96 as a pilot project that was partially 
funded by Juvenile Justice because of its proven record of excellent 
results in reducing crime by both the mother and the child when he/she 
reaches the age of 15 years old. NFP was expanded countywide in 1997 
primarily due to the achievement of excellent short-term outcomes seen 
in the Pilot and the growing number of headlines about the dismal 
outcomes for children born to at risk families who were unprepared, 
unable or unwilling to care for them. NFP-LA has now served over 2064 
women since December 31, 2007; the median age is 17 years old, 89% are 
unmarried, 86% unemployed and 75% were Medicaid recipients. Nationwide, 
the NFP program model has served over 14,000 first-time mothers and 
their children on any given day and reaches over 22,000 families 
annually in 315 counties across 25 states.
    NFP is a voluntary program that provides nurse home visitation 
services to low-income, first-time mothers by highly trained, 
registered nurses beginning early in pregnancy and continuing through 
the child's second year of life. NFP nurses and their clients make a 
2\1/2\ year commitment to one another, and develop a strong 
relationship over the course of 64 planned visits that focus on the 
strengths of the young mother and on her personal health, quality of 
care giving, and life course development. NFP nurses undergo more than 
60 hours of training prior to receiving their caseload of no more than 
25 families. Their partnership with families is designed to help them 
achieve three major goals: 1) improved pregnancy outcomes; 2) improved 
child health and development; and 3) improved parents' economic self-
sufficiency. By achieving these program objectives, many of the major 
risks for poor health and social outcomes can be significantly reduced.
    NFP is an evidence-based program with multi-generational outcomes 
that have been demonstrated in three randomized controlled trials that 
were conducted in urban and rural locations with diverse populations. A 
randomized controlled trial is the most rigorous research method for 
measuring the effectiveness of an intervention because it uses a 
``control group'' of individuals with whom to compare outcomes to the 
group who received a specified intervention. NFP has been tested this 
way for over 30 years through a series of rigorous research, 
development, and evaluation activities conducted by Dr. David L. Olds, 
program founder and Director of the Prevention Research Center for 
Family and Child Health (PRC) at the University of Colorado in Denver.
    Dr. Olds has conducted three randomized, controlled trials with 
three diverse populations in Elmira, NY (1977), Memphis, TN (1987), and 
Denver, CO (1993). Evidence from one or more of these trials 
demonstrate powerful outcomes, including the following:
    <bullet> 48% reduction in child abuse and neglect (Elmira, 15 year 
follow-up)
    <bullet> 59% reduction in child arrests (Elmira, 15 year follow-up)
    <bullet> 61% fewer arrests for the mother (Elmira, 15 year follow-
up)
    <bullet> 72% fewer convictions for the mother (Elmira, 15 year 
follow-up)
    <bullet> 46% increase in father presence in the household (Memphis, 
year 5)
    NFP has shown a reduction in high-risk pregnancies by:
    <bullet> 32% (Elmira, 15 year follow-up)
    <bullet> 23% (Memphis, year 2)
    <bullet> fewer subsequent pregnancies, and 31% fewer closely spaced 
(<6 months) subsequent pregnancies (Memphis, year 5)
    Improvement in elementary school readiness as demonstrated by a:
    <bullet> 50% reduction in language delays at child age 21 months 
(Denver)
    <bullet> 67% reduction in behavioral/intellectual problems at child 
age 6 (Memphis)
    <bullet> Improvements in cognitive development at child age 6 
(Memphis)
    <bullet> Improvements in language development at child age 4 and 6 
(Memphis)
    <bullet> Improvements in child executive functioning at age 4 
(Denver)
    As the NFP program model has moved from science to practice, great 
emphasis has been placed on building the necessary infrastructure to 
ensure quality and fidelity to the research model during the 
replication process nationwide. In addition to intensive education and 
planned activities for nurses to conduct in the home, NFP has a unique 
data collection and program management system called the Clinical 
Information System (CIS) that helps NFP monitor program implementation 
and outcomes achieved. It also provides continuous quality improvement 
data that can help guide local practices and monitor staff performance. 
CIS was designed specifically to record family characteristics, needs, 
services provided, and progress towards accomplishing NFP program 
goals.
    In addition to California, NFP has statewide implementations in 
Colorado, Louisiana, Pennsylvania, Oklahoma, and Washington; and many 
other states are seeking to expand local NFP programs into statewide 
initiatives. NFP's replication plan reflects a proactive, state-based 
growth strategy that maximizes fidelity to the program model and 
ensures consistent program outcomes. NFP urges Congress to direct 
policy toward home visit models that maintain the highest level of 
evidentiary standards in order to ensure the largest possible economic 
return on investment.
    The success and cost-effectiveness of NFP has been proven through 
several independent evaluations (Washington State Institute for Public 
Policy, 2004 & 2008; 3 RAND Corporation studies 1998, 2005, 2008; 
Blueprints for Violence Prevention, Office of Juvenile Justice and 
Delinquency Prevention). Blueprints identified NFP as 1 of 11 
prevention and intervention programs out of 650 evaluated nationwide 
that met the highest standard of program effectiveness in reducing 
adolescent violent crime, aggression, delinquency, and substance abuse. 
The RAND and Washington State reports weighed the costs and benefits of 
NFP and concluded that the program produces significant benefits for 
children and their parents, and demonstrated a savings to government in 
lower costs for health care, child protection, education, criminal 
justice, mental health, government assistance and higher taxes paid by 
employed parents. More recent analyses indicate that the costs of NFP 
compared to other home visitation programs fluctuates by region, and 
even though the NFP model is more intensive than other programs, it is 
not always more expensive.
    The Nurse-Family Partnership supports the Education Begins at Home 
Act as introduced by the House of Representatives. This Act proposes 
intelligent solutions to core problems facing new families nationwide. 
We encourage the Committee to target these scarce resources provided to 
States through this legislation to those communities that are most at-
risk and struggling with the challenges of poverty. This bill provides 
consolidated funding to support the important work of home visitation 
programs including NFP.
    I'd like to thank Congressman McKeon for inviting me to testify on 
behalf of Nurse-Family Partnership and also I am grateful to 
Congressmen Davis and Platts for their leadership on behalf of this 
legislation. Thank you again, Chairman Miller, Congressman McKeon, and 
Members of the Committee, for the opportunity to testify before you 
today.
                                 ______
                                 
    Chairman Miller. Thank you very much, and again thank you 
to all of you for being here today.
    Ms. Fenley, do you talk to other families that participate 
in the Parents As Teachers Program?
    Ms. Fenley. Actually, I haven't had the honor of really 
speaking to anybody else who is on the program, because I am 
one of the few and the proud. I do have a friend who is waiting 
to get in the program, but I haven't been to any of the 
playgroups that they offer to discuss any of the other issues 
with other parents.
    Chairman Miller. Have you discussed your participation with 
your friends?
    Ms. Fenley. Absolutely. I encourage it to all my friends 
who have children, you know, that are eligible to participate. 
And they are hoping to extend the program for children who are, 
like, ages three to five. So I am hoping that we get to do that 
so Zane can continue to be in the program.
    Chairman Miller. We have heard here this morning, 
obviously, different programs that dealt with parents in 
different situations and circumstances that have brought about 
the inability to cope or the stress or whatever, however it 
manifests itself. As we sit here with the war in Iraq and as we 
continue to try to review in our own districts and elsewhere 
what is happening with military families, you know, you meet 
more and more families who are really multitasking, trying to 
just handle the stress points, either multiple deployments, 
multiple relocations, comings and goings and reuniting and 
separation and all these things that one of them by itself is 
traumatic for a family.
    And so when you talk to your friends about Parents As 
Teachers, what do they think? Would they like to have someone 
to lean on?
    Ms. Fenley. Yes. Absolutely. Like the friend I just 
referred to, she is actually the one friend I do have who has a 
child Zane's age. She is, you know, really ready to get into 
the program. Her daughter has some developmental issues, some 
emotional issues, and I think it would be great for her to 
really get in there. She has five other children, two of which 
are adopted, and these are the ones who have the emotional 
issues that she really needs to get addressed, and I think it 
would really help her children to do that.
    Yeah, she is really ready to get started, actually.
    Chairman Miller. How long did it take you and Ms. Terrilyn 
to hit it off?
    Ms. Fenley. Immediately.
    Chairman Miller. I saw Ms. Terrilyn shaking her head back 
there when Ms. Smart was testifying about it takes time--
sometimes, she said, you didn't find out problems in the family 
for 6 months because you have to build trust, and I saw Ms. 
Terrilyn, I was watching you, you were shaking your head, that 
that is right. So it doesn't always happen right off the bat.
    Ms. Fenley. No, not off the bat. I think it was easier for 
me to connect with Ms. Williams because she was one of the very 
first people I met when I got to Virginia Beach. She was 
actually, yeah, like within the first week. So I was needing--
and she is also a Navy spouse herself--so I was needing to know 
my resources, what I could really do to really become grounded 
in that area and that aspect of my life. So that is probably 
why it was so easy to reach out to her, because she was one of 
the first people I knew.
    Chairman Miller. Thank you.
    Ms. Ditka, I was surprised how adamant--I am from the San 
Francisco Bay area--how adamant law enforcement and the 
district attorneys were about this program. Basically, what 
they are saying, we just can't keep up if we are going to have 
this continued growth in child-related problems, whether it is 
early child abuse or whether it is later in schools or on the 
streets later on, and we think that the evidence is compelling 
that this program will reduce our caseload. It doesn't cure the 
common cold and it doesn't fix every family, but they were just 
adamant in their sense that where we see this taking place, 
those law enforcement officials get a benefit of a reduced 
caseload.
    I don't know if you would like to speak to that.
    Ms. Ditka. Congressman, I couldn't agree more. In Allegheny 
County, only 17 percent of eligible parents are being served. 
The examples I gave you, there could be six children that are 
still alive with just some basic skills. We do hundreds of 
cases every year, and that doesn't include the cases where we 
have tried in minor instances to put people in parenting 
classes and to attach them to the resources so a parent doesn't 
then get strapped with a criminal record and the children 
aren't permanent members of the system instead of a family.
    We can't keep up. We need more lawyers, we need more staff, 
just to do the cases that we have. And as I tried to stress, 
there are parents that are villains in the true sense. But the 
vast majority of them are just people that didn't have role 
models, that weren't given good examples. You know, I have been 
blessed. I have a parent that traveled with me today. I had a 
good role model. Hopefully I will be one for my child. But 
many, many people don't have that. Many people don't have the 
ability to wake up in the morning and see their parent doing 
something and being productive and actively working in the 
family.
    And this model will keep people out of my system. And 
especially if it reduces delinquency, it will give children an 
opportunity to become productive members of society.
    Chairman Miller. Thank you.
    My time has expired. Hopefully we will have a second round, 
because I would like to go back to Ms. Smart and Ms. Weiss on 
the data component of this, which I think is very important.
    But right now, let me recognize Mr. Ehlers. The gentleman 
is recognized for 5 minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    I am fascinated with it for two reasons. First of all, I 
was homeschooled. Actually, I am old enough that I was 
homeschooled before there was homeschooling. I was a sickly 
child, so I just stayed home and did all my schoolwork at home, 
which is a great way to learn.
    But also I am interested because in my experience in local 
and state government, as a county commissioner, which I had 
charge of the juvenile detention facility and so forth and 
seeing the kids and working with the kids, and there is nothing 
quite as heartbreaking as seeing a 13-year-old girl brought in 
for her fourth arrest for prostitution. It was an education 
that I received which I would just as soon not have received.
    But also at the state level, dealing with the products in 
our penal system of those children who grew up without a proper 
home, without proper training, and ended up spending most of 
their life in prison.
    We were fortunate in Michigan, particularly in my 
community, quite a religious community, and we had established 
a number of different homes for children for various 
denominations. And it is not that the children were restricted 
to those denominations, but the contributions came from those 
denominations. And they did a fantastic job in our community. 
But when I reached the state level, I realized that not every 
community had that.
    The reason I mention this, I am trying to see where the 
federal government fits in this, because obviously some states 
are doing quite a good job. Other states a middling job. And 
some not doing a job at all. What is the picture overall and 
what is the need for federal involvement in this? Is it a 
matter that we need uniformity? Is it a matter that we need the 
same funding in every state, or what? I would appreciate any 
comments any witness might wish to make on that.
    Ms. Smart. The funding that we don't have, when you think 
of the numbers, in L.A. alone there are 7,000 young girls, 
teenagers, our median age is 17, that fit the intake criteria 
for NFP. We started with 39 nurses in the year 2000. We are 
down to 15 nurses now because of the funding constraints. There 
is no funding available that fully funds this type of work.
    What we are using now are funds that are meant for 
outreach, to get people into services, Medicaid eligible, those 
that are living in poverty. That is insufficient, because what 
we do goes far beyond simple outreach. It is outreach, 
education, support, nurturing. All of that is not covered, but 
that is all part of the picture. It is all part of the recipe.
    So it is very difficult. I think the role of federal 
government is to allow there to be funding that could fully 
support programs that meet the needs of those most at need, 
especially. I wish we had the dollars to do these programs for 
everybody, because everybody truly does need some support when 
they are a new parent. But when we don't have those dollars, I 
really believe we need to target those most at risk, the young, 
the pregnant for the first time and those who are living in 
poverty, because by far they have the worst birth outcomes, 
social outcomes and every other category that you can think of 
outcomes.
    So I would direct the dollars, if I were in charge.
    Mr. Ehlers. This is still a problem. I am interested in the 
federal versus the state. Everyone thinks we have more money. 
That is just because we borrow it every year. But what about 
the states? What is their contribution? And why can't they, you 
know, step up to the plate more?
    Ms. Weiss. Can I respond to this?
    Mr. Ehlers. Yes.
    Ms. Weiss. I led the [INAUDIBLE] which was the [INAUDIBLE] 
major national models for 6 years until recently, and I know 
that there are I think over 40 states now that have made a 
commitment to some kind of state capacity to provide home 
visitation.
    I was in Michigan in December with Judy Samuelson, who runs 
your Early Childhood Commission, to talk with them about how to 
begin to create a state system of early home visitation that 
would be part of their effort to create a comprehensive early 
childhood system of services.
    Wisconsin has a state standing task force working on 
creating a system of state-based early childhood services, 
including early childhood home visitation. That group of 
people, representing all kinds of different models from all 
kinds of places around the state, came together a couple of 
years ago and said we need to develop a standard set of 
indicators and outcomes across our programs as part of our 
tracking and capacity-building to support home visitation in 
the state of Wisconsin.
    Pennsylvania has done some very interesting sort of 
experimenting with a combination of the Nurse-Family 
Partnership and the Maternal Child Home Program. As you have 
heard, there is a partnership, 2\1/2\ years, third trimester of 
pregnancy--year two with highly stressed families. They have 
now paired that with the Maternal Child Home Program, which 
focuses on literacy and school readiness. And they do use some 
of their welfare reform dollars to do this. And they are 
tracking it, and we will know the benefit of that kind of 
combination of home visitation services focused on prevention 
of maternal and child difficulties, child maltreatment, as well 
as school readiness.
    I think we are seeing a lot of states making a commitment, 
not just to little programs here and there, but to building 
state capacity, to develop and fund them, and increase the 
likelihood of return on investment from those dollars. There is 
not a state I think that any of us in this room know of that 
isn't struggling to meet the need for more financial resources 
for home visitation.
    That is why I think EBAH can contribute. It is never going 
to be enough to pay for direct service for everybody who needs 
it, but it pays for some key expansion and some key capacity 
building, and then some of the other resources perhaps can be 
provided, you know, by local dollars and state dollars.
    Mr. Ehlers. My time is expired, but thank you very much for 
the insight you have given me.
    Thank you.
    Chairman Miller. Thank you.
    Mr. Davis, author of the bill. Well, one of the authors of 
the bill.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Let me thank you for holding this hearing.
    As a long-time advocate for home visiting and for parenting 
programs, I also want to express my appreciation to Mr. Platts 
for his co-sponsorship as well as his leadership and indicate 
that it is a real pleasure working with him, and I appreciate 
what we have been able to come up with.
    As I listen to the testimony of the witnesses, I was 
thinking, Ms. Fenley, that I could listen to you testify all 
day, for lots of reasons. But the question that I wanted to 
ask, what aspect of the program do you think has been most 
helpful to you and your family?
    Ms. Fenley. I can only choose one? Just one?
    Honestly, to encourage my children, daily, to never let 
them lay their head on a pillow at night and let them know how 
proud I am of them. From the smallest thing to the biggest 
thing they do, just to encourage them and validate them as my 
child and let you know, hey, you did so good today. And that 
has taught me that, Parents As Teachers has taught me that.
    And also to validate my husband as a parent himself, to let 
him know, hey, you are a great dad, you know. Forge on. Keep 
going. It is, you know, that has been my favorite thing about 
the program. That is the one thing I could probably choose out 
of everything.
    Mr. Davis of Illinois. Thank you very much.
    Attorney Ditka, let me ask you, have any of the cases that 
you have come into contact with been individuals that you would 
not necessarily describe as being disadvantaged?
    Ms. Ditka. Child abuse, Congressman, as this panel probably 
knows, crosses all socioeconomic, religious, racial, ethnic 
borders. So I see lots of examples of abuse in every aspect of 
society.
    Where this need I see the greatest is in disadvantaged 
families, because they just don't have the resources. They 
don't have the ability to go to a parenting class that they are 
paying for. They don't have the ability to go to Gymboree with 
their children or to a school-based after school program or get 
them in a sports program at the Y. That is why I believe this 
bill is so important.
    But I don't mean to say here in any way that child abuse is 
limited to underprivileged inner-city families, because it 
crosses all social and economic and racial and ethnic divides, 
and some of the most horrific cases come from the wealthiest 
and most affluent neighborhoods nationwide.
    Mr. Davis of Illinois. So there are many different types of 
families in different categories and different groupings of 
individuals who can in fact benefit and do in fact benefit.
    Ms. Ditka. Absolutely. Absolutely.
    Mr. Davis of Illinois. Thank you.
    Ms. London, let me ask you, because of the fact that you 
have been in the same location over an extended period of time 
and have worked with the Near North Corporation, do you see 
families as they continue to grow and develop where you can 
sort of evaluate the impact of the program after the children 
have begun to grow up?
    Ms. London. Yes. Absolutely.
    In my testimony I shared that the relationships that the 
home visitors have with participants after they graduate is 
well beyond when the child reaches age 3. Our parents have no 
problem after graduation with meeting us at the grocery store, 
at church, in the community, wherever it is that they are. Just 
because the child has graduated to age 3 does not end the 
relationship there.
    And so they still come back to the home visitor, to the 
health center, asking for advice, and we are open to do that.
    Mr. Davis of Illinois. Thank you very much.
    And lastly, Dr. Weiss, let me ask you, there are 
individuals who believe that evidence-based research which 
demonstrates the effectiveness of program activities is what 
you really need in order to make a decision or determination 
about the value of programs. In your work and research, have 
you seen the kind of information that would suggest the value 
of this program activity that we are talking about?
    Ms. Weiss. Yes, and I think we have 30 years of work, 
including clinical trials, either completed or underway, by 
most of the major models, that meet a high standard of evidence 
that suggest more positive outcomes across an array of things, 
from parenting skills to school readiness to reductions in 
child maltreatment.
    What I find fascinating is the willingness and capacity of 
the models and I think the people within the states that are 
providing home visit services to learn from that evidence and 
improve their programs. So David Olds, Nurse-Family 
Partnership, David and I were at graduate school together at 
Cornell in the 1970s when David was starting this program. He 
did his first clinical trial in Memphis, or in Elmira, New 
York.
    He learned a great deal from the evidence and from the 
pattern that resulted from that. He modified the program when 
he did his clinical trial in Memphis, learned from that and 
modified the trial when he did it in Colorado.
    I watch these models, and have for a long time, do exactly 
what David has done, and also do what my colleague down here at 
the end of the panel mentioned, which is now develop capacity 
at the national office. And I think also the states are 
beginning to do that, to track performance of regular programs. 
It is one thing to get success in a clinical trial. If you are 
going to do a clinical trial, you are going to put all your 
best into it and hope you get the best results. The trick I 
think is then getting those results in the everyday program, 
the everyday Parents As Teachers Program, the everyday Nurse-
Family Partnership.
    And what the legislation does is say that every year they 
are going to need to report on some performance indicators, and 
use that data to support improvement.
    Chairman Miller. I am going to have to cut you off. Thank 
you very much.
    Mr. Davis of Illinois. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Platts, who is a primary sponsor of 
the bill?
    Thank you.
    Mr. Platts. Thank you, Mr. Chairman, and I want to add my 
words of thanks to you for holding this hearing on the very 
important issue and echo my colleague, Mr. Davis', comments and 
what a privilege it has been to work with him in advancing this 
legislation.
    I think Ronald Reagan once said if we want to do something 
for our nation's future, we need to do something for our 
nation's children, because they are our future. And that is 
what this hearing and this legislation is about.
    I want to thank all of our panelists for your testimony and 
for your work in your daily lives for the benefit of children. 
And we are grateful to each and every one of you.
    And Ms. Fenley, I especially want to thank you for being 
here, but especially for you and your husband's service to our 
nation. We are a blessed nation because of military families 
such as yours. I love what I do, and I am proud of what I do, 
but what I do pales in comparison to what your husband and your 
family do on behalf of our nation. So thank you for your 
service.
    I want to first just reference, I know there is concern and 
when we hear $500 million it sounds like--well, not sounds 
like--it is a lot of money. But I think it is important to 
emphasize, and Ms. Ditka, I think in your testimony you talked 
about the Nurse-Family Partnership study that shows $5 saved 
for every dollar spent. So we hear $500 million spend, a lot of 
money. $2.5 billion saved, a lot more money.
    And it is something that I think is important that we keep 
in perspective here, that one of the challenges in Washington 
is that when we talk about allocating money, the way we factor 
the cost of everything is we don't factor in savings, and this 
is an example of where we need to. And not just in dollars, but 
in human lives and quality of life for families and especially 
children.
    So I appreciate, Ms. Ditka, you highlighting that aspect in 
well-documented studies, not just something over a year or 2 
but over many years.
    Ms. Ditka, you talked about Nurse-Family Partnership, you 
know, one of the many programs that are doing great work out 
there. What would you highlight as the strongest aspect of the 
Nurse-Family Partnership program that you think makes it such a 
good model with others for us to look at, to help emulate 
across the country?
    Ms. Ditka. Well, Congressman, what we have seen in 
Allegheny County, one of the strongest aspects is it is a 
holistic approach that looks at the whole family unit. One of 
the best success stories is a woman who was drug addicted in 
her second trimester of pregnancy. She got off drugs. Her child 
was born healthy and now is a thriving toddler going to Head 
Start. This woman has got a GED. She is going to community 
college and is graduating or may have already graduated this 
spring so she could go work in the medical records field. So 
now both she and her child will be thriving members of society.
    I think that holistic approach, you are helping not only 
the child but you are helping the parent, and if that parent 
has future children, you are helping future children in that 
family. So you are setting a strong and secure base for these 
people to move on. I think it is extraordinarily important to 
have children school ready, education ready, and it is 
important for a number of aspects, not only for educational 
purposes and for their future growth, but also to be able to 
express to people they come into contact with if they are in 
harms way and what is happening to them.
    So I think that model that sort of surrounds the whole 
family with the knowledge and a hope for a better future is 
what works best.
    Mr. Platts. And I think Ms. Fenley kind of highlighted the 
importance of that holistic approach when, Ms. Fenley, you were 
talking about you and your husband getting on the same page, 
and the benefit of the family to being together.
    I have got a 9-year-old and a 12-year-old and my wife and I 
are always working at making sure we are on the same page 
together. We are much better as parents in doing so.
    Ms. Smart, in focusing specifically on the Nurse-Family 
Partnership, you target first-time mothers, more impoverished 
individuals. Do you want to maybe expand on why you as an 
organization focus on that category versus a broader approach 
to who participates?
    Ms. Smart. Sure. Yes. We focus on that target population 
because that is the target population that this model was 
actually tested on, and it was tested on this target population 
because those who are young, who are pregnant for the first 
time and who are living in poverty have the worst outcomes of 
poor birth, premature birth, low birth weight births. They have 
poor socioeconomic development on the part of the mother as she 
goes on in her life, maybe having multiple children after the 
first one.
    So we follow the model. We have fidelity to the model. So 
that is the target population and that is actually why we do 
serve them.
    Mr. Platts. And your testimony highlights when we talk 
about the benefits, again not specifically dollars but quality 
of life for the participants and society in general, whether it 
be crime reduction, child abuse reduction, school readiness. I 
mean, your studies highlight why this investment is so 
important and----
    Ms. Smart. And we have been able to demonstrate that at the 
local level, too, by the data we keep, so that there is no 
doubt about the fact that we do positively impact these 
families who are most at risk, who load our hospitals and our 
social system.
    Mr. Platts. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kildee. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    Dr. Weiss, first of all I am happy to hear that you are at 
work with Judy Samuelson from Michigan, who is a really great 
advocate for children.
    You testified to the importance of practitioners and 
researchers sharing information to build a knowledge base and 
to inform public policy on home visitation. To what extent is 
that happening, and what can Congress do to ensure that those 
best practices are widely known?
    Ms. Weiss. I think it is happening. I think it has been 
happening for a long time. The major models share information 
with each other about how to improve home visit services. They 
individually and collectively learn from the research. Parents 
As Teachers redid its curriculum based on the neuroscience 
evidence. I mentioned David Olds has redone his curriculum.
    So each of them shows an individual and a collective 
capacity to getting information to improve home visitation, so 
it gives us a strong base, both in terms of their willingness 
to do that and also the ways in which they are then feeding it 
into improve home visit services.
    I am very impressed with the provisions of the EBAH 
legislation, particularly around an independent assessment of 
the results of the EBAH legislation, a national study, with I 
think some very carefully laid out questions that that study 
would address. And also with the set-aside and expectation that 
each state will track the performance of home visit services. 
And my assumption is that with that they will on a yearly basis 
learn what is working and not working and celebrate and expand 
what is working and learn from what isn't and figure out how to 
improve it, very much like the Nurse-Family Partnership does.
    And I know Parents As Teachers and a number of the other 
national models are building that capacity. And in the state of 
Michigan, Judy is helping to build that capacity. By that 
capacity, I mean to get and use data to figure out what you are 
doing well, what you need to do better and continue to improve 
the program. I think that is how you get return on investment 
from these kinds of services.
    Mr. Kildee. Thank you.
    Ms. Fenley, as you testified for your family, home is where 
the Navy sends you. I can understand that a bit. I have two 
sons who have served in the Army, and that is the case with 
them also.
    Can you discuss how home visitation programs can best 
ensure that military families who may have to move frequently 
are aware of their options? When you move from one place to 
another, is there some type of network where you can find out 
where similar programs exist that you can tap into?
    Ms. Fenley. As far as, like, getting here and starting him 
in the program, are you wanting to know, like, if we move 
somewhere else and not having----
    Mr. Kildee. Yes. Would you be able to find out if there is 
a similar program at the new base that you were able to 
utilize, like at the previous base?
    Ms. Fenley. This is our first year in the military at all, 
so I have never actually got to participate in another program 
like this.
    Mr. Kildee. Okay.
    Ms. Fenley. But leaving Virginia Beach, I would definitely 
seek out another program to get my son in, absolutely. I would 
want to find a program to get him in, similar to what we are in 
now.
    Mr. Kildee. Who would you turn to? What agency would you 
turn to at the new base? Is there a----
    Ms. Fenley. Like on base? Like as far as, like, military-
wise, who would I try to seek out a new program?
    Mr. Kildee. Yes.
    Ms. Fenley. There are several resources that you could find 
programs for your children, and one is, you know, the child 
placement program on base that they have for Navy people. And 
you could--there are a few others--and Terri, also, I mean, I 
would be looking for a parent educator, a parent educator with 
the child placement program.
    Mr. Kildee. Okay. Very good.
    You know, I really was impressed by what you said was the 
most important thing you got from the program, is when you put 
your children in bed at night you praise them for what they 
have done that day.
    Ms. Fenley. Absolutely.
    Mr. Kildee. And I probably went overboard a bit in that, 
because when my first child, David, was born, about 38 years 
ago, I would tell my wife, now, we have to make sure that he 
has a good feeling about himself and we have to make sure. I 
was in Lansing, the state capital, I was a member of the state 
legislature, and she was several miles away, and I kept 
emphasizing he has to have a good feeling. And one day I called 
her, I said, ``How is David today?'' And she said, ``He has a 
very good feeling about himself today.'' So you probably hit 
the right balance there.
    Thank you very much, Mr. Chairman.
    Chairman Miller. Thank you.
    Ms. Hirono?
    Let me get this straight. When the Navy transfers you, 
Terrilyn is going with you? Is that what you said?
    Ms. Fenley. I would love that. I am inviting her now.
    Chairman Miller. I hadn't heard about these rights of 
military families.
    Ms. Hirono?
    Ms. Hirono. I think my mike is off so I am going to lean 
over.
    I think it is really important to focus on a comprehensive 
system of early childhood services, so Ms. Weiss I was very 
intrigued by your testimony, where you indicate that 
evaluations of several of the major home visit models suggest 
that home visitation in conjunction with high quality early 
childhood education and/or preschool is more likely to result 
in positive gains.
    Could you talk a little bit more about the importance of 
this continuum kind of services?
    Ms. Weiss. Let me tell you quickly the two sides to it. One 
is a study of Early Head Start and that study done by Helen 
Raikes and her colleagues shows that when you combine home 
visiting, Early Head Start home visiting, and center-based 
care, you get more positive results than either of those two 
interventions separately, so that mixed home visit and center-
based care is important.
    There was a recent study done by Ed Zigler and colleagues 
of the Parents As Teachers Program that shows Parents As 
Teachers parents were more likely to enroll their children in 
early childhood services and also more likely to be reading to 
their child at home, and that combination of things measurably 
increased their readiness for kindergarten and some of the 
early school success.
    So we have got several studies now that are pointing 
towards the importance of first of all not overpromising what 
we can deliver with home visit services, but then the value 
added of combining it with other services that are directed to 
the child and that continue on from birth through a longer 
period of time.
    Ms. Hirono. I know that there have been quite a number of 
studies that show how important quality early education is to a 
child's success, so your testimony that says combining the home 
visits with these kinds of high quality programs, that you 
really get more bang for the buck, basically. I think that is a 
very important point to make.
    Also, I would imagine that there are home visitation 
programs out there that may not meet the kind of quality test 
that we would like these programs to have, because I think one 
of the people testifying said that if it is not of quality, 
then you are practically wasting your resources.
    So what would be the indicators of a high quality home 
visitation program? And how does this bill promote quality 
programs?
    Ms. Weiss. Do you want me to speak to that?
    Ms. Hirono. Well, any of the panelists can weigh in.
    Ms. Weiss. I think what we know is training, supervision, 
high quality curriculum, getting and using data to track your 
performance, are all critical. And one of the interesting 
things about the legislation, from my point of view, is that it 
sets aside and makes provisions for all of those indicators of 
quality.
    Ms. Hirono. So you mean that this bill focuses enough to 
ensure that what we are funding would be the quality programs?
    Ms. Weiss. It contributes in a big way to delivering 
quality, yes, with set-asides and provisions.
    Ms. Smart. I think it is very important that the programs 
that are funded have clear-cut goals and objectives that are 
measurable, that their activities actually address what their 
goals are and that the outcomes that they evaluate are 
addressed in the goals and objectives, so that it is just a 
complete package, so that what they are doing matches what they 
are trying to do and then they assess to see if they have done 
it.
    And in so many of the programs that we have now are 
starting to do that, we are lucky that we are in Nurse-Family 
Partnership that this was practically--well, it was already 
done for us, and we got all the data systems, we have got the 
computerized system, we have got the theory that guides our 
work, the activities that are structured. At each visit the 
nurse gives, we have structured guidelines of what we are 
supposed to do so we are hopefully not that distracted by all 
the things going on in the environment, the gang shootings, the 
drugs in the back room, and, you know, things like that.
    So it is very important to have that structure, and then 
the ability to monitor that structure so that your workers--you 
can assess the product being delivered in the home through the 
outcomes that you achieve.
    Ms. Hirono. Thank you. I have a question----
    Ms. London. Excuse me. I would like to respond.
    Ms. Hirono. Go ahead.
    Ms. London. Our Healthy Families Program has embedded in it 
the weekly supervision of our home visitors. The project 
supervisor of each Healthy Families Program meets with the home 
visitors to look at the quality of their home visits. They are 
actually trained before they make their first home visit. And 
we have a national accreditation body that looks at the quality 
of what it is that we do.
    Our programs are credentialed. It is like a mini-joint 
commission accreditation. So quality is very, very important in 
what we do. In the state of Illinois, a monitoring and tracking 
system that our home visitors put data in. There are regular 
quality improvement reviews of that data. We look at it, we 
analyze it and we apply it to the overall goals.
    The program is based on 12 critical elements, which are 
very, very unique in terms of looking at the quality of what it 
is that we do. We are not simply just making home visits and 
chatting with an individual. We are actually educating the mom, 
the mom is improving in parenting skills, that child is 
becoming ready for school because we know that when we are 
finished, when the program is completed and the child is 3 
years old, we work with them to move the parent and the child 
into the school in that particular community. Quality assurance 
is a very important part of the Healthy Families Program.
    Ms. Hirono. Thank you. I have a question for Ms. Ditka.
    You have a lot of experience in the court system, I take it 
family court. Do the judges in your state have the discretion 
to require the parents to involve themselves in home visitation 
programs?
    Chairman Miller. Ms. Ditka is going to give you a very 
quick answer.
    Ms. Ditka. Yes.
    Ms. Hirono. Thank you.
    Ms. Ditka. Is that quick enough, Chairman?
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    First of all, I would like to thank Congressman Davis and 
Congressman Miller and Congressman Platts for authoring this HR 
2343. And giving us an opportunity to carry on the conversation 
of how important it is that our children get the best start in 
life and to talk about needing to do whatever we can to ensure 
that they are given every opportunity. Quality education, 
health care, support services for parents are such important 
programs. They need to be expanded and every child and every 
parent needs to have access so that we can ensure that every 
single one of these little kids that are born in the United 
States of America has an opportunity to be successful. And I 
think today's hearing has confirmed all of that once again.
    Now, Mr. Estrada, you have had, like, a vacation here. We 
have not asked you a question, so I think that that is what I 
need to be doing.
    You have concerns with Title 9 of HR 2343, and I believe 
your concern is that individuals have to sign a release of 
whether they will or will not take a particular training.
    Now, first of all, don't you think that signature, because 
these are funded programs, that signature is just proof to the 
funders that indeed the offer has been made? Do you have any 
examples of where that has been used and held against an 
individual or a family that chose not to be part of the 
training?
    Mr. Estrada. Congresswoman, our concern is that this could 
lead to that. We have dealt with examples, because of the fact 
that they are confidential I don't have them with me right now, 
but I could get them, and we will get those examples to you. 
But we have dealt with many situations, unfortunately, where a 
medical nurse or a doctor has seen a family and advised them a 
course of treatment in a hospital or something like that, or 
parenting classes or something like that, and the family has 
said, well, we are going to use our own medical provider, for 
example, if they go to an emergency room, if they----
    Ms. Woolsey. But this isn't the same thing. This isn't 
medical provision. This is signing off to say, yes, this has 
been offered to me, I chose to or not to. Is it mandatory, the 
training?
    Mr. Estrada. The training is not mandatory, no.
    Ms. Woolsey. All right. Well, I would like to ask the other 
members of the panel, have you ever seen this offer used 
against a client, or used for them?
    Ms. London?
    Ms. London. The Healthy Families Program is a voluntary 
program. The home visitation program is voluntary. We are 
educating parents to be informed individuals. They make a 
choice as to whether they want to participate.
    Ms. Woolsey. Ms. Ditka?
    Ms. Ditka. The whole tenor of the bill is that it is a 
voluntary program, and in my experience we have never used 
failure to participate in a voluntary program as a basis to 
prosecute someone or in any way get them involved in the social 
service system.
    Ms. Woolsey. So, Mr. Estrada, would your concerns about 
Section 9 then say you and your organization are against--would 
vote against--if you were us--vote against the bill in its 
entirety?
    Mr. Estrada. Well, Congresswoman, two issues about just 
Section 9 about these concerns. The first one is, many families 
could be pressured to take these classes----
    Ms. Woolsey. No, but they aren't.
    Mr. Estrada. Okay.
    Ms. Woolsey. So what could happen is also many families 
could end up without an education for the family and their 
children that have prepared those children and those adults to 
be good parents and good, successful individuals once they get 
into school. So all of this if ``ifs''.
    But, okay, the second if?
    Mr. Estrada. And the second if, Congresswoman, is actually 
following up with what Ms. Ditka said. We are very grateful 
that families are not prosecuted. But even an anonymous tip 
sometimes from a nurse, for example, who says, well, why did 
the family not choose these parenting classes, could lead to 
that.
    Our concern is it is not clear in Section 9 if hospitals 
are required to offer these parenting classes, or if it could 
lead to a situation where families are basically strongly 
pressured and----
    Ms. Woolsey. Okay. Well, then, I would suggest we can--Mr. 
Davis will look at the language to make sure it is clear.
    Mr. Estrada. Thank you.
    Ms. Woolsey. There is no question that it needs to be 
clear.
    Ms. Smart, have you ever known of a nurse that has used 
such evidence?
    Ms. Smart. No, I have never known of a nurse to do that, 
although we have had referrals from probation officers that 
strongly recommended their clients enroll in NFP. When we get 
any indication at all that the client is forced to do it, we do 
not enroll them, unless they really want to do it. But we 
don't.
    Ms. Woolsey. It is voluntary.
    Thank you, Mr. Chairman.
    Ms. Clarke. Thank you, Mr. Chairman.
    My question is for you, Ms. Ditka, because just reflecting 
that this Sunday is Father's Day, and as I reviewed your 
testimony it struck me that many of the statistics you cited 
concerning program success relate to women, namely young 
mothers in the program. Here is my question: Where are the 
fathers? Actually, does the program in your country incorporate 
and assist the fathers?
    Ms. Ditka. Yes. If the fathers are involved, the Nurse-
Family Partnership in Allegheny County does incorporate the 
fathers. And in fact, in the success story I gave you, not only 
did the woman become educated and get clean, she was also 
getting married. So it is the whole package.
    But if the fathers are willing and involved, they are 
encouraged to participate. And if they are willing to do so, 
they are included in the program.
    Ms. Clarke. Can anyone else on the panel speak to their 
experience with--when we say parental, there seems to be such a 
heavy emphasis on the mothers--what type of success we are 
having in incorporating fathers in this process?
    Ms. Smart. I can speak to that. We do have great success 
when the father of the baby or the boyfriend to the mother, who 
may not be the father, is involved in the home environment. 
Where we have a problem is when the father is incarcerated.
    But the techniques that we use in the home, even the simple 
thing of the father walking in the room when the nurse is 
there, dads generally don't like to be involved in this, but to 
include him, when a father walks in the room and start talking, 
the nurse will say, ``Oh, look, the baby just turned its head 
to look at you, it already knows you,'' and the father is 
astounded. What do you mean the baby knows me? That, right 
there, starts the bond. And that starts our work.
    And then we see the dad slowly becoming more and more--they 
will hang out in the kitchen and listen and they will come into 
the room. But it is a process of becoming involved, it is not 
just simply--many fathers don't want to sit down and be that 
involved right away.
    Ms. Clarke. Ms. London?
    Ms. London. In our Healthy Families Program in Near North 
Chicago, we encourage fathers to participate from the very 
beginning, when we are assessing just the eligibility to 
participate in the program.
    In fact, one of the home visitors is in fact a father, and 
he is able to engage the fathers more at each home visit, and 
we encourage them even to accompany the moms to the health 
center for the prenatal visits, and we have had fathers who 
have participated and graduated from our group parenting 
classes.
    Ms. Clarke. Wonderful.
    Ms. Ditka, I wanted to ask you another question. I am from 
New York City and we recently had a very tragic occurrence in 
our child welfare safety net where a 3-year-old child died as 
the result of torture in the care of his foster care mother, 
who was deemed unfit for custody of her own children in another 
state.
    Have you seen models of success in partnering of NFP with 
the child protective services and foster care agencies? There 
seems to be some sort of hole there if someone who is becoming 
a foster care parent doesn't have the parenting skills either. 
And that is a huge part of our social network and fabric in our 
communities.
    Ms. Ditka. I have a similar case pending now, where the 
family came from a different state, their children were taken 
away, they have new children here and those children have lived 
in horrific conditions.
    Again, the programs that we are talking about are 
voluntary, so these people that are signing up for these foster 
care that have already had children removed are not going to 
voluntarily participate in a program like this. And this is a 
voluntary program.
    I think the issue that you raise takes us sort of in a far-
reaching direction with some of our social service problems 
that exist not only in New York and Pennsylvania, but I think 
in every state across the nation.
    Ms. Clarke. I am even wondering whether they are even 
offered it.
    Ms. Ditka. I can't address that. I am sure Ms. Smart can.
    Ms. Smart. I can address that. In Los Angeles County, when 
we did try to determine first of all how many girls who were 
under protective services got pregnant while they were 
receiving protective services, we couldn't find that number, 
nor can we find it statewide. That data simply is not kept.
    We do offer this program generically to every woman or girl 
who fits the intake criteria, first time pregnant, living in 
poverty and we try to get them before their 18th week of 
pregnancy. But the protective services system is one we really 
need to crack into. It should be offered to every single child. 
They are the most very, very at high risk of the girls who get 
pregnant in our county. Their outcomes are abysmal.
    Ms. Clarke. Thank you very much, Mr. Chairman. I yield 
back.
    Mrs. Davis of California. I was going to yield to Mr. Holt, 
right?
    Thank you very much.
    Thank you, Mr. Chairman, and to the sponsors of the bill.
    I remember back in the state legislature, let's see, that 
was back in about 1994, and we were beginning to have 
discussions about this. The HIPPY Program was involved in 
California. So I am actually delighted to see how far this has 
come and that is great.
    A few quick questions. One, the self-selecting process of 
parents choosing to be involved. And I understand this always 
has been a voluntary program. But does that hamper in any way 
your ability to evaluate the extent to which the programs are 
bringing something of great value into the family that perhaps 
they might not have received in a different way?
    One of the concerns we often have even with charter schools 
is that parents who are selecting that their child go to that 
school may have different tools available and to make that a 
successful opportunity for that child.
    Could you comment briefly on that? And are there some ways 
of dealing with how perhaps there is additional outreach, 
especially for groups of individuals that may tend to decline 
the services? Does anybody have any comments?
    Dr. Weiss, or whoever would like to respond.
    Ms. Weiss. I am happy to respond.
    I think that the issue of selection bias is real because 
participation is voluntary. So you are always going to have 
selection bias, and I think that is true of any of the 
programs. You are going to have selection bias based on it 
being voluntary.
    Having said that, I think each of these programs in my 
knowledge goes to special efforts to do outreach to stressed, 
vulnerable families that could benefit from the service. Some 
of them target those families directly. Some of them do extra 
outreach to try to make sure they enroll the families that the 
evidence suggests can benefit a great deal from participation.
    And in fact, when one does analyses of who participates and 
looks specifically at the most high risk groups, there is some 
evidence that suggests for example with Early Head Start that 
it is the high risk groups that benefit the most, which 
validates the extra effort to try to include, you know, perhaps 
the most highly stressed families.
    So I think we can make claims that these benefit high risk 
families, and I think we also have to make sure that we are 
doing outreach to get them into the program.
    Mrs. Davis of California. Where--and again, if anybody 
wants to respond--where is the greatest gap in terms of 
outreach providing the trainers, the personnel, to participate 
in this program? Are we reaching the individuals who in fact 
really can relate best to the families that they might be 
serving? Is there a gap in being able to identify outreach 
having, you know, the individuals come forward and participate 
and any men who participate as well? I mean, have we looked at 
that statistic?
    Ms. Smart. That is a difficult question, actually, to 
answer, because we have dealt with being nurses, and I get this 
a lot in Los Angeles, well, you are nurses, how can you 
possibly know about the families that live in poverty. So the 
cultural differences are something that is always brought up. 
And I always have to bring up, well, nurses live somewhere, and 
many of us were raised in poverty.
    The gaps in Los Angeles County are such mostly with the 
bilingual issues. We have so many languages, mostly Spanish 
speaking, and so we have made great efforts to make sure our 
staff is bilingual. That I think--and then in outreach, 
outreaching through churches has been very beneficial, schools 
and the Women, Infants and Children Program is one of our main 
resources for outreach.
    Mrs. Davis of California. Do you see--I know my time is 
running out--do you see that as an important part of the 
evaluation? And should the bill be more specific in being able 
to assess the extent to which the program mirrors the 
population in the community that it serves?
    Ms. Smart. Absolutely. And we do keep that data in the Dr. 
Olds Nurse-Family Partnership model, so that we do know. And it 
is very interesting, because our population in NFP Los Angeles 
mirrors exactly the population that we have, including a couple 
of Cambodian and Vietnamese mothers.
    Mrs. Davis of California. Thank you.
    And just quickly, other challenges in terms of training. 
Wages? Is that an issue that should be addressed? Are people 
able to afford being part of this program?
    Ms. London. The Healthy Families Program, being a part of 
the social service arena, always you hear about the salaries of 
the individuals. But as I said in my testimony, our workers 
have a passion and a commitment for the families that they work 
with, and the families can really see that.
    Right here, Ms. Fenley, who has testified, they have 
developed a trusting relationship. And so that seems to go 
beyond the salary which they may receive, which some may not 
feel is competitive.
    I wanted to go back to the outreach question of----
    Chairman Miller. I am going to ask you to quickly summarize 
what you want to say.
    Go ahead, Ms. London, just finish your thought.
    Ms. London. That issue dealing with the salary, it is their 
commitment to the work more than the salary.
    Chairman Miller. Thank you.
    Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    I thank the sponsors of this bill and the chairman for 
doing this.
    Ms. Fenley, since you are into--since you spoke about 
encouragement and validation and praise, let me lay a little 
praise on you. I can't imagine a better national spokesperson 
for this sort of thing than you, and your testimony about, you 
know, understanding the reasons that little Zane does what he 
does and finding resources that you would not have found on 
your own and connecting with community, learning parenting 
techniques, approaches to discipline, working with both you and 
your husband in childrearing, it makes it so clear the value of 
programs like this.
    And, you know, we in New Jersey have seen this. I have seen 
it at Family and Children Services, Children Home Society, they 
have a program with English language learners, Parents As 
Teachers in New Jersey, quite active and quite successful. And 
if there is some way we can make this broader and more 
effective through legislation such as that of Mr. Davis and Mr. 
Platts, I am all for it.
    I have a couple of questions. One is, if this becomes too 
formalized and appears to be coming from the state and is 
connected with child protective services somehow in people's 
minds, how do we guard against the participants putting up a 
defense, saying, you know, this is an inspection service, it is 
intrusive, rather than as obviously I think it was Terrilyn who 
worked with Ms. Fenley.
    How do we build into this program an inviting aspect? I am 
not sure whom I should ask this to. Anyone who has any comment 
on that----
    Mr. Estrada. I think that is a good point, and I would not, 
and I don't think anyone here, even if we have concerns with 
the bill, would be against many of the things in this bill.
    Something that we have looked at at HSLDA, we have looked 
at if the parenting classes, if the materials, instead of 
coming from the Secretary of Health and Human Services and 
instead of coming maybe so closely linked to the state child 
welfare services, if it was in the example of, let's say, 
grants that were given to public private entities that could 
then offer these parenting classes, maybe that would even get 
these classes into the hands of more people and still give very 
good education to parents, teachers who could help the parents, 
and it would also do away with some of the concerns that HSLDA 
has.
    I know that----
    Mr. Holt. Thank you.
    I think maybe Ms. London would be the best to answer this 
next question. How do we build into this program a longevity, a 
long enough relationship with the family and the visitor? A lot 
of these families, of course, are not particularly stable. They 
may have to move a lot, particularly if they are military 
families. They have changing jobs and life situations. Are 
there things that we have learned about how to build in a long 
enough contact to get the most benefit out of the program?
    Ms. London. Yes. I would say we started with the trusting 
relationship that we build with the mom while she is pregnant, 
so that is 9 months. And then we work with the children and 
families until the child is 3 years old. So that is 3-plus 
years. And we continue working with them even beyond that.
    If our families are relocated and when they move, they can 
voluntarily continue to agree to participate, and the home 
visitor will follow them wherever they move within the City of 
Chicago limits.
    Mr. Holt. Again, I think this is fine legislation and I 
thank Mr. Davis and Mr. Platts.
    And thank you, Mr. Chairman.
    Chairman Miller. Mr. Payne?
    Mr. Payne. Thank you very much.
    I am sorry that I missed the testimony. But are any of you 
associated with CASA, the Court Appointed Special Advocate?
    Well, we are very fortunate in our county, I happened to go 
to be called for jury duty. The only way I got out is that I 
was assigned to a murder case that was going to take 6 weeks, 
so I couldn't be chosen because I can't stay in the court for 6 
weeks.
    But while I was there, they had a presentation, actually, 
to all the jurors, must have been a thousand, where they went 
over a court appointed--what is it called--court appointed 
special advocate. In our county, the abuse in foster care is so 
high that the state can't handle it and so they are asking for 
volunteers that have to go through training to actually be 
assigned to a foster child to make sure that the foster child 
is getting proper treatment in foster care. It is a very unique 
program and we have almost a thousand volunteers that are in 
it.
    You know, I usually don't kind of discuss dirty linens in 
public, but we have a very serious problem in our county. 
Unbelievable. We have more, nearly 25 times, the average U.S. 
rate of children in foster care in four cities in my county, 
and we have challenges in this little area. Twenty-one percent 
of the violent crime occurs right in these four cities for the 
entire county. The statistics are really unbelievable of some 
of the problems that we have. Fourteen percent of the children 
are born low birth weight. Twenty-five percent spend at least 
one night in the hospital in their first year. Twenty-seven 
percent have asthma. Twenty-one percent were overweight at age 
3. Sixty-two percent were below the 15th percentile in verbal 
skills.
    And so we really have a concentration of poverty that is 
probably even more severe than in your Cabrini Green area in 
Chicago. And so I am interested in trying to gather from your 
testimony, which I missed, but I might ask you, Ms. London, 
about the--I understand in your testimony you speak of families 
that are being displaced in the Cabrini Green housing area. We 
have had the same problem of bringing down public housing, and 
people sort of are dispersed.
    But could you sort of share with me how your program has 
helped these families and how have you impacted on the overall 
welfare of the children in these families that have been 
dispersed?
    Ms. London. Yes, I can. The home visitor works very closely 
with families. One of the goals on our IFSP, which is our 
individual family support plan, is whatever the parents want us 
to work with them on, that particular goal, for a 6-month 
period. And we update it and review it every 6 months. So 
housing in that area is an integral goal.
    The home visitor works together with case managers and with 
other agencies to actually move and relocate the families. And 
as I said, we are able--if the family wants to continue in the 
program, to actually continue home visits wherever it is that 
they move within the City of Chicago, and give services, offer 
services, to them.
    Our program is a part of the Community Health Center, so 
many of our participants are also patients of the health 
center, and they continue to come into the health center even 
after the child has aged out at age 3. And so we are able to 
continue interacting with them in terms of school enrollment, 
immunizations, well child visits or whatever it is that the 
parents need.
    Mr. Payne. Do you have Section 8 housing in your portfolio, 
or is that out of the Housing Authority, you know, which 
Section 8 says 30 percent of the income is spent for housing 
and the rest is paid by the federal government.
    Ms. London. That would be more case management. But the 
home visitors do work very closely with case managers.
    Mr. Payne. Okay. Well, it looks like my time is expired.
    Thank you very much.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I want to say thank you for calling this hearing and I want 
to express my support for the parental involvement and family 
involvement as we try to teach children the art of learning. 
And I say that without a successful program in parental 
involvement and family involvement, that I think that we are 
missing one of the most important components that Chinese 
families--Chinese leaders have taught us, who have visited 
China, inquiring how is it that they can be so successful in 
having large percentages of their children graduating from high 
school and going on to college and beating the socks off of us 
when we compete with them in international scholastic 
competition.
    So my questions are going to be many and I ask you for 
short answers so I can ask as many questions as I can during 
the short time they are giving me.
    My first question is to Ms. London, from Illinois. How does 
your program provide support, training and supervision to 
ensure that the home visitors are effective in working with 
families who do not speak English?
    Ms. London. Presently, our program is 100 percent African 
American English speaking individuals.
    Mr. Hinojosa. Maybe, Ms. Fenley, what do you all do--is it 
Mrs. Fenley--can someone else answer my question? Those who are 
English limited families who can't speak. I can certainly tell 
you that I am very interested in this because I come from a 
family of 11 and my mother didn't speak English, so if we had 
anybody come visit, she couldn't speak to them.
    Ms. Smart. I can speak a little bit to it. In Los Angeles 
we have the top 11 languages that we have to deal with. We do 
recruit nurses specifically sometimes for the languages they 
speak and the culture that they are.
    I think all of us struggle with meeting the needs of our 
populations we serve, especially the multicultural, multiethnic 
groups. But it is very important that what you look at also 
statistically--and I did this analysis when we first started--I 
found out that oftentimes it is main family language we don't 
speak, but the young child who is pregnant--and I say young 
child, again, 17--is bilingual, although maybe not good. And 
the outcomes are similar and the same to the outcomes of those 
with the same cultural mix of the nurse to the client.
    That also included we had need to look at the African 
American population served by the Latina nurse. Their outcomes 
were the same as any other person we served. Again, it goes 
back to the relationship, and sometimes there are a million 
things you can do without ever saying a word.
    Mr. Hinojosa. So would you say that we need to address, 
then, the lack of communication wherever we are not able to 
have those visitors to the homes with a language the parents 
can understand?
    Ms. Smart. Absolutely.
    Mr. Hinojosa. Maybe taking college students who can speak 
that language, be it whatever the language is.
    My next question then goes to Ms. Weiss from Harvard Family 
Research. What does the research show to be the core components 
of an effective home visit program that strengthens family 
literacy and helps parents support their children's learning?
    Ms. Weiss. I think we talked a little bit about some of 
those key components. Well-trained staff. The Nurse-Family 
Partnership woman mentioned a program that aligns the goals, 
what you do in the home and the measurement to make sure that 
they are all consistent with the outcomes that you are trying 
to get. Well-trained staff with supervision is critical.
    And I think all of these models that I am familiar with 
also stress the importance of the parent working with the child 
around literacy development in the home.
    Mr. Hinojosa. Would your research confirm that those 
mothers who work with children at early ages of 1 through 3 or 
4, teaching--letting the children listen to somebody reading to 
them, to get them to learn to love books and reading? Does that 
work?
    Ms. Weiss. There is a lot of support--there is a lot of 
research evidence that supports that conclusion, a huge amount 
of it.
    Mr. Hinojosa. Excellent.
    The next question goes to Ms. Smart, director of Nurse-
Family training. In many communities across the country, 
Hispanic families live in a climate of fear because of the 
current policy of indiscriminate immigration raids and local 
policies aimed at newcomers to feel unwelcome. How do you build 
trust in the communities you serve?
    Ms. Smart. I guess we build it by being there and showing 
over time that we can be trusted. We don't report to 
immigration. The only thing we do report routinely is child 
abuse when we see it in the home.
    But, no, we have established a reputation and respect and a 
lot of our referrals, as mentioned earlier, come from the girls 
who are pregnant and their friends get pregnant. They come to 
us that way.
    I think it is very important, and again it helps to have 
multicultural nurses onboard so that they can see we are 
supportive. And again, nurses are one of the most respected 
professions, and that helps too.
    Mr. Hinojosa. Thank you.
    I yield back.
    Chairman Miller. Thank the gentleman.
    Mr. Tierney, do you have any questions?
    Mr. Tierney. Just maybe one or two, Mr. Chairman. Thank 
you.
    Dr. Weiss, I came a little late. I apologize. I have 
another committee going at the same time. But I know in your 
written remarks you talked about the Parent Child Home Program, 
which we have in some of the communities in my district. Have 
you explained that already on the record, the specifics of the 
program and its measures of success?
    Ms. Weiss. I have not.
    Mr. Tierney. Would you do that for me, please?
    Ms. Weiss. Yes. The Maternal Child Home Program provides 
home-based support for language and literacy development from 
about age 3 to age 5. It has several studies, experimental 
studies, that suggest the value of doing that around children's 
language and literacy development and early school readiness. 
They also have studies that show that parents who belong to and 
the kids that experience the program are more likely to be 
involved with their kids' development into elementary school. 
So it leverages early parent involvement to support sustained 
parent involvement. So it has an array of very important 
outcomes. It is a very strong model.
    Mr. Tierney. I am curious on that, because I know Brandon 
Walsh, when he was head of Title 1 in Salem, started the 
program in that community and has a waiting list now. Most of 
the communities that do it in fact have a waiting list, and 
most of the parents that go through it--not most of them, but 
many of them, then become people instructing on the program.
    All of the indicators that we have from the local metrics 
on that are that it is successful and progressing, and you are 
now confirming that on a broader perspective it also seems to 
be a good program.
    Ms. Weiss. Yes.
    Mr. Tierney. Thank you very much.
    I have no further questions, Mr. Chairman. Thank you.
    Chairman Miller. Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    Kind of a follow up to the discussion earlier about the 
different programs and who is targeted for inclusion, whether 
it be Healthy Families, Nurse-Family Partnership or some of the 
others. One issue we haven't really mentioned is the issue of 
means testing. And I would be interested in any of the 
panelists, and maybe especially Ms. London with Healthy 
Families. I know you don't have means testing, but you do kind 
of target by at risk of, you know, abuse, not means testing.
    And then, Ms. Ditka, in your testimony earlier you were 
talking about how abuse does run the gamut of all socioeconomic 
groups, which would seem to argue against any kind of means 
testing.
    So I would be interested in especially the two of you, but 
any of the other panelists also, whether there should be any 
mandatory means testing included in the legislation as part of 
any programs participating.
    Ms. London. Ours is a strength-base program. And the way 
that we bring in our families is to assess for particular 
potential for child abuse and neglect, is what it is that we 
are looking for.
    Mr. Platts. Regardless of income level, right?
    Ms. London. There is no income, no ethnic differentiation 
or anything. It is universal assessment and screening.
    Mr. Platts. Okay.
    Ms. Ditka. In Allegheny County, the Nurse-Family 
Partnership that works in Allegheny County does do some needs 
assessment. So it is impoverished, primarily teenage mothers, 
in their second trimester.
    But I think my response was in response to Mr. Davis' 
question, and that is that any family, regardless of need 
economically could use this program. It is just merely at risk 
parents. You don't have to be impoverished to not have good 
parenting skills. Anybody can be afflicted with that problem.
    Mr. Platts. Thank you.
    Anyone else want to comment? Yes?
    Ms. Weiss. Programs like Missouri's Parents As Teachers 
have evidence of benefits for everybody who participates, 
regardless of income. They have also been good, as have other 
programs that serve a general population, of providing more 
intensive and frequent home visit services to families that may 
need more help.
    So there are a number of models of universal programs that 
then provide more intense, frequent services to more high-need 
families.
    One of the things I like about the legislation is that it 
leaves to the state and perhaps the local community decisions 
about how they are going to use their resources. Having said 
that, I think there is a research-based case that says more 
highly stressed families need more intensive and frequent 
services within a universal model when people chose to go in 
that direction.
    Mr. Platts. It is perhaps allowing that to be an option, 
but not mandated for the state and local participation. And I 
think that is something to emphasize here, that this is for a 
federal program to help fund state and local efforts, not to 
create a federal program, but provide the funding for such a 
program.
    Ms. Weiss. It is also not age-specific programs that you 
are mandating, and you are leaving a lot of choice within 
reason to states about the kinds of programs they are going to 
provide.
    Mr. Platts. Thank you.
    Mr. Estrada, your testimony focused on Section 9 and the 
concerns there, and to follow up my colleague and try to get 
into that a little further with you. Is it safe to say that, in 
Section 9, if it was retained as far as trying to ensure 
parents are made aware of this program, if the requirement was 
eliminated as far as a parent having to sign saying yes, I 
participated or no, I chose not to participate, that 
requirement, because it seemed like that is where your focus 
was, that having to sign something would make them feel 
pressured to participate. So if that signature requirement was 
eliminated, would that go a long way towards eliminating your 
organization's concerns?
    Mr. Estrada. That would definitely help, Congressman.
    If the materials were just in the hospital as something 
that is offered by the way to parents, this is something that 
would be very helpful, we encourage you to take it, that would 
take away a lot of our concerns.
    Our concern also, however, is that if the curriculum is 
going to be developed by the Secretary of HHS and there are no 
guidelines for how the curriculum is going to be developed, 
what happens if it is open to politics being played with it as 
different administrations come, maybe one side doing it this 
way and one side doing it the other way? What if down the road 
it ended up something that different religious hospitals or 
cultural birthing centers, they disagreed with the materials? I 
was uncertain. The bill seems to be a bit vague. Can a hospital 
refuse these materials?
    Mr. Platts. I think sometimes we can start to imagine all 
sorts of things that could be, and you can never write a 
legislation to guard against every possibility, but I 
appreciate the concern that it is voluntary participation and 
no consequences for not.
    And I will quickly--I see my time is out--just emphasize 
with your organization, in the findings of the legislation, I 
really see this as supportive of parents who choose to 
homeschool, because in the findings we reflect that the first 
and most important teacher for any child is the parent. And 
that is exactly what homeschoolers believe, and with the very 
large homeschool population in my district that are very 
engaged with their children and their education. So we are 
trying to, I think, compliment what your organization is about.
    A final comment, just again, Ms. Fenley, and this really 
goes to Mr. Kildee reflected it as well, all the testimony has 
been exceptional and very helpful. Your testimony about the 
most important thing you have gotten out of your participation 
hit home.
    I was telling my 9-year-old last night as he was getting 
tucked in and we were recounting the days--yesterday was the 
first day of summer vacation, and we were recounting his third 
grade year and how proud we are of how hard he worked and how 
well he has done, and how I end every day with that hand on the 
chest when they are asleep and they don't know it, just that 
all is well. I can go to sleep because my kids are sleeping.
    Your testimony about that lesson of instilling self-esteem 
in our children is a powerful statement, and if you are not 
already doing so back home, you are a great advocate for 
espousing the importance for families of the parents 
participating in your program in Virginia and, really, thank 
you for being here today.
    Thank you, Mr. Chairman. I yield back.
    Chairman Miller. Further questions?
    Mr. Davis of Illinois. Mr. Chairman, thank you very much.
    I just want to assure Mr. Estrada that we hear him in terms 
of the concern that he expressed relative to privacy and the 
whole question of possible coercion, and we will review the 
language and take a look at that and try to make sure that 
there are no loopholes whatsoever.
    Mr. Estrada. Thank you, Congressman.
    Mr. Davis of Illinois. I consider myself a practicing civil 
libertarian, that individuals must have the right to do what 
they want to do and when they want to do it and the way they 
want to do it.
    And Mr. Chairman, again, I want to thank you for holding 
this hearing.
    And I would just reemphasize, you know, Mr. Holt indicated, 
Ms. Fenley, that if we had a national spokesperson for this 
issue, it ought to be you, and I would certainly agree with 
him. Maybe we will have to figure out a way to create that.
    So thank you very much, Mr. Chairman, and I yield back.
    Chairman Miller. I feel a Section 10 coming on. [Laughter.]
    Let me thank you all. If I just might take a couple of 
minutes here.
    One, Mr. Platts has made the point and I think it is very, 
very important with respect to this legislation that we are 
trying to create a federal stream of funding, not a federal 
program, and I think that is important. I feel a little bit 
like, you know, you will have been running this startup company 
for a while and now you are asking to go to scale. And as we 
know in dealing with human services, it is the most difficult 
thing we can do, and we don't have a great track record.
    And on that point, I am most intrigued by these programs as 
I have been involved with them and watched them over several 
years, that they have--the attempts that have been made to 
maintain the integrity and to use the data and the information 
for program improvement. And I would just ask you once again to 
look at this bill, because I think it is absolutely critical so 
that we can say with confidence that we are investing in a 
program of success here, a program of record and a program of 
sort of constant improvement.
    And then I think that allows us to stay out of the way in 
the kinds of--so that you can continue to use the discretion 
and the history and the background that you have of the program 
to make the choices and decisions that you do.
    That is a big test in our relationship here. We hand out--
you know, if we are fortunate enough to get a half a billion 
dollars, a lot of people start thinking we should start driving 
the horses here. That is not a very successful model, either.
    So I would just ask you--and Dr. Weiss, as you review the 
studies over the last 25 years, you make it very clear that 
where these quality indicators are not in place, we are just 
kidding ourselves. And I think a couple of the witnesses said 
if you don't do it right, if they don't want to volunteer, if 
they don't want to participate, it is just not going to work.
    And I think that is what would be my priority here with 
respect to this legislation. I think Mr. Davis and Mr. Platts 
have done a great job of drafting this legislation, but I want 
to know that if we are going to scale, we could be back here 5 
years from now and 10 years from now and see a program that has 
continued to improve without us creating a lot of regulations 
and hurdles for people to jump that just eat up the resources.
    So there is that part of it. If we could call on you again 
to sort of scour the bill, because you have very extensive 
experience with this. I think the bill has been drafted with 
all of that in mind, but I just want to reiterate that point.
    And finally, thank you to Zane and Megan for coming today 
to join us. Megan, thank you very much for being here and 
brining your brother. We enjoyed you both. So thank you.
    And Ms. Ditka, are you going to introduce mom? You brought 
her all the way down here, you are going to make her drive 
home, come on.
    Ms. Ditka. My mother, Joyce Ann and my daughter, Claire.
    Chairman Miller. Thank you. And you are welcome, too. Thank 
you for being here.
    With that, the committee will stand adjourned, and thank 
you again so much for your time and your expertise. And we will 
leave the record open for further submissions if something 
comes to you or members of the audience and members of the 
committee.
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Chairman Miller, thank you for holding this hearing today. Thank 
you Representatives Danny Davis and Platts for introducing H.R. 2343, 
the Education Begins at Home Act. This is an important topic and I look 
forward to more conversations about how we can help give every child 
the best possible start in life.
    Home visitation programs have been shown to reduce child abuse, 
improve parent and child bonding, increase literacy, and even reduce 
crime. These important programs are already helping many families in 
communities all over the United States, but there are long waiting 
lists and many more families could benefit from these services 
provided. That's why it's so important that the federal government 
provide funding to serve more families and so more communities can have 
access to home visitation services.
    However, we can't stop there. Home visitation programs should be 
better utilized along with a host of other services for children and 
families, such as early childhood education, affordable, quality child 
care, and work schedules that allow parents to more fully participate 
in their child's lives. In two-thirds of all American families, one or 
both parents work and they are trying to balance work and family 
responsibilities. These parents are doing the best they can for their 
children and we need to help them by ensuring that they have access to 
home visitation, early childhood education, and other programs and 
flexible enough work schedules that allow them to utilize these 
programs.
    Chairman Miller, thank you again for holding this hearing. I look 
forward to continuing this dialogue with my colleagues to find more 
ways to help parents give their children the best possible start. Thank 
you.
                                 ______
                                 
    [Additional materials submitted by Mr. Miller follow:]
    [The report, ``Breaking the Cycle of Child Abuse and 
Reducing Crime in Pennsylvania: Coaching Parents Through 
Intensive Home Visiting,'' may be accessed at the following 
Internet address:]

              http://www.fightcrime.org/reports/PACAN2.pdf

                                ------                                

    [The report, ``The Economic Return on PCCD's Investment in 
Research-based Programs: A Cost-Benefit Assessment of 
Delinquency Prevention in Pennsylvania,'' may be accessed at 
the following Internet address:]

         http://prevention.psu.edu/pubs/docs/PCCD--Report2.pdf

                                ------                                

    [Additional statement submitted by Mr. Tierney follows:]

 Prepared Statement of Sarah E. Walzer, Executive Director, the Parent-
                           Child Home Program

    The Parent-Child Home Program is pleased to submit this testimony 
in support of the Education Begins at Home Act, H.R. 2343. We thank the 
Committee for holding this important hearing on legislation that will 
make a tremendous difference in the lives of children and families 
across the country. We are pleased to be part of a national coalition 
of home visiting organizations and advocates for early childhood and 
family support services that has been supporting the passage of the 
Education Begins at Home Act.
    As a nation, we cannot really begin to talk about ``No Child Left 
Behind'' until we have successfully ensured that ``No Child Starts 
Behind''. Today, too many children in the United States enter school 
never having seen or held a book, without the basic literacy and 
language skills they need to participate successfully in the classroom. 
As a result their teachers in pre-kindergarten or kindergarten have to 
slow or stop the curriculum they had planned, to help these children 
catch up. Unfortunately, the data shows us that most children who start 
behind will never catch up. Children who do not know their letters when 
they enter kindergarten are behind in reading at the end of 
kindergarten, at the end of first grade, and are still having trouble 
reading at the end of fourth grade.\1\
---------------------------------------------------------------------------
    \1\ ``A policy Primer: Quality Pre-Kindergarten,'' Trust for Early 
Education, Fall 2004.
---------------------------------------------------------------------------
    We also know that preschool is not the sole solution to this lack 
of readiness. Children arrive in pre-kindergarten not ready just as 
they have been arriving in kindergarten not ready. Children are more 
likely to be ready at any age when they have a family that knows what 
it needs to do to help them get ready. All families want their children 
to be successful, to do well in school, but many families do not know 
how to prepare their children to be successful in school. If you are 
not educated yourself, did not grow up in the American education 
system, and/or do not have the means to purchase books and educational 
toys, you may need some guidance to help you get your child ready for 
school. The Education Begins at Home Act (EBAH) is designed to do just 
that by ensuring that families receive the supports they need to 
prepare their children to enter school ready to be successful students 
and to go on to graduate from high school.
    The Parent-Child Home Program is a research-based, research-
validated early literacy, school readiness, and parenting education 
home visiting program developed in 1965. For over 40 years, the Program 
has been serving families challenged by poverty, limited education, 
language and literacy barriers, and other obstacles to school readiness 
and educational success. The Parent-Child Home Program currently serves 
over 6,500 families through more than 150 local sites in 14 states. 
Many more families could be served in each of these communities, as all 
of our sites have waiting lists at least equal to the number of 
families they are currently serving. And many more families remain in 
need of these services in communities that have not been able to 
develop funding streams for this critical early childhood service.
    The Parent-Child Home Program works with a broad range of families 
whose children are at risk of entering school unprepared: teen parent 
families, single parent families, homeless families, immigrant and non-
native English-speaking families, and grandparents raising 
grandchildren. Working with parents and children in their own homes 
helps families create language-rich home environments and lays the 
foundation for school readiness and parent involvement as their 
children enter school. Parents are able to continue to build their 
children's language and literacy skills after the Program finishes and 
their children enter school ready to succeed. The Program erases the 
``preparation gap'' and prevents the ``achievement gap.''
    The funding that would be provided by EBAH is critical to ensuring 
that home visiting programs like these can reach families in need of 
services and enable children to enter school ready to be successful 
students. The families reached by home visiting are families who are 
not accessing center-based early childhood or school readiness 
services, including the library, play groups or parenting workshops. 
They do not have transportation or access to transportation to get to 
these services; the services are not open or available when the parents 
are available to attend; they have language or literacy barriers; and/
or they have no money to pay for programs.
    I would like to provide you with some background on The Parent-
Child Home Program to highlight the extent of its evaluation and 
validation and the depth of the Program's experience working with 
families across the country. For over 40 years, we have been preparing 
young children and their families to enter school ready to learn. As a 
result, four decades of research and evaluation demonstrates that 
Parent-Child Home Program participants in communities throughout the 
country enter school ready to learn and go on to succeed in school. In 
fact, peer-reviewed research demonstrates that program participants go 
on to graduate from high school at the rates of middle-class children 
nationally, a 20% higher graduation rate than their socio-economic 
peers nationally and a 30% higher rate than the control group in the 
study. From the first day of school, Program participants perform as 
well or better than their classmates regardless of income level. This 
research, published in peer-reviewed journals, demonstrates not only 
the immediate, but also the very long-term impacts of home visiting.
    Not only do child participants perform better in school, but their 
parents also become actively involved in their education, as noted by 
principals and teachers at the schools they attend. In addition, the 
parents go on to make changes in their own lives as well, obtaining 
their GEDs, returning to school, and improving their employment 
situations. At least 30% of our Home Visitors across the country are 
parents who were in the Program as parents; for many of them, this is 
an entry into the workforce. All of these changes have significant 
ramifications for their children's futures. The Parent-Child Home 
Program proves that when programs are available to support parents and 
children from an early age, delivering services in a way that is 
accessible and meaningful to them, we can ensure that economically and 
educationally disadvantaged children will enter school ready to learn, 
never experience the achievement gap, and attain high levels of 
academic success.
    The Program's primary goal is to ensure that all parents have the 
opportunity to be their children's first and most important teacher and 
to prepare their children to enter school ready to succeed. The 
Program's hallmark is its combination of intensiveness and light touch. 
Each family receives two home visits a week from a trained home visitor 
from their community who models verbal interaction and learning through 
reading and play. The families receive a carefully-chosen book or 
educational toy each week so that they may continue quality play and 
interaction between home visits and long after they have completed the 
Program. Often the books are the first books in the home, not just the 
first children's books, and the toys are the first puzzles, games or 
blocks that the child has ever experienced. The materials are the tools 
the parents use to work with their children. The materials ensure that 
when these children enter pre-kindergarten or kindergarten they have 
experience with the materials that teachers expect all children to 
know.
    Most importantly, the Program is fun for families, demonstrating 
for parents both the joy and the educational value of reading, playing, 
and talking with their children. Children's language and early literacy 
skills progress rapidly, and parents find an enormous sense of 
satisfaction in the progress that comes from their work with their 
children. This combination of fun and the dramatic changes families see 
in their children are the reason that on average 85% of the families 
who start in the Program complete the 2 years. The majority of families 
who do not complete the Program fail to do so because they move to a 
community where it is not available.
    We know The Parent-Child Home Program is successful because of the 
changes we see in the families and the success the children have when 
they enter school. We also know it is successful because of the 
positive responses from the local community sponsors, including school 
districts, family resource centers, community health clinics, and many 
community-based organizations, and from the way the Program is 
continuing to expand across the country. We see that home visiting is a 
service delivery method that is able to reach families whose children 
would otherwise show up in pre-K or kindergarten never having held a 
book, been read a story, engaged in a conversation, been encouraged to 
use their imagination, played a game that involves taking turns, or put 
together a puzzle.
    I would just like to share with you one brief anecdote 
demonstrating the long-term impact of the Program on the families who 
participate. As I mentioned earlier, we have followed program 
participants through high school graduation and beyond and have 
collected many wonderful examples of the Program's impact on children's 
lives. I think the long-term success of the Program is most clearly 
depicted by an interview that was conducted recently with a program 
graduate from one of our sites in New York, which has been implementing 
the Program for over 35 years. The son of immigrants from Columbia, he 
noted that of the 40 native Spanish-speaking students in his grade, 
only 3 went on to college. He observes that all these children went 
through the same schools and participated in the same activities, the 
only difference was The Parent-Child Home Program. He says it got him 
on the right track early; he entered school ready to learn and has 
soared ever since. He still has vivid memories of how confident he felt 
when he started kindergarten, how the books and toys were familiar and 
how he was the only native-Spanish-speaking child who knew the words to 
London Bridge is Falling Down. For him, the Program was a critical 
bridge to the rest of his education and for his mother it was 
empowering. She went back to school herself, and he noted she regularly 
would call his teachers to tell them to give him more homework because 
what they had given him was too easy. This young man is now a lawyer at 
a major New York City law firm, and he is the first Program graduate to 
become a member of The Parent-Child Home Program's national board of 
directors. His story is both extraordinary and typical of the kinds of 
success parents and children can achieve when home visiting is 
available to reach them where they are most comfortable and help them 
build the language and literacy skills they need to enter school ready 
to learn.
    Thank you for holding this hearing and considering the Education 
Begins at Home Act, which will provide funding to support vital 
services for children who would otherwise enter school unprepared and 
be unsuccessful. Thank you for helping to ensure that all parents 
struggling to help their children succeed receive the support they need 
to bring the joy of reading, playing, learning, and school success into 
their children's lives. We hope that you will move forward with this 
legislation to enable states to provide families with high quality, 
research-validated home visiting services that are a critical component 
of successful school readiness, early childhood education, and parent 
support efforts. It is truly a cost-effective way to ensure that all 
children have the opportunity to enter school ready to succeed.
                                 ______
                                 
    [Additional materials submitted by Mr. Davis of Illinois 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ------                                


       Prepared Statement of the Child Welfare League of America

    Chairman Miller, Representative McKeon and members of the 
Committee, the Child Welfare League of America submits this statement 
in support of HR. 2343, the Education Begins At Home Act. We thank the 
original sponsors of this legislation, Representatives Danny Davis and 
Todd Platts and all the bipartisan cosponsors who have joined them.
    CWLA represents hundreds of state and local direct service 
organizations including both public and private, and faith-based 
agencies. Our members provide a range of child welfare services from 
prevention to placement services including adoptions, foster care, 
kinship placements, and services provided in a residential setting. 
CWLA's vision is that every child will grow up in a safe, loving, and 
stable family and that we will lead the nation in building public will 
to realize this vision.
    As we have stated in other Congressional settings, CWLA believes 
the best way to ensure children are safe from all forms of maltreatment 
is to provide comprehensive, community-based approaches to protecting 
children and supporting and strengthening families. Public and private 
agencies, in collaboration with individual citizens and community 
entities, can prevent and remedy child maltreatment, achieve child 
safety, and promote child and family well being. There is no solution 
to addressing child abuse in our society short of a comprehensive 
approach that begins with preventive efforts and assures that we have a 
safe and permanent place for children who are the victims of abuse and 
neglect.
Home Visiting Models
    Home visitation programs refer to different model programs that 
provide in-home visits to targeted vulnerable or new families. Home 
visitation programs--either stand-alone programs or center-based 
programs--serve at least 400,000 children annually between the ages of 
0 and 5 \1\ but there is a need for us to do much more. The eligible 
families in these home visitation programs may receive services as 
early as the prenatal stage. Because a child's early years are the most 
critical for optimal development and provide the foundation necessary 
for success in school and life, home visiting can make a lifetime of 
difference./2/ Nurses and other trained members of the community 
conduct home visits on a weekly, bimonthly, or monthly basis. Program 
goals include an increase in positive parenting practices, improvement 
in the health of the entire family, increase in the family's ability to 
be self-sufficient, and enhanced school readiness for the children.
Prevention
    Although we speak in support of HR 2343 because we feel home 
visitation can provide an important component in a continuum of care 
that we need in the child welfare field, we also know that these 
programs can assist in improving education and health outcomes for 
children. Home visitation can show improved outcomes in the areas of 
prenatal care, access to health care and improved rates of 
immunizations.
    Whenever we engage in discussions in regard to our nation's child 
welfare system one of the first great challenges and debates is over 
how we can prevent abuse and neglect from taking place. All of us would 
prefer a system that can help a family before they ever become part of 
the more than 3.3 million reports of abuse and neglect filed annually 
and certainly before they become one of the more than 900,000 children 
who are substantiated as neglected and or abused each year. Research 
has shown that home visitation programs reduce abuse and neglect and 
juvenile delinquency, and ultimately save taxpayers over $50 billion 
annually.\3\
    We recognize the value both in human and economic terms, and the 
great benefits to our nation and to vulnerable families and children by 
enacting policies that prevent the need for ever placing a child in 
foster care. There is no simple model for prevention of child abuse and 
in fact we believe that a commitment to preventing child abuse will 
involve multiple efforts and strategies. Greater investment and support 
for home visitation is a critical part of such a strategy.
    Currently home visitation programs rely on a range of federal, 
state and local funds. Unfortunately these funding sources can be 
unreliable, even for programs that are demonstrating effectiveness in a 
range of areas. In recent years states have utilized funding sources 
such as and including the Social Services Block Grant (SSBG), Title IV-
B part 1, Child Welfare Services, Title IV-B part 2, Promoting Safe and 
Stable Families (PSSF), the Child Abuse Prevent and Treatment Act 
(CAPTA) state grants and Community-Based Family Resource and support 
grants. All of these funding sources are used to fund a range of other 
services, and all have been subject to reductions or proposed 
reductions in each of the last five budgets. This highlights the need 
for specific funding for home visiting programs to strengthen and 
stabilize the funding.
    All families benefit from information, guidance, and help in 
connecting with resources as they meet the challenges of parenthood and 
family life. For families with limited resources, or those that face 
additional challenges, the need for support and assistance is even 
greater.
    Families are central to child safety and well-being. Children 
develop the ability to lead productive, satisfying and independent 
lives in the context of their families. Family ties especially those 
between parent and child are extremely important in the development of 
a child's identity. Through interaction with parents and other 
significant family members, children learn and come to subscribe to 
their most cherished personal and cultural values and beliefs. They 
learn right from wrong, and gain competence and confidence. Family 
relationships must be nurtured and maintained to meet the needs of 
children for continuity and stability, which support healthy 
development.
    Evidence shows that children who experience maltreatment are at 
greater risk for adverse health effects and risky health behaviors when 
they reach adulthood. Many parents involved in the child welfare system 
do not intentionally harm their children; rather their lack of 
knowledge, skills, or resources has led them to harm their children.\4\
    Quality early childhood home visitation programs lead to several 
positive outcomes for children and families, including a reduction in 
child maltreatment. Annual data indicates that 40% of the more than 
900,000 children who are substantiated as abused and neglected, but not 
removed from the home, never receive follow-up services.\5\ There can 
be a number of reasons for these consistent statistics from year to 
year but one clear reason is that in some states follow-up services may 
not come until after a family has been placed on a wait list for 
services. More widely available and implemented home visitation could 
help address this drastic shortcoming. More serious is the fact that of 
the estimated 1,460 child deaths in 2005, 76.6% were younger than age 
4. Another 13.4% were between the ages of 4 and 7.\6\ Of the 
perpetrators of child maltreatment, 76.6% were parents.\7\
Evidence For Home Visitation Models
    Home visitation services stabilize at-risk families by 
significantly affecting factors directly linked to future abuse and 
neglect. Research shows that families who receive at least 15 home 
visits have less perceived stress and maternal depression, while also 
expressing higher levels of paternal competence.\8\ Home visitation 
programs may also reduce the disproportionality or overrepresentation 
of children and families of color in the child welfare system, while 
improving outcomes for these families. Research shows that 
participating children have improved rates of early literacy, language 
development, problem-solving, and social awareness. These children also 
demonstrate higher rates of school attendance and scores on achievement 
and standardized tests.\9\ Studies show that families who receive home 
visiting are more likely to have health insurance, seek prenatal and 
wellness care, and have their children immunized.\10\
    A study of the Missouri-based Parents As Teachers home visiting 
program examined the children enrolled in the program and found that by 
age 3, they were significantly more advanced in language, problem-
solving, and intellectual and social abilities than children in 
comparable groups.\11\ A study of the Nurse-Family Partnership showed a 
79% reduction in child maltreatment among at-risk families compared to 
other families in a control group. That same study also indicated a 
number of other benefits in the areas of health, employment, and 
behavior.\12\ Healthy Families America exists in more than 450 
communities; Home Instruction for Parents of Preschool Youngsters is in 
167 sites in 26 states; the Parent-Child Home Program has 137 sites 
nationally and 10 sites internationally; Early Head Start serves more 
than 62,000 children in 7,000 sites; and Parents as Teachers is located 
in all 50 states and serves more than 400,000 children.\13\
Conclusion
    Under the legislation, each governor would designate a lead state 
agency to oversee and implement the state program. The states can use 
their grants to supplement--but not replace--current state funding. The 
legislation does not dictate which, or how many, home visiting models 
may be used. If a state currently lacks a home visitation program, the 
funds can be used to develop a program. A state's grant funding award 
would be based on the number of children age 5 and younger living in 
the state. Applying states would submit a plan outlining their efforts 
to collaborate and coordinate among existing and new programs.
    CWLA commends the Committee for its hearing today on home 
visiting--highlighting its successful outcomes for children and their 
families. Such successful outcomes of home visiting contributing to 
familial continuity, educational enrichment, as well as physical and 
mental health will be expanded by increased federal support. CWLA hopes 
that this hearing today is merely the next step building on the hearing 
from the last Congress and that the next steps taken by Congress will 
be to further home visitation initiatives nationally by passage of the 
legislation before you. This commitment will make the benefits of in-
home visiting services accessible to many more families and improve 
outcomes for many more children.
                                endnotes
    \1\ Chapin Hall Center for Children at the University of Chicago. 
(2006). Challenges to building and sustaining effective home visitation 
programs: Lessons learned from states. Available online at http://
chapinhall.webex.com/seminar/251028/play/335933617/PPT--
presentations.pdf. Chicago: Author.
    \2\ Daro, D., Howard, E., Tobin, J., & Hardin, A. (2005). Welcome 
home and early start: An assessment of program quality and outcomes. 
Available online at http://www.chapinhall.org/article--
abstract.aspx?ar=1365. Chicago: Chapin Hall Center for Children at the 
University of Chicago.
    \3\ Fight Crime: Invest in Kids. (2003). New hope for preventing 
child abuse and neglect: Proven solution to save lives and to prevent 
future crime. Washington, DC: Author.
    \4\ Child Welfare League of America. (2005). Research Roundup: 
Parenting. Washington, DC: Author
    \5\ Administration on Children Youth and Families. (2008). Child 
maltreatment 2006. Washington, DC:, US Government Printing Office.
    \6\ Administration on Children Youth and Families. (2008). Child 
maltreatment 2006. Washington, DC: U.S. Government Printing Office.
    \7\ Ibid.
    \8\ Daro, D., Howard, E., Tobin, J., & Hardin, A. (2005). Welcome 
home and early start: an assessment of program quality and outcomes. 
Available online. Chicago, IL: Chapin Hall Center for Children at the 
University of Chicago. back
    \9\ Administration for Children and Families. (2003). Research to 
practice: Early Head Start home-based services. Washington, DC: Author.
    \10\ Berkenes, J.P. (2001). HOPES healthy families Iowa FY 2001 
services report. Great Falls, VA: Klagholz & Associates.
    \11\ Pfannenstiel, J., & Setlzer, D. (1985). Evaluation report: New 
parents as teachers project. Overland Park, KS: Research and Training 
Associates.
    \12\ Nurse-Family Partnership. (2005) Factsheet. Available online. 
Denver, CO: Author.
    \13\ Prevent Child Abuse America. (2006). Early Childhood Home 
Visiting Programs. Chicago, IL: Author.
                                 ______
                                 
                     Military Impacted Schools Association,
                                                     June 10, 2008.
Hon. Danny Davis,
Rayburn House Office Building, Washington, DC.
    Dear Congressman Davis: I am writing on behalf of the Military 
Impacted Schools Association (MISA) to encourage the passage of 
H.R.2343 to expand early childhood support programs for American 
Families.
    MISA represents school districts that provide for the education of 
military children throughout the United States. Our military children 
have unique challenges that they deal with regularly. One area that we 
as educators are trying to address is the tremendous stress that our 
children are under as a result of their parents' deployments. The 
United States has been at war for over five years. We are seeing young 
children going through many stages from withdrawing, to acting out, to 
contemplating suicide.
    It is a very difficult time for our military children as they watch 
the war play out on television, observe the stress of the parent/adult 
that is caring for them, and worry about whether their parents will be 
home for their birthday, Christmas, graduation, or even at all. School 
districts are doing everything they can with the resources they have to 
provide support for our military children. This is not a quick, short 
term fix. We need additional programs to assist our military children, 
keep them connected with their schools and families, and to help them 
through this very difficult time.
    The proposed legislation will allow school districts that serve 
military children the opportunity to secure funding to specifically 
address the needs in their school districts. The Military Impacted 
Schools Association respectfully requests your support for this 
important legislation. If you have questions, don't hesitate to call 
me.
            Sincerely,
                                     John F. Deegan, Ed.D.,
                                           MISA Executive Director.
                                 ______
                                 

           Prepared Statement of Prevent Child Abuse America

    Prevent Child Abuse America and its network of 44 state chapters 
and over 400 Healthy Families America program sites in 41 states thanks 
the Chairman and the other distinguished members of the U.S. House 
Committee on Education and Labor for this opportunity to provide the 
organization's perspective on the Education Begins at Home Act (EBAH, 
HR 2343). Through this testimony, our organization, including our 
National Board of Directors, intends to identify the value of home 
visiting and the outcomes that EBAH can achieve to enhance our nation's 
ability to promote healthy early childhood experiences.
About Prevent Child Abuse America
    Prevent Child Abuse America was founded in 1972 and is the first 
organization in the United States whose sole mission is ``to prevent 
the abuse and neglect of our nation's children.'' We undertake our 
mission by providing testimony such as this, to legislative as well as 
executive policy makers about the importance of a full range of 
services needed to promote healthy child development and provide 
parents regardless of wealth with the information they need to be the 
kind of parents they want to be. Based in Chicago, the National Office 
and our networks manage over 350 different locally-based strategies to 
meet the mission of the organization, including 2900 home visitation 
workers, supervisors and program managers oversee and implement Healthy 
Families America, a voluntary home visitation service.
The Importance of Development
    Our nation is recognized for meeting any challenges brought before 
us, our communities, and our workforce, but our continued position of 
leadership is greatly impacted by how we raise our children today. 
Healthy child development is a foundation for community development and 
economic development, as capable children become the foundation of a 
thriving society. The basic architecture of the brain is constructed 
through an ongoing process that begins before birth and continues into 
adulthood. Extreme and sustained stressful environments for children, 
also known as ``toxic stress,'' damages the developing brain and 
adversely affects an individual's learning and behavior, as well as 
increases susceptibility to physical and mental illness. When 
considering that the ability to change behavior decreases over time, it 
makes sense (and cents) to ``get it right'' early when it is more 
beneficial to society than trying to ``fix it'' later. This why Prevent 
Child Abuse America promotes the prevention of child abuse and neglect 
before it ever occurs. This is why early childhood home visitation 
services, as contemplated in the legislation, are so important to 
families, communities and our nation.
Role of Early Childhood Home Visitation
    All expectant parents and parents of newborns have common questions 
about their child's development. Early childhood home visitation 
provides a voluntary and direct service in which home visitors can help 
parents understand, recognize and promote age appropriate developmental 
activities for children; meet the emotional and practical needs of 
families; and improve the manner in which parents achieve better 
outcomes for their children.
    Research has shown that voluntary home visitation is an effective 
and cost-efficient strategy for supporting new parents and connecting 
them to helpful community resources. Quality early childhood home 
visitation programs lead to proven, positive outcomes for children and 
families, including improved child health and development, improved 
parenting practices, improved school readiness, and reductions in child 
abuse and neglect.
Healthy Families America
    Healthy Families America is Prevent Child Abuse America's 
nationally recognized, signature home visitation program. Through 
Healthy Families America, well-respected, extensively-trained 
assessment workers and home visitors provide valuable guidance, 
information and support to help parents be the best parents they can 
be. Healthy Families America focuses on three equally important goals 
to: 1) promote positive parenting; 2) encourage child health and 
development; and 3) prevent child abuse and neglect.
    A review of 34 studies in 25 states, involving over 230 Healthy 
Families America programs allows me to say with confidence and 
conviction that the benefits of Healthy Families America are proven, 
significant, and impact a wide range of child and family outcomes.\1\ 
In particular, Healthy Families America:
---------------------------------------------------------------------------
    \1\ Study designs include 8 randomized control trials and 8 
comparison group studies. More information on the studies can be found 
in the Healthy Families America Table of Evaluations at 
www.healthyfamiliesamerica.org/research/index.shtml.
---------------------------------------------------------------------------
    <bullet> Improves Parenting Attitudes. Healthy Families America 
families show positive changes in their perspectives on parenting roles 
and responsibilities.
    <bullet> Increases Knowledge of Child Development. Healthy Families 
America parents learn about infant care and development; including 
child care, nutrition, and effective positive discipline.
    <bullet> Supports a Quality Home Environment. Healthy Families 
America parents read to their children at early ages, provide 
appropriate learning materials, and are more involved in their child's 
activities, all factors associated with positive child development.
    <bullet> Promotes Positive Parent-Child Interaction. Healthy 
Families America parents demonstrate better communication with, and 
responsiveness to, their children. This interaction is an important 
factor in social and emotional readiness to enter school.
    <bullet> Improves Family Health. Healthy Families America improves 
parents' access to medical services, leading to high rates of well-baby 
visits and high immunization rates. Healthy Families America also helps 
increase breast feeding, which is linked to many benefits for both 
babies and moms.
    <bullet> Prevents Child Abuse and Neglect. Healthy Families America 
has a significant impact on preventing child maltreatment, particularly 
demonstrated in recent randomized control trials.
    In addition to our stewardship of Healthy Families America, Prevent 
Child Abuse America partners with other effective home visiting models 
working in communities across the country to create nurturing 
environments for children. Our national home visiting partners include 
Home Instruction for Parents of Preschool Youngsters (HIPPY USA), the 
Nurse-Family Partnership, The Parent-Child Home Program, and Parents as 
Teachers.
    Together, we have accepted the responsibility to improve the home 
visitation field. Together, we share research findings and best 
practices, work together towards common goals, and create areas for 
cross program cooperation and learning that strengthen the home visit 
field as a whole, as well as enhance individual programs. At the local 
level, Healthy Families programs partner with other home visiting 
models to reach a broader population of families, to ensure that 
families are receiving the home visiting service model best suited to 
their needs, and to maximize limited resources.
The Need for Reliable Funding and a Coordinated Approach
    Across the country, home visitation services struggle with 
unreliable and unsustainable funding. Federal programs that have 
traditionally provided significant support to home visitation, such as 
Temporary Assistance for Needy Families (TANF) and Promoting Safe and 
Stable Families (PSSF), have been subject to recent statutory changes 
and funding cuts that hamper states' abilities to invest in home 
visitation. The current patchwork of funding results in a home 
visitation system that serves only a small percentage of families. By 
one estimate, approximately 400,000 children and families participate 
in home visitation services each year.\2\ As a reference point, there 
were 4.1 million live births in the U.S. in 2004.\3\
---------------------------------------------------------------------------
    \2\ Gomby, D. (2005). Home Visitation in 2005: Outcomes for 
Children and Parents. Invest in Kids Working Paper No. 7. Committee for 
Economic Development: Invest in Kids Working Group. Available at 
www.ced.org/projects/kids.shtml.
    \3\ Martin JA, Hamilton BE, Sutton PD, et al. Births: Final data 
for 2004. National vital statistics reports; vol 55 no 1. Hyattsville, 
MD: National Center for Health Statistics. 2006.
---------------------------------------------------------------------------
    The Education Begins at Home Act (EBAH, HR 3628) introduced by 
Representatives Danny Davis and Todd Platts will address the current 
home visiting funding crisis by establishing the first, dedicated 
federal funding stream to support parents with newborns and young 
children through quality, voluntary home visitation at the state and 
local levels.
    EBAH authorizes $500 million over three years to help states 
establish or expand quality early childhood home visitation programs. 
Of this funding, $400 million will be divided among states to provide 
eligible families with voluntary quality early childhood home 
visitation on at least a monthly basis. The remaining $100 million will 
be equally divided between two competitive grant programs designed to 
address the specific needs of military families and families with 
English language learners.
    EBAH dollars will enable programs to reach thousands more families 
with young children. Strict quality controls established in the bill 
will ensure that only the highest quality programs are funded with the 
new money. In order to be eligible, home visitation programs will need 
to use a model with a strong evidence base and must show that they can 
adequately monitor their program for quality assurance. Additionally, 
there will be standards for staff training and referral networks, and 
programs will be independently evaluated.
    The legislation empowers states to develop statewide plans for home 
visitation that best suit the needs of their communities. In order to 
draw down EBAH funds, states will have to assess the reach and scope of 
existing early childhood home visitation efforts and identify gaps in 
services. Taking this intentional approach to implementation will lead 
to: greater coordination among the various models of early childhood 
home visitation and the broader child-serving community; a more 
efficient use of resources; and a greater assurance that families are 
receiving the most appropriate and effective home visiting services to 
meet their needs. This model allows for a clear outcome driven national 
public policy that promotes consistent results and allows states to 
manage the services in accordance with their specific existing service 
delivery systems, on-going best practices and existing public-private 
partnerships.
Conclusion
    Home visitation is an effective, evidence-based, and cost-efficient 
way to bring families and resources together, and help families to make 
choices that will give their children the chance to grow up healthy and 
ready to learn. Making quality home visitation programs more widely 
available in all communities is one of Prevent Child Abuse America's 
top priorities, and I assure you that our national network is mobilized 
in support of this legislation. Research also is clear that failing to 
prevent abuse and neglect from occurring costs the America taxpayers 
over $103 billion per year.\4\ EBAH does not represent an expenditure 
but rather an investment in our children and families. It also 
contributes to more productive adult members of our society that 
promote stronger families, but also can be more productive in the 
workplace. This naturally contributes to our competitiveness in an 
expanding global economy.
---------------------------------------------------------------------------
    \4\ Wang, C & Holton, J. (2008). Total estimated cost of child 
abuse and neglect in the United States: Statistical evidence. Chicago, 
IL: Prevent Child Abuse America.
---------------------------------------------------------------------------
    While no one piece of legislation can prevent child abuse and 
neglect, I believe that EBAH is an important step towards ensuring that 
all children have the opportunity to grow up in a safe, healthy, and 
nurturing environment. I look forward to working with members of this 
Committee to make the well-being of our nation's children a priority. I 
hope that this legislation will help to turn our country's priorities 
and choices toward more comprehensive and effective ways for 
communities and systems to care for children and families.
                                 ______
                                 

      Prepared Statement of the American Psychological Association

    On behalf of the 148,000 members and affiliates of the American 
Psychological Association (APA), we thank you for holding this 
important hearing to discuss the critical role of early home visitation 
programs in promoting child development.
    The APA is a scientific and professional organization that works to 
advance psychology as a science, a profession, and as a means of 
promoting health, education, and human welfare. Psychologists play a 
vital role in assessing the effectiveness of and making recommendations 
regarding programs of importance to children and families, such as 
those that provide early childhood home visitation. As such, we 
appreciate the opportunity to share our thoughts regarding these 
critically important programs with members of this Committee.
    ``Home visitation'' is defined as a program that includes 
visitation of parents and children in their home by trained personnel 
who convey information about child health, development, and care; offer 
support; provide training; or deliver any combination of these 
services. While visits must occur during at least part of a child's 
first two years of life, they can also begin during pregnancy. 
Individuals providing these services include nurses, social workers, 
paraprofessionals, and community peers.
    Home visitation programs have generally been offered to specific 
population groups, such as those who are first-time mothers; low-income 
or young parents; parents suffering from substance use problems; 
children at risk of abuse or neglect; and those who have low birth 
weight, a disability, or are premature. Visitation programs often 
address problems and create interventions of mutual benefit to parents 
and children, such as training of parents on prenatal and infant care; 
developmental interaction with infants and toddlers; family planning 
assistance; educational and work opportunities; and connection with 
community services.
    Research indicates important benefits of home visitation programs. 
Home visitation often leads to the enhancement of parents' sense of 
self-efficacy which, in turn, strengthens their role as parents. Home 
visitors encourage and facilitate successful, achievable modifications 
in parents' lives, teaching effective parenting, working to strengthen 
the support of family members and friends, and strengthening the 
capacities of parents to access the social resources available to them. 
In addition, research suggests that the impact of home visitation may 
positively influence social environment--including social networks, 
neighborhoods, communities, and cultures--on child development.
    A study conducted at New Mexico State University examined the 
outcomes of a home visitation program that provided services to first-
born children and their parents. Home visitation workers conducted 
pretest and posttest assessments for prenatal and postpartum periods. 
Clients participating in the First-Born Program displayed significantly 
higher posttest scores on measures of family resiliency. Specifically, 
clients demonstrated improved scores in operationalized measures of 
resilience, including social support, caregiver characteristics, family 
interaction measures, and a reduction in personal problems affecting 
parenting. The results of this study are promising, as participants 
were observed to make positive improvements in specific areas related 
to family resiliency.
    Of paramount importance is the potential of home visitation 
programs to prevent child maltreatment. Various studies have assessed 
the effectiveness of home visitation programs in this area. One such 
study, conducted by the nonfederal Task Force on Community Preventative 
Services, looked at the effectiveness of early childhood home 
visitation in preventing violence. The study concluded that these 
programs are effective in the prevention of child maltreatment and 
reduce reported maltreatment by approximately 39 percent.
    Strong evidence indicates that early home visitation is especially 
effective in preventing child maltreatment in populations that have 
been shown to be at elevated risk of maltreatment. The study also found 
that programs delivered by professional visitors (i.e., nurses or 
mental health professionals) seemed to yield greater effects than those 
delivered by paraprofessionals.
    Staggering numbers of children and families impacted by child abuse 
and neglect demonstrate that the need for these programs is urgent. In 
2006, an estimated 3.6 million reports of possible child abuse or 
neglect were made to child protective agencies. Of those reports, 
905,000 were substantiated, yet 40 percent of the victims received no 
services following the substantiation. Approximately 1,500 children die 
of abuse or neglect each year. These data reveal a public health crisis 
warranting concerted national attention and an increased focus on 
prevention.
    Given the proven success of these programs, especially in 
preventing child abuse and neglect, enactment of the Education Begins 
at Home Act (H.R. 2343) is critically important. H.R. 2343 dedicates a 
funding stream to support parents with young children through home 
visitation at the state and local level. The legislation provides $400 
million over three years to states, tribes, and territories to expand 
access to parent education and family support services. This 
legislation additionally targets English language learners and military 
families for assistance, since these groups often lack natural support 
systems. The APA strongly supports this legislation and urges its 
support by the Committee.
    In closing, the American Psychological Association would like to 
thank you for the opportunity to share our comments on early childhood 
home visitation programs. We appreciate the Committee's ongoing 
commitment to the positive development of children and look forward to 
serving as a resource and partner as you work on this and other 
important issues affecting children and their families.
                                 ______
                                 
    [The article, ``The Parents as Teachers Program and School 
Success: A Replication and Extension,'' published in the March 
2008 Journal of Primary Prevention, may be accessed at the 
following Internet address:]

         http://www.springerlink.com/content/88h76474r2563455/
                ?p=10d59e48429641028898aa132cd29e5c&pi=1

                                 ______
                                 
    [Whereupon, at 12:19 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
